<html>
<title> - A TIME FOR CHANGE: IMPROVING THE FEDERAL CLIMATE CHANGE RESEARCH AND INFORMATION PROGRAM</title>
<body><pre>[Senate Hearing 110-1119]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1119
 
                           A TIME FOR CHANGE:

 IMPROVING THE FEDERAL CLIMATE CHANGE RESEARCH AND INFORMATION PROGRAM

=======================================================================



                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
73-849                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel



                            C O N T E N T S



                              ----------                              
                                                                   Page
Hearing held on November 14, 2007................................     1
Statement of Senator Boxer.......................................     4
    Prepared statement...........................................     5
Statement of Senator Kerry.......................................     1
Statement of Senator Klobuchar...................................    15
    Prepared statement of Senator Cantwell.......................    16
Statement of Senator Lautenberg..................................     3
Statement of Senator Nelson......................................    14
Statement of Senator Snowe.......................................    37
    Prepared statement...........................................    40
Statement of Senator Stevens.....................................    23
    Prepared statement...........................................    24
Statement of Senator Thune.......................................    33
    Prepared statement...........................................    33
Statement of Senator Vitter......................................    41

                               Witnesses

Boesch, Ph.D., Donald F., Professor and President, University of 
  Maryland Center for Environmental Science......................    48
    Prepared statement...........................................    50
Carter, Ph.D., Lynne M., Co-Director, Adaptation Network.........    64
    Prepared statement...........................................    66
Christy, John R., Professor of Atmospheric Science, and Director 
  of the Earth System Science Center, University of Alabama in 
  Huntsville, and 
  Alabama's State Climatologist..................................    68
    Prepared statement...........................................    70
    Article, dated November 1, 2007, from The Wall Street 
      Journal, entitled ``My Nobel Moment''......................    74
Davis, Dr. Braxton C., Chair, Climate Change Committee, Coastal 
  States Organization and Director, Science and Policy Division, 
  Office of Ocean and Coastal Resource Management, South Carolina 
  Department of Health and Environmental Control.................    55
    Prepared statement...........................................    57
Frumhoff, Ph.D., Peter C., Director of Science and Policy and 
  Chief Scientist, Climate Campaign, Union of Concerned 
  Scientists.....................................................    60
    Prepared statement...........................................    62
Marburger III, Ph.D., Hon. John H., Science Advisor to the 
  President and Director, Office of Science and Technology 
  Policy, accompanied by Jack A. Kaye, Ph.D., Director, Research 
  Division, NASA Office of Earth Science.........................    18
    Prepared statement...........................................    20
Moss, Ph.D., Richard H., Vice President and Managing Director, 
  Climate Change, World Wildlife Fund............................    75
    Prepared statement...........................................    77

                                Appendix

Report, entitled Summary for Policymakers by Working Group I of 
  the Intergovernmental Panel on Climate Change..................    95


                           A TIME FOR CHANGE:



 IMPROVING THE FEDERAL CLIMATE CHANGE RESEARCH AND INFORMATION PROGRAM

                              ----------                              


                      WEDNESDAY, NOVEMBER 14, 2007

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John F. 
Kerry, presiding.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Good morning. This hearing of the Commerce 
Committee will be in order. Thank you for being here today to 
update us on a critical topic, which is the status of our 
Federal Government's Climate Science and Assessment Program.
    This is an issue which has, for some period of time, been 
pretty high on the Committee's list of priorities. This is the 
6th hearing of the Commerce Committee, this session, that 
touches on aspects of the Climate Change Research Program. And 
we've been discussing this program now for the last 7 years.
    In preparation for this hearing, I looked back at the 
opening statements that I'd made from similar hearings in 2001 
and 2002, and frankly, I was dismayed to see that the same 
concerns that Senator McCain and I raised, remain all too 
relevant today.
    A number of events this year have highlighted ongoing 
weaknesses in the Federal Government's Climate Research 
Program. First of all, GAO released a report that Senator 
McCain and I requested, addressing the serious impacts of 
climate change on our Federal land and water resources. That 
report found that the Federal Government is not providing 
resource managers with the information that they need to 
address the impacts of climate change, and as everybody knows, 
adaptation and mitigation are two of the most critical response 
factors that have been singled out by the international 
community in order to deal with this, and will be the subject 
of the negotiations over the next 2 years for the follow-on to 
the Kyoto Treaty.
    So, it would be helpful, obviously, if the United States 
were dealing with that more effectively.
    Second, the National Academy of Sciences released a report 
highlighting major gaps in the Federal Climate Research 
Program, notably with regard to impacts of climate change and 
the communication of those impacts.
    Third, a Federal District Court in California found the 
Administration violated the requirements of the Global Change 
Research Act of 1990, by failing to produce a national 
assessment as required by the Act.
    Now, I'm going to focus on some of these questions, issues, 
during the Q&A, but let me briefly emphasize the importance of 
the national assessment.
    The 1990 Global Change Research Act requires that any 
Administration produce an assessment report no less frequently 
than every 4 years. The last report was issued by President 
Clinton in the year 2000. Seven years later, the Bush 
Administration has not produced a new report. GAO has 
criticized the alternative strategy that's been put forward of 
producing 21 separate reports, which incidentally, only 4 of 
which, of the 21, have been completed, to date.
    The GAO has suggested that's insufficient for meeting the 
needs of Congress, and other policymakers.
    Now, I'd like to understand something that the 
Administration has not yet answered adequately, which is why 
they refuse to produce these reports, and provide information 
to the American people. I hope the Administration will follow 
the court order, and issue a comprehensive assessment report by 
May of 2008, and I look forward to discussing that, also, 
today.
    I might just remind everybody that these reports are 
required by law, they are the law of the land, and it's 
important to have them met, because that is the intent of 
Congress, and it is not our desire to have a vast array of 
watered-down reports from various departments in ways that 
would not contemplate it.
    In light of these developments, in addition to the latest 
IPCC report, Senator Snowe and I recently introduced a bill 
that would address many of the weaknesses of the current 
climate change research and assessment program, and we're 
confident that this legislation, the Global Change Research 
Improvement Act of 2007, will prepare the Federal Government to 
address the risks and the impacts that are associated with 
climate change and provide city managers, resource managers and 
citizens with the information they need to try to deal with 
this in their communities. I thank Senator Snowe for her 
ongoing leadership and involvement in this issue.
    In all of these discussions, it's important to keep in 
mind, that the policy needs to be driven by the best possible 
science, that's what we've always sought to do here in this 
Committee. When Senator McCain was Chairman, he held hearings 
looking at and examining the state of our science. It's been a 
bipartisan effort.
    The bill that we've introduced, we hope will ensure that 
the Federal Government provides us with the information that we 
need in order to make good policy.
    I want to thank Dr. Marburger for joining us today, 
everybody knows he's the Science Adviser to the President, 
Director of the Office of Science and Technology Policy, 
accompanied by Dr. Jack Kaye, Director of Research Division of 
the Office of Earth Science.
    And let me just turn quickly to my colleagues for opening 
statements they may have.
    Senator Boxer?
    Senator Lautenberg?

              STATEMENT OF HON. FRANK LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks very much, Mr. Chairman.
    We've got to face it, global warming for most of us, is one 
of the most important issues facing this country, this Congress 
and our world. Most Americans are convinced about it, but not 
all. And it's distressing.
    Science tells us that the man-made emissions of greenhouse 
gases threatens our environment and our health. And that's why, 
frankly, I'm perplexed that the Bush Administration continues 
to ignore, censor, and suppress science. And, obviously, they 
show by their inaction that they're not convinced that this is 
a serious matter.
    One year ago, 13 of my Senate colleagues, including 
Senators Kerry and Boxer, on this Committee, and others, joined 
with me to ask the Inspector General of NOAA and NASA, to 
investigate interference by political appointees about 
scientific research on the dangers of global warming. We are 
waiting for their reports. And meanwhile, as we wait, the 
problem grows worse.
    Meanwhile, the Administration's censorship and outright 
denial of these risks has continued. In May of this year, the 
NASA Administrator, Michael Griffin said, and I quote him here, 
``I'm not sure that it's fair to say that global warming is a 
problem we must wrestle with.'' How about that?
    Now, just 3 weeks ago, the White House deleted 6 pages of 
CDC officials' Senate testimony on the health effects of global 
warming. And what's worse, Mr. Chairman, it seems that when the 
Administration is not censoring or suppressing the information, 
it is simply ignoring the issue entirely.
    A national climate assessment from the Bush Administration 
on the effects of climate change, as the Chairman noted, was 
due to Congress, 3 years ago. We still haven't seen it, and 
there's apparently no plan to produce it. The scientific 
research is critical to our country, to my State of New Jersey 
where climate change will cause more air pollution, sea level 
rise, ocean acidification.
    And that's why I'm working with my Senate colleagues to 
fight global warming, I think it's a terrible threat. And I 
look at it--and this isn't something that's so far off that 
those who are here now--like my grandchildren and other 
people's grandchildren--won't be affected by our neglect or our 
choice to go slow on this.
    Just last week, we had the Lieberman-Warner bill that, we 
negotiated together and we made significant changes, and that 
bill passed out of Environment and Public Works Subcommittee, 
and I'm pleased to be here with our, the Chairman of the 
Environment Committee, Senator Boxer. We're all eager to get 
things moving, here, and we're beginning to do it in the 
Environment Committee, and happy to see it taking place here.
    I also have legislation before this Committee, along with 
Senator Cantwell, to expand and coordinate the government's 
research on ocean acidification, a danger caused by greenhouse 
gases. As ocean acidification intensifies, the fish and coral 
reefs that we depend on for food, tourism and other economic 
benefits are going to suffer substantially.
    Left unchecked, this threat could affect hundreds of 
millions of people worldwide who rely on our oceans. Every day 
that we fail to fight global warming, is another day that our 
planet gets sicker, and every time science is suppressed, it 
gives people reason not to act.
    So, we've got to let science chart our course as we fight 
global warming, and we must act now. Doing nothing is not the 
legacy any of us would want to leave behind.
    And Mr. Chairman, I thank you.
    Senator Kerry. Thank you, Senator Lautenberg.
    Senator Boxer?

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Mr. Chairman, thank you so much. I just want 
to take a moment to just thank you personally for your 
leadership on this issue of global warming. You've been there 
for a very long time. You've been to every single international 
conference, trying to reassure the world that, ``Yes, America 
is going to be a partner.'' Unfortunately, we've lost valuable 
time--terribly valuable time--these last, I guess it's 7 years, 
it feels like forever.
    And, your leadership on this issue extends to working with 
me and so many others, to help us move a good bill forward, and 
you've played a pivotal role.
    I mean, I just wanted to say, I say it privately to you, 
but I want to say it publicly to you. And the fact that we have 
so much overlap on our Committees, this Committee has a very 
important jurisdiction, the Energy Committee, the Environment 
Committee--I'm proud that three of my Members of my Committee, 
three of us are here, because it just shows that we want to 
work together--we're not in a little bubble over there. We 
can't do it without everyone's help. This is a big deal. And 
there are forces out there that are trying to shut us down.
    Now, the reason I took time to come here today, first to 
thank you, second, to raise an issue that is of great concern 
to me, and will take me 3 minutes to talk to you about it, and 
to colleagues. And my colleagues on the Committee know about 
this issue.
    We invited Dr. Julie Gerberding, the Director for the 
Centers for Disease Control, to come forward and talk to us 
about the potential problems that the world will face and the 
country will face--public health problems--if we don't get our 
arms around this. Because, we all know the problems with rising 
temperatures, and what does that mean for our rivers, streams 
and lakes and the amoebas and the bacteria that live there? 
What does it mean when sea levels rise? What does this all 
mean?
    She produced testimony, and when I read it, Mr. Chairman, 
and members, I thought, ``It's a little disjointed,'' frankly. 
I mean, it didn't really comport with what I had talked with 
her about before.
    And I said something to her, I said, ``Gee, your testimony 
is a little disjointed.'' She didn't say anything.
    Well, later, because a whistle-blower came out and told the 
truth, we found out that, in fact, her testimony was decimated, 
pages and pages of it redacted. And, when I saw that Dr. 
Marburger was here, I wanted to come, because my understanding 
is he was involved in some of those edits.
    When Dana Perino was asked about it, the press person for 
the White House, she said, ``Well the reason it was redacted 
is, some of the things that she said were in conflict with the 
IPCC,'' totally baloney. And I want to take the last 2 minutes 
to show you a chart here, well, show all of them.
    She said, ``As I understand it, the draft did not comport 
with what the science was in the IPCC report, and so it was 
reviewed, and scientists took a look at it.''
    OK, let's go to the next.
    Now, we went back and we got some of the deleted text--and 
I don't have time, I don't want to take your time to go through 
it----
    Senator Kerry. No, it's very important.
    Senator Boxer. But, there's absolutely--here's the deleted 
text that, ``In the U.S. climate change is likely to have a 
significant impact on health through links with the following 
outcomes: Direct effects of heat, health effects related to 
extreme weather, air pollution, allergic diseases, water and 
food-borne infectious diseases, vector-borne and zoonotic 
diseases, food and water scarcity, mental health problems, 
long-term impacts of chronic diseases and other health 
effects,'' this was deleted by the so-called scientists over 
there. At the Bush Administration.
    And here, we put the IPCC report, and without reading it, 
you can see it matches, it's a match. Dr. Gerberding is 
brilliant. Dr. Gerberding is not going to say things that 
aren't true.
    Luckily we had a whistle-blower over there, maybe they're 
the ones who are laughing, I don't know, but thank the Lord, 
there are people inside there that told us the truth.
    Now, last point, Mr. Chairman, if I can engage you in this, 
this would be a big day for me. We wrote to the President, we 
said, ``Outrageous. Send us the documents. We got a whistle-
blower to do this, send us all of the document.'' Guess what? 
We haven't gotten any documents. Guess what? We got a letter 
from Fred Fielding, the White House Counsel, ``executive 
privilege.'' Executive privilege? About public health? The 
taxpayers are paying your salaries, they're paying our 
salaries, don't you think they have a right to know what the 
top doc of the country thinks?
    So, I came here today, I have to say, with a motive to 
engage you more on this effort, because this is a lonely fight, 
when they write ``executive privilege,'' the door slams. And 
maybe through this Committee, because my other Committee is so 
crazed with everything we're doing, we could work on this to 
get these documents and I would urge you to join with me, and I 
will wait for questioning of Dr. Marburger for the rest.
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    Mr. Chairman, thank you for holding this hearing.
    Global warming is the greatest environmental challenge of our 
generation. We must have a comprehensive and robust science program to 
assess this threat.
    The Environment and Public Works committee recently held a hearing 
examining the human health impacts of global warming in which Dr. Julie 
Gerberding, the Director of the Center for Disease Control and 
Prevention or CDC testified.
    Dr. Gerberding prepared testimony, but when the testimony was 
reviewed by the Bush Administration it was heavily edited and 
essentially cut in half. I understand that John Marburger, science 
advisor to the President, was involved in this editing.
    I find this heavy editing appalling. I would like to read from a 
letter I sent to President Bush on October 24, concerning this 
censorship:

U.S. Senate,
Committee on Environment and Public Works,
Washington, DC.
                                                   October 24, 2007
The President,
The White House,
Washington, DC.

Dear Mr. President:

    Yesterday, at a hearing before the Senate Committee on Environment 
and Public Works, Dr. Julie Gerberding, the Director of the Centers for 
Disease Control and Prevention (CDC), delivered testimony on the public 
health implications of global warming. I have learned that the 
Director's written statement was heavily edited during a review process 
coordinated by the Office of Management and Budget (OMB) in the 
Executive Office of the President. Among the changes made in the 
written testimony were the removal of several pages of detailed 
information summarizing scientific studies and reports on the public 
health impacts of' global warming.
    The public has a right to all of the facts about global warming and 
the threat it poses to their families and communities. I am deeply 
concerned that important scientific and health information was removed 
from the CDC Director's testimony at the last minute. I write to ask 
you to ensure that the public receives a full accounting of what 
occurred during that review process, and who was involved.
    Please provide to my office. no later than Monday, October 29, 
2007, a copy of all drafts of the CDC Director's testimony sent to the 
Office of Management and Budget or other offices within the Executive 
Office of the President or other agencies. Please also provide any 
records reflecting comments on the draft testimony of any of those 
entities or officials within or affiliated with the Executive Office of 
the President or any of the White House Offices (including the Office 
of the Vice President), or of any other agency, and the names and 
titles of the persons involved in the review.
    If your staff has any questions, please contact Bettina Poirier, 
Staff Director for the Committee at 202-224-8832.
            Sincerely,
                                             Barbara Boxer,
                                                           Chairman

    The White House responded to my request with a letter on October 
30, that I will read from now:

The White House,
Washington.
                                                   October 30, 2007
Hon. Barbara Boxer,
U.S. Senate,
Washington, DC.

Dear Senator Boxer:

    Thank you for your letter to the President dated October 24, 2007, 
which has been referred to me for a response. Your letter seeks 
information in the possession of the White House relating to testimony 
provided by Dr. Julie Gerberding, the Director of the Centers for 
Disease Control and Prevention, to the Senate Committee on the 
Environment and Public Works.
    A member of my staff spoke with your Staff Director, Bettina 
Poirier, on Friday, October 26, 2007, and informed her that we have 
begun the process of identifying and locating materials that may be 
responsive to your request. We expect to have a timetable for 
assembling these materials in the next several days. We will contact 
your office as soon as we have solidified dates for our internal 
processes.
    I note that the request by its very nature seeks communications 
involving pre-decisional deliberative materials relating to an inter-
agency review process. However, until the requested materials arc 
gathered, it will not be possible to say with particularity which 
responsive materials may fall into this category. Nevertheless, it is 
clear that the request implicates core Executive Branch interests and 
raises separation of powers concerns as well. For that reason, we 
anticipate that once responsive documents are gathered, it will he 
necessary to discuss with representatives of your committee the basis 
for any decision to withhold documents and, if appropriate, the 
possibility of reaching an accommodation that balances Executive Branch 
prerogatives with the committee's legitimate oversight needs.
    We refer you to the Office of the Vice President in regard to the 
letter's request for vice Presidential records.
    We look forward to working with the Committee to achieve a 
resolution respectful of the needs of both the Executive and 
legislative branches. Please telephone me or Emmet Flood in my office 
if you have any questions concerning the foregoing.
            Sincerely,
                                          Fred F. Fielding,
                                           Counsel to the President

    It has been several weeks and the dates for response have come and 
gone. I have seen no documents from them.
    I find this to be outrageous. The American people have a right to a 
full accounting: how did our leading public health official with a 
responsibility to brief a Senate Committee have many pages of critical 
information blacked out by the White House?
    Dana Perino, the White House Press Secretary, said in a press 
conference that ``the draft information did not comport with what--the 
science that was in the IPCC report.''

The White House
Office of the Press Secretary
Internal Transcript
                                                   October 24, 2007
Press Gaggle
By Dana Perino
James S. Brady Briefing Room

9:08 A.M. EDT

    Ms. PERINO: OK, I'm going to go ahead and start. The President had 
his normal briefings at 8 a.m. We moved up this gaggle because the 
President, at 9:30 a.m., is going to participate in a video 
teleconference with administration officials who are in California 
monitoring the wildfires, and he will get an update. He got one last 
night by phone, and this will be 12 hours later to find out what's 
going on.
    ***
    Ms. PERINO: We'll check into it. John, you had something on 
climate.
    Question. Yes. I just wanted to ask about this AP article that says 
that Dr. Judy Gerberding's testimony----
    Ms. PERINO: Gerberding.
    Question. What is it?
    Ms. PERINO: OK, since you're going to have to pronounce it so much.
    Question. Thank you. (Laughter.) Can you pronounce again then so 
that I can hear?
    Ms. PERINO: Sorry to be condescending. I'm taking my cue from 
Wendell. (Laughter.) Gerberding.
    Question. Thank you.
    Question. Do you want to start this battle? (Laughter.)
    Ms. PERINO: You start it every day, I've just started to fight 
back.
    Question. OK, all right.
    Question. OK, whatever her name is--the AP story quotes an unnamed 
CDC official saying that her testimony was heavily edited by the White 
House, taking out references to specific diseases in this climate 
change report to Congress. And the suggestion seems to be that it was 
politically unpalatable in its original form. Can you just tell what 
happened?
    Ms. PERINO: I checked into this a little bit. Look, it's not 
unusual. All testimony goes through interagency review here through the 
OMB process. A number of the agencies had some concerns with the draft 
and I know that our scientists at the Office of Science and Technology 
Policy looked at the draft and wanted to make sure that it was taking 
advantage of the science that had been provided in the International 
Panel on Climate Change--that was the IPCC report that came out last 
spring that we largely funded and that we embraced in its conclusions. 
It is also the one that Nobel Peace Prize winner Al Gore--one of the 
reasons he is sharing the Nobel Peace Prize is because the IPCC work.
    And she herself said in the testimony that there are links to 
public health and climate change. And her spokesperson said that she 
was able to provide the Congress with everything that she wanted to 
say. And I think that the other thing to keep in mind is that it was 
only less than a month ago that the President brought 15 of the major 
economies of the world together to try to work on the problem of global 
warming together because he recognized that without the participation 
of those major economies, like China and India, that had been left out 
of the process beforehand, that we wouldn't get anywhere without it. So 
I'll refer you to CDC for anything additional about what they wanted to 
say.
    Question. Well, wait a minute. Come on, if you say that she 
provided the Congress with everything that she would have wanted to 
say, it seems that it was--it seems evident then that you didn't want 
it said in public.
    Ms. PERINO: No, if I----
    Question. You just said she provided the Congress with the 
material----
    Ms. PERINO: She testified yesterday. Her spokesperson said that she 
was able to say everything that she wanted to say. Look, when there--
testimony that comes over that is drafted goes through the interagency 
review process. It was not watered-down in terms of its science. It 
wasn't watered-down in terms of the concerns that climate change raises 
for public health. And her spokesperson said that, as well. So I'm not 
going to say that--we're not going to stop doing interagency review 
because there's----
    Question. Of course not, but how did it go from eight pages to 
four, or whatever it was? It was cut down by about half.
    Ms. PERINO: Look, what I do know is that the Office of Science and 
Technology Policy, those scientists over there, led by Dr. Jack 
Marburger, are the ones who have been encouraging us to do even more on 
climate change.
    They are--they have been robust in pushing for additional resources 
in order to get more science. They encouraged us to participate in the 
IPCC process, which we did; we accepted those findings that climate 
change is real and it is, in large part, caused by humans, and that we 
have to do something about it. There are----
    Question. No argument. But why shouldn't----
    Ms. PERINO: What is the argument?
    Question. Why shouldn't we think that there was something excised 
from that testimony that you did not want her to say?
    Ms. PERINO: Because of what she said and what her spokesperson said 
and what I'm telling you here.
    Question. Dana, you said--sorry, your mention of the IPCC--is what 
was taken out after this interagency review----
    Ms. PERINO: No, no, no, they wanted to make sure that the science 
that was provided in the IPCC report and----
    Question. Right, you're saying that what came out was not 
consistent with----
    Ms. PERINO: I don't know. As I understand it, the draft information 
did not comport with what--the science that was in the IPCC report--
that was the International Panel on Climate Change. And so it was 
reviewed, and the scientists took a look at it.
END 9:29 A.M. EDT
*South America

    We were able to obtain one prior version of Dr. Gerberding's 
testimony to see some of what was deleted. The science that was removed 
is actually very similar to what the IPCC has told us.
    The pattern of censorship by this White House on crucial 
information on global warming is unconscionable. There is no excuse.
    We need an open and honest scientific process to ensure we know all 
we can possibly know about our climate, so that we can avert the worst 
impacts of global warming. I look forward to addressing questions to 
Dr. Marburger today.

   Deleted Text from CDC Testimony on Global Warming and Public Health
 Compared With Relevant Findings of Nobel Prize Winning Scientific Body
                       on Global Warming's Impacts
------------------------------------------------------------------------
            Deleted Text                    IPCC Report Statements
------------------------------------------------------------------------
``Climate Change is Public Health
 Concern

In the United States, climate
 change is likely to have a
 significant impact on health,
 through links with the following
 outcomes:








                                     ``Emerging evidence of climate










                                     ``Several studies have confirmed
                                      and quantified the effects of high
                                      temperatures on common forms of
                                      food poisoning, such as
                                      salmonellosis. . . .'' \2\

                                     ``There is increasing evidence of
                                      the importance of mental disorders
                                      as an impact of disasters . . .
                                      Prolonged impairment resulting
                                      from common mental disorders
                                      (anxiety and depression) may be
                                      considerable.'' \3\

                                     ``Water-borne diseases will rise
                                      with increases in extreme rainfall
                                      . . . In regions suffering from
                                      droughts, a greater incidence of
                                      diarrhoeal and other water-related
                                      diseases will mirror the
                                      deterioration in water quality . .
                                      .'' \4\
------------------------------------------------------------------------
``Heat Stress and Direct Thermal     ``Severe heatwaves . . . will
 Injury . . .                         intensify in magnitude and
The United States is expected to      duration over the portions of the
 see an increase in the severity,     U.S. . . . where they already
 duration, and frequency of extreme   occur . . .'' \5\
 heat waves. This, coupled with an
 aging population, increases the
 likelihood of higher mortality as
 the elderly are more vulnerable to
 dying from exposure from excessive
 heat.''

------------------------------------------------------------------------
``Extreme Weather Events . . .       ``[C]onfidence has increased that
Climate Change is anticipated to      some weather events and extremes
 alter the frequency, timing,         will become more frequent, more
 intensity, and duration of extreme   widespread and/or more intense
 weather events, such as hurricanes   during the 21st century; and more
 and floods''                         is known about potential effects
                                      of such changes.'' \7\
------------------------------------------------------------------------
``Air Pollution-Related Health       ``Surface ozone concentrations may
 Effects                              increase with a warmer climate.
Climate change can affect air         Ozone damages lung tissue, causing
 quality by modifying local weather   particular problems for people
 patterns and pollutant               with asthma and other lung
 concentrations, affecting natural    diseases. Even modest exposure to
 sources of air pollution, and        ozone may encourage the
 promoting the formation of           development of asthma in children
 secondary pollutants. Of             . . . For the 2050s, daily average
 particular concern is the impact     ozone levels are projected to
 of increased temperature and UV      increase by 3.7 ppb across the
 radiation on ozone formation. Some   eastern U.S. . . . with the cities
 studies have shown that higher       most polluted today experiencing
 surface temperatures, especially     the greatest increase in ozone
 in urban areas, encourage the        pollution . . . One-hour maximum
 formation of ground-level ozone.     ozone follows a similar pattern,
 As a primary ingredient of smog,     with the number of summer days
 ground-level ozone is a public       exceeding the 8-hour regulatory
 health concern. Ozone can irritate   U.S. standard projected to
 the respiratory system, reduce       increase by 68 percent.'' \8\
 lung function, aggravate asthma,
 and inflame and damage cells that
 line the lungs. In addition, it
 may cause permanent lung damage
 and aggravate chronic lung
 diseases.''
------------------------------------------------------------------------
``Allergic Disease                   ``Pollen, another air contaminant,
Studies have shown that some          is likely to increase with
 plants, such as ragweed and poison   elevated temperature and
 ivy, grow faster and produce more    atmospheric CO2 concentrations. A
 allergens under conditions of high   doubling of the atmospheric CO2
 carbon dioxide and warm weather.     concentration stimulated ragweed-
 As a result, allergic diseases and   pollen production by over 50
 symptoms could worsen with climate   percent . . .'' \9\
 change.''
------------------------------------------------------------------------
``Water- and Food-borne Infectious   ``Water-borne disease and degraded
 Diseases                             water quality are very likely to
Altered weather patterns resulting    increase with more heavy
 from climate change are likely to    precipitation. . . .'' \10\
 affect the distribution and         ``Several studies have confirmed
 incidence of food- and water-borne   and quantified the effects of high
 diseases. Changes in                 temperatures on common forms of
 precipitation, temperature,          food poisoning, such as
 humidity, and water salinity have    salmonellosis . . . In temperate
 been shown to affect the quality     countries, warmer weather and
 of water used for drinking,          milder winters are likely to
 recreation, and commercial use.      increase the abundance of flies
 For example, outbreaks of Vibrio     and other pest species during the
 bacteria infections following the    summer months, with the pests
 consumption of seafood and           appearing earlier in spring . . .
 shellfish have been associated       Warmer seas may thus contribute to
 with increases in temperatures.      increased cases of human shellfish
 Heavy rainfall has also been         and reef fish poisoning
 implicated as a contributing         (ciguatera) and poleward
 factor in the overloading and        expansions of these disease
 contamination of drinking water      distributions . . . Overall,
 treatment systems, leading to        climate change is projected to
 illness from organisms such as       increase the number of people at
 Cryptosporidium and Giardia. Storm   risk of hunger.'' \11\
 water runoff from heavy
 precipitation events can also
 increase fecal bacterial counts in
 coastal waters as well as nutrient
 load, which, coupled with
 increased sea-surface temperature,
 can lead to increases in the
 frequency and range of harmful
 algal blooms (red tides) and
 potent marine biotoxins such as
 ciguatera fish poisoning.''

------------------------------------------------------------------------
``Vector-borne and Zoonotic          ``Climate change is likely to
 Diseases                             increase risk and geographic
Vector-borne and zoonotic diseases,   spread of vector-borne infectious
 such as plague, Lyme disease, West   diseases, including Lyme disease
 Nile virus, malaria, hantavirus      and West Nile virus.'' \13\
 pulmonary syndrome, and dengue
 fever have been shown to have a
 distinct seasonal pattern,
 suggesting that they are weather
 sensitive. Climate change-driven
 ecological changes, such as
 variations in rainfall and
 temperature, could significantly
 alter the range, seasonality, and
 human incidence of many zoonotic
 and vector-borne diseases. More
 study is required to fully
 understand all the implications of
 ecological variables necessary to
 predict climate change effects on
 vector-borne and zoonotic
 diseases. Moderating factors such
 as housing quality, land-use
 patterns, and vector control
 programs make it unlikely that
 these climate changes will have a
 major impact on tropical diseases
 such as malaria and dengue fever
 spreading into the United States.
 However, climate change could aid
 in the establishment of exotic
 vector-borne diseases imported
 into the United States.''

 
------------------------------------------------------------------------
``Food Scarcity                      ``Both acute and chronic
Climate change is predicted to        nutritional problems are
 alter agricultural production,       associated with climate
 both directly and indirectly. This   variability and change. The
 may lead to scarcity of some         effects of drought on health
 foods, increase food prices, and     include deaths, malnutrition
 threaten access to food for          (undernutrition, protein-energy
 Americans who experience food        malnutrition and/or micronutrient
 insecurity.''                        deficiencies), infectious diseases
                                      and respiratory diseases . . .''
                                      \16\

                                     ``North American agriculture has
                                      been exposed to many severe
                                      weather events during the past
                                      decade. More variable weather,
                                      coupled with out-migration from
                                      rural areas and economic stresses,
                                      has increased the vulnerability of
                                      the agricultural sector overall,
                                      raising concerns about its future
                                      capacity to cope with a more
                                      variable climate . . . North
                                      American agriculture is, however,
                                      dynamic. Adaptation to multiple
                                      stresses and opportunities,
                                      including changes in markets and
                                      weather, is a normal process for
                                      the sector.'' \17\

                                     ``Vulnerability of North American
                                      agriculture to climatic change is
                                      multi-dimensional and is
                                      determined by interactions among
                                      pre-existing conditions, indirect
                                      stresses stemming from climate
                                      change (e.g., changes in pest
                                      competition, water availability),
                                      and the sector's capacity to cope
                                      with multiple, interacting
                                      factors, including economic
                                      competition from other regions as
                                      well as advances in crop cultivars
                                      and farm management . . . Water
                                      access is the major factor
                                      limiting agriculture in south-east
                                      Arizona, but farmers in the region
                                      perceive that technologies and
                                      adaptations such as crop insurance
                                      have recently decreased
                                      vulnerability . . . Areas with
                                      marginal financial and resource
                                      endowments (e.g., the U.S.
                                      northern plains) are especially
                                      vulnerable to climate change . .
                                      .'' \18\
------------------------------------------------------------------------
Climate Change Vulnerability         ``The United States (U.S.) and
The effects of climate change will    Canada will experience climate
 likely vary regionally and by        changes through direct effects of
 population. The northern latitudes   local changes (e.g., temperature,
 of the United States are expected    precipitation and extreme weather
 to experience the largest            events), as well as through
 increases in average temperatures.   indirect effects, transmitted
                                      among regions by interconnected
                                      economies and migrations of humans
                                      and other species. Variations in
                                      wealth and geography, however,
                                      lead to an uneven distribution of
                                      likely impacts, vulnerabilities
                                      and capacities to adapt.'' \19\

                                     ``Late in the century, projected
                                      annual warming is likely to be 2
                                      to 3 C across the western,
                                      southern, and eastern continental
                                      edges, but more than 5 C at high
                                      latitudes. The projected warming
                                      is greatest in winter at high
                                      latitudes and greatest in the
                                      summer in the southwest U.S. Warm
                                      extremes across North America are
                                      projected to become both more
                                      frequent and longer.'' \20\
------------------------------------------------------------------------
\1\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Chapt. 8, Human Health,
  393 (2007).
\2\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Chapt. 8, Human Health,
  400 (2007).
\3\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Chapt. 8, Human Health,
  399 (2007).
\4\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Chapt. 3, Freshwater
  resources and their management, 189 (2007).
\5\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Chapter 14, North America,
  632 (2007).
\6\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Chapter 8, Human Health,
  398 (2007).
\7\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Summary for Policymakers,
  17(2007).
\8\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Chapt. 14, North America,
  632 (2007).
\9\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Chapt. 14, North America,
  632 (2007).
\10\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Chapt. 14, North America,
  619 (2007).
\11\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Chapt. 8, Human Health,
  400, 414 (2007).
\12\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Chapt. 8, Human Health,
  401 (2007).
\13\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Chapt. 14, North America,
  619 (2007).
\14\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Chapt. 14, North America,
  625 (2007).
\15\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Chapt. 8, Human Health,
  404 (2007).
\16\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Chapt. 8, Human Health,
  399 (2007).
\17\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Chapt. 14, North America,
  624 (2007).
\18\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Chapt. 14, North America,
  631 (2007).
\19\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Chapt. 14, North America,
  619 (2007).
\20\ Intergovernmental Panel on Climate Change, Climate Change 2007,
  Fourth Assessment Report, Working Group II, Chapt. 14, North America,
  627 (2007).


    Senator Kerry. Well, Senator Boxer, let me just say, first 
of all, I am ready, willing and anxious to engage with you on 
this. And I'm shocked, I mean, I'm really stunned--I guess I'm 
not surprised, but I'm shocked. I'm not surprised, because it's 
not the first time that we have had reports that have been 
redacted, where basic scientific fact is being eliminated from 
reports by this Administration.
    You know, Dr. Marburger, I don't know when you came to this 
job, I don't recall, we'll get into all of that. But you have a 
lifetime reputation at stake here, you and everybody in here. 
You're scientists. A man of reputation. And I would think, at 
some point, some people in this Administration would either 
start resigning, or standing up and talking out publicly about 
this, because it's a disgrace. Just an utter disgrace. Science 
is being rendered completely irrelevant to the politics, and 
it's unacceptable to the American people.
    You know, this Administration's record on this is going to 
be recorded in infamy--infamy. The degree to which they have 
avoided the reality of what's happening in other countries--
Presidents, Prime Ministers, Foreign Ministers, Economic 
Ministers, Trade Ministers--all of them have invested their 
countries' efforts to respond to this, but not the United 
States of America.
    And it's embarrassing, let alone tragic when we look at the 
potential implications for our children and our grandchildren 
and what we leave behind us.
    You know, you can go up to Wyoming and Montana right now, 
and you can see tens of thousands of acres of forests that are 
being destroyed by pine needle, bark--bark insects, that used 
to die, but don't now, because it isn't as cold. You could 
listen to Lisa Murkowski yesterday, in another Committee that 
we had, talking about what's happening to the permafrost in 
Alaska, they're moving a village at a cost of $140 million, 
that's $140 million for one village, mitigation, against what's 
happening to climate change.
    And the IPCC report says that some 46 million people are 
going to be effected, just by the level of sea level rise 
today, without taking into account the hundred billion metric 
tons that is melting in the Greenland ice sheet which was 
stable in 1990 and is no longer stable.
    I'm not going to go on and on about it, but I'll tell you, 
it's just shocking to me as a United States Senator and as a 
citizen of America, which prides itself on the truth and on the 
free exchange of ideas and truth that we have so much lying and 
deception and avoidance going on in this country, it's just 
shocking.
    And I cannot emphasize enough, how it will be recorded in 
infamy, and I will make every effort to get this Committee to 
challenge the Administration on this question of executive 
privilege with respect to this, we need to know why and how and 
who is doing this. And we're going to try to find out. And I 
thank you, Senator Boxer, for bringing that up today.
    Senator Nelson?

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, I am looking forward to 
traveling with you and Senator Boxer to the global gathering on 
global warming in Bali, Indonesia.
    I think that the reason I bring this up, Dr. Marburger, is 
that--as was explained to us in an extensive hearing yesterday 
that this global climate change gathering in Indonesia, is not 
about the substance of the issue, it's about the process by 
which we should start to address the substance. And what is 
important, is that the United States be well-represented as 
being very much a part of wanting internationally, to solve 
this problem.
    The story was told yesterday that basically, the Senate was 
not consulted as it should have been in the 1990s, well, that's 
not going to be a problem with having the Senate consulted this 
time, because we're going to be in it with all four feet.
    But the--an expression from the Administration, even though 
there will be a change of Administrations in little over a 
year--the expression of the Administration at this point, about 
the concern of global warming, and the need, not only for other 
countries to do something about it--but for our country to take 
the lead, is going to be very important.
    Now, I say this to you, Mr. Marburger--you've got a lot on 
your plate, and you have certainly had your own personal 
challenges, recently. And it is good to see you looking so 
well, and I'm very hopeful for you and in this Administration, 
there's only a little over a year left for you to put your 
stamp of approval, your stamp of influence on this process.
    There's another one that, of course, as we get into this 
subject, that I would like you to be concerned about, and that 
is the measuring of the changes in our climate, as a result of 
our assets overhead. Because we're ending up not having the 
right satellites up there to measure all of the delicate 
changes in the environment that we need.
    As a matter of fact, the National Research Council of the 
National Academy of Sciences, has cited concerns with the 
demanifesting of the climate sensors from NASA and NOAA 
satellites. We chaired a hearing, that's in my Subcommittee of 
the full Committee, in a hearing in July of this year, we had 
NASA and NOAA here, and I asked that by the end of this year, 
2007, to see their plans for replacing the sensors NPOESS that 
never did pan out, in implementing what they call the Decadal 
Study of the missions.
    I followed that up from that hearing on July 11 of this 
year, with letters to Dr. Griffin, and to Admiral Lautenbacher, 
and I have not received a reply.
    Now, that just simply shouldn't be. Here, you want us to 
help you all, which is our appropriate duty, since we authorize 
and appropriate, that we have the proper assets up in space so 
that we can measure the changes on this delicate planet, in 
order to be able to make more informed decisions. And, I'd like 
you to go in and rattle their cages at NASA and NOAA.
    What they did, unfortunately--you want the bottom line on 
what goofed up? NASA, who knows how to build and design, build 
and operate satellites, they put it over to NOAA, that doesn't 
know anything about it, and they ended up designing this 
satellite that was all things to all people, and then, of 
course, the technology didn't work, and the budget just went 
through roof, so we are where we are.
    In July I asked, ``What are we going to do about it?'' I 
haven't heard anything. So, I wish you would get, since you are 
in a strengthened condition, looking very good, I want you to 
get out your cane and go bang their cage, and get an answer.
    Thank you, Mr. Chairman.
    Senator Kerry. Thank you very much, Senator Nelson.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you, Chairman Kerry.
    And thank you, Chairman Boxer, Chairman of the Environment 
Committee for the work that you've done in bringing people 
together on this issue.
    I want to introduce our Speaker of the House from 
Minnesota, Margaret Kelliher, who is out here, and I think she 
would probably be very surprised to look at this hearing room 
and see that there is only one side of the aisle represented at 
a hearing on climate change. Because in Minnesota, we have 
approached this on a bipartisan basis, passing one of the most 
aggressive renewable electricity standards in the country, 25 
percent by 2025, 30 percent for Excel Energy, with their 
agreement. And we've done it on a bipartisan basis with a 
Republican Governor, and we've gotten it done.
    And that's what I find so incredibly depressing about this 
issue, is the intransigency of this Administration, in terms of 
really moving on this issue. We view it in our State, again, as 
a bipartisan issue.
    And I think part of that is that in our State, first of 
all, it is the people in our State who have started to see 
what's happening with climate change--kids with penguin 
buttons, ski resort owners have seen a 30 percent reduction in 
profits because of the lack of snow, hunters in Hibbing, 
Minnesota, who see the changes to their wetlands, people who 
ice fish who are taking months to put their fish houses out, 
because they've seen the changes in the climate.
    And I can tell you that we are a State that believes in 
science. We brought the world the Post-It Note, and the 
pacemaker, and we believe in science. And to us, this means 
that you put the scientific information out there, Dr. 
Marburger.
    And I wanted to, as a Member of the Environment Committee, 
echo what Chairman Boxer has said, that I was just incredibly 
surprised, that in this time, when we're trying to work on a 
bipartisan basis with Senator Warner, and Senator Lieberman, to 
make some progress in climate change, that this testimony of 
the head of the Centers for Disease Control was edited, was 
censored, as Chairman Boxer said, that was a bunch of baloney--
which I like because it sounded like something we'd say in 
Minnesota--and I, you know, I just want to use one example of 
what I've found so distressing about this.
    And that is that, in this original testimony--and you can 
see the pages that were deleted--it, while the fires were 
raging in California, a portion of the testimony that was 
deleted said, quote, this was from Dr. Gerberding, deleted 
testimony, ``The West Coast of the United States is expected to 
experience significant strains on water supplies, as regional 
precipitation declines, and mountain snow packs are depleted. 
Forest fires are expected to increase in frequency, severity, 
distribution and duration.''
    So, while the world was transfixed on the raging wildfires 
in California, the Administration deleted this portion of the 
testimony.
    And then as the Chairman explained, the reason given was 
that it wasn't consistent with what the IPCC said in their 
reports.
    Well, the fourth assessment of the IPCC report said, ``Warm 
spells and heat waves will very likely increase the danger of 
wildfire.'' And we will get into this more. But, I just think 
that was a bogus answer for why this part of the testimony was 
deleted. We need the science out there, we need this 
information, and I think the Senate needs to act now on climate 
change, I don't think we can wait until after the Presidential 
election, I think we need to move now, and I think we need to 
move in a bipartisan basis, with the Administration at our 
side.
    Thank you.
    Senator Kerry. Thank you very much, I appreciate it, 
Senator Klobuchar.
    Thank you all for being here. I hadn't noted, but it is 
sort of interesting that there's a vacuum over here. I hope 
it's not going to persist throughout this process.
    Senator Cantwell originally intended to be here, but she 
had a last-minute scheduling conflict, so her opening statement 
will be placed in the Record in full.
    [The prepared statement of Senator Cantwell follows:]

Prepared Statement of Hon. Maria Cantwell, U.S. Senator from Washington
    Mr. Chairman, thank you for holding this incredibly important 
hearing.
    I would like to take a moment to commend Senator Kerry for his 
leadership on this issue, and the ongoing efforts by him and many of my 
colleagues to develop legislative solutions to meet the enormous 
challenges global warming poses our Nation and our planet.
    I am proud that Washington state is taking the lead on the issue of 
global climate change. While my state's contribution to global warming 
is relatively small--because we are fortunate enough to derive about 70 
percent of our electricity from inexpensive, emissions free 
hydropower--global warming threatens to seriously impact our economy.
    Ironically, one of the primary impacts of global warming on the 
Pacific Northwest will be to change our rainfall patterns in a way that 
reduces the amount of water available for hydropower production.
    And these changes will not only harm electricity generation, they 
will also impact billions of dollars of economic infrastructure 
associated with irrigation systems, municipal water supplies, even ski 
resorts that depend on our historic snowfall patterns.
    Faced with these possibilities, we must ask several simple 
questions:

  <bullet> What are we doing to prepare for these changes?

  <bullet> How are predicted sea level rises being incorporated into 
        shoreline restoration projects, siting of public 
        infrastructure, or disaster response plans, among many other 
        examples?

  <bullet> What tools do we need to give Federal, state, and local 
        decisionmakers to take climate change into account on long-
        term, multi billion dollar decisions?

    Unfortunately, the answers to these questions do not come easily.
    As we discovered when I held a hearing on ocean acidification as 
chair of the Oceans, Atmosphere, Fisheries and Coast Guard subcommittee 
last May, our government is ill-equipped to plan for the consequences 
of global climate change. We simply lack the tools to develop the 
strategies we need to adapt.
    In August, the Government Accountability Office found that the 
Federal Government is not providing Federal agencies with the proper 
tools or policy mandates to take climate change impacts into account in 
carrying out their responsibilities to manage public resources.
    In September, the National Academy of Sciences concluded there is a 
tremendous need to improve the delivery of climate change information 
to Federal, regional, and local levels so they can take climate change 
impacts into account in planning and managing resources.
    The reality is that even if we were somehow able to stop using 
fossil fuels today, a certain degree of warming and ocean acidification 
will still occur over the next two or three decades.
    While my top priority is to move our Nation to a clean energy 
system, we must face the fact that global warming is happening already, 
and it is only going to get worse.
    That's why I am pleased today to be introducing the Climate Change 
Adaptation Act--a bill to ensure that our government plans for the 
changes that global warming will inevitably bring. This bill will 
require the President to develop a national strategy for addressing the 
impacts that climate change will have on our natural resources. It will 
also specifically require NOAA to conduct vulnerability assessments on 
the impacts of climate change on coastal and ocean resources, and to 
prepare adaptation plans for those resources.
    Planning for the future isn't just common sense--it's responsible 
government.
    This bill is complementary to several bills under consideration by 
the Commerce Committee, including the Kerry-Snowe Global Change 
Research Improvement Act. That bill contains many provisions I believe 
are vitally important--including language I authored with Senator 
Collins on the need for a program to study the threat of abrupt climate 
change. I'm also proud to work with Senator Lautenberg on legislation 
combating ocean acidification.
    I look forward to working with my colleagues to move all these 
critical bills out of the Committee and through the Senate in the 
coming weeks.
    Thank you.

    Senator Kerry. Dr. Marburger, you see the stage is set. We 
certainly look forward to your testimony, we do appreciate your 
being here, and we look forward to hearing from you. We're 
interested not in having a battle, but in really trying to get 
beyond what seems to be just kind of a reluctance to embrace 
fact. And maybe you can help shed some light on all of this.
    You know, right here in this room, Senator Gore and I and a 
few others, held the very first hearings on climate change 20 
years ago. And Jim Hansen and others were giving the early 
warnings of all of this. That was in 1987.
    Five years later, Senator Gore, Senator Wirth, Senator 
Lautenberg--who was here earlier--myself, Senator Chaffee, 
Senator Larry Pressler, a few others, we all went down to Rio, 
to the Earth Summit. Where President George Herbert Walker 
Bush, and his Chief of Staff, John Sununu, and Bill Riley and 
others joined in signing on to the voluntary framework.
    Over the 20 years since then, we've had an enormous 
development of science. And what's shocking to me, and others, 
is as we've sort of, I mean, you know, we try to keep up on 
this, we read a lot, meet with a lot of people, stay up on the 
science, and met frequently with John Holdren at Harvard, with 
Bob Correll, others, you know these folks--their warnings are 
just growing in intensity.
    The science is coming back at a greater rate with their 
models being shattered, not to the contrary, but being 
shattered by the increasing evidence and increasing rate above 
and beyond what they had predicted earlier. And yet, still, we 
don't see the response from the Administration.
    And then we see things like Senator Boxer just described a 
few minutes ago. It really is disturbing.
    The most recent scientific reports talk about the oceans, 
having reached the saturation point, in terms of CO<INF>2</INF> 
sink. I, as Chairman of the Oceans Subcommittee, sat here 10 
years ago and listened to scientists predict--they couldn't 
tell us when it happens, they didn't know what the saturation 
point was, but they knew that that possibility existed. Now, we 
see it happening in places. Not to mention the importance of 
deforestation, of tropical forests, particularly--you can run 
down a long list, and it's all science.
    So, help us understand where we're going on this, and what 
we can anticipate, and we look forward to your testimony. Pull 
the mic down near you and close to you, that would be terrific.

      STATEMENT OF JOHN H. MARBURGER III, Ph.D., SCIENCE 
 ADVISER TO THE PRESIDENT AND DIRECTOR, OFFICE OF SCIENCE AND 
    TECHNOLOGY POLICY, ACCOMPANIED BY JACK A. KAYE, Ph.D., 
   DIRECTOR, RESEARCH DIVISION, NASA OFFICE OF EARTH SCIENCE

    Dr. Marburger. Thank you, Mr. Chairman. I am pleased to be 
here this morning, and I want to acknowledge that climate 
change is occurring, it's a very serious issue, there's no 
question that we're producing more CO<INF>2</INF> than we 
should be for the future health of this planet, and something 
must be done about it.
    I want to be clear that there is widespread agreement on 
this. This Administration agrees with the statements of the 
status of science that are embedded in the IPCC reports that 
were released, and before I begin with my prepared testimony, I 
would like to say that these IPCC reports--which are the gold 
standard for science and the summary of the status of 
scientific knowledge about climate change--have been very 
substantially supported by U.S.-funded research. Far from being 
behind or second following the pack, as it were, in climate 
science, this country--during this Administration as well as in 
previous Administrations--has led the world in funding climate 
science, and U.S. scientists have contributed very 
substantially to the conclusions that many people are citing 
here and in Europe. We should be proud of our leadership in 
climate science, not ashamed of it.
    So, Mr. Chairman, the testimony that I had prepared, 
addresses rather bureaucratic issues associated with the 
structure of the Climate Science Program in the U.S., its 
history, some of its current characteristics, and some ideas 
about what it takes to make a strong science program.
    I'm going to have a brief oral statement about those, and 
address other questions that you may have regarding climate 
science and issues that other speakers this morning have 
addressed.
    Senator Kerry. We appreciate that, we'll put your full 
statement in the Record, as if read.
    Dr. Marburger. Thank you very much.
    My written statement has three parts, a history of the 
Global Change Research Program that was created in 1990, by the 
Global Change Research Act, a description of the current 
structure of the climate change science, climate change 
technology programs that were established by this 
Administration in 2002, and a list of seven characteristics 
essential for the successful management of an interagency 
Federal science program, basically my ideas and observations 
about this.
    I listed 8 accomplishments of the original 1990 Act in my 
testimony, but noted some weaknesses that became apparent 
during the first decade of its operation. Some of those 
weaknesses were pointed out in a 2001 report of the National 
Academies of Sciences, and it was in that year, 2001, that 
President Bush decided to introduce a management structure that 
would establish a clear line of accountability for the climate 
change science, and climate change technology programs.
    Rather than have the lines of responsibility end at an 
interagency group with relatively weak authority, he stipulated 
that officers of his cabinet should bear responsibility for 
these functions. And that is the underlying rationale for 
adding the new groups to the existing Global Change Research 
Program structure, and requiring the Secretary of Commerce and 
the Secretary of Energy to head the programs. The Secretaries 
serve as the top management of the programs in alternate years.
    As I explained in my written testimony, the Climate Change 
Science Program was developed to balance the near-term focus of 
the President's Climate Change Research Initiative with the 
breadth and long-term objectives of the U.S. Global Change 
Research Program, pursing accelerated development of answers to 
the scientific aspects of key climate policy issues, while 
continuing to seek advances in the knowledge of the physical, 
biological and chemical processes that influence the Earth's 
system.
    Finally, as to what it takes to make a successful 
interagency science program, let me briefly state that the 
statute that establishes the program should not be overly 
prescriptive. The program's structure should engage line 
management, the budget structure must acknowledge the realities 
of Federal budgeting, which involves a number of different 
Senate and House committees. That the frequency and level of 
reports must not impede the management of the science, that 
communication of results is important, that explicit 
arrangements should be made for stakeholder input and that an 
interagency coordination office is a best practice.
    I also mention the importance of strong leadership in 
science and management. The full testimony has details on these 
things. I think it's probably more productive for us this 
morning for me to respond to your questions.
    Dr. Kaye is here with me as an expert, he does not have a 
prepared testimony, but--I am not a climate scientist myself, 
although I am a physicist and understand a good bit of it, Dr. 
Kaye has been actively involved in the scientific support to 
the IPCC process, and I'm going to rely on him for any 
technical questions you may have.
    Thank you.
    [The prepared statement of Dr. Marburger follows:]

   Prepared Statement of Hon. John H. Marburger III, Ph.D., Science 
Advisor to the President and Director, Office of Science and Technology 
                                 Policy
    Chairman Inouye, Vice Chairman Stevens and Members of the 
Committee, I appreciate the opportunity to appear before you today at 
this hearing on climate change. My remarks will focus on how climate 
change science has been conducted in the Federal Government in the 
past, and on drawing lessons from our experiences that might inform 
future coordination and management of the Federal climate science 
enterprise.
Summary of USGCRA
    The U.S. Global Change Research Act of 1990 (USGCRA) was not the 
first legislation to deal with climate change science, but it was a 
landmark piece of legislation that established, for the first time, a 
structured Federal process for addressing the scientific questions 
associated with global change in an organized way across agencies.
    The USGCRA did not focus only on climate change. Although it 
included climate change and variability as one of the agents of global 
change, it also expressed concerns about a growing human population and 
the effects of industrial and agricultural practices on Earth habitat, 
including the effects of chlorofluorocarbon emissions on the ozone 
layer. Only later did the Federal agencies focus settle on climate 
change. All these issues of global change, however, overlap to some 
extent with climate change--not so much with the physical mechanisms of 
the climate as with the impacts of a changing climate on human, plant, 
and animal populations.
    USGCRA accomplished several important things. First, it created the 
U.S. Global Change Research Program (USGCRP or Program), the first 
interagency program aimed at climate change and other global change 
processes and agents. At that time, several Federal agencies had begun 
to investigate global change processes, and the enactment of the USGCRA 
brought those research efforts together.
    Second, USGCRA established a governance structure for the 
interagency Program. It created a committee under the Federal 
Coordinating Council on Science, Engineering, and Technology (which has 
since evolved into the National Science and Technology Council (NSTC)) 
and specified that it would be populated by high-ranking officials from 
a minimum of fourteen Departments, agencies, and White House Offices. 
Under this structure, the Director of the Office of Science and 
Technology Policy (OSTP), as Director of NSTC, provided oversight for 
the interagency process.
    Third, USGCRA required that the Program develop a plan. It 
specifically required that the plan define roles and responsibilities, 
identify key research activities, and foster domestic and international 
partnerships. A set of specific research elements was also included.
    Fourth, USGCRA recognized the value of external guidance, provided 
for broad public participation in the development of the Plan, and 
required periodic review of the Plan by the National Research Council.
    Fifth, the legislation called for budget coordination among the 
Program participants. Budget coordination among agencies can be a 
tricky process, but the USGRCA called for guidance to be issued by the 
interagency Committee to the participating agencies. It also required 
each agency to identify its global change research activities and to 
report those elements to the Committee and as part of its budget 
request. In turn, the President was instructed to provide the Committee 
with an opportunity to review and comment on the budget requests of the 
participating agencies.
    Sixth, the USGCRA required two periodic reports: a scientific 
assessment of global change and an additional report.
    Seventh, the law recognizes the value of communicating the results 
of research investigations and calls for the establishment of a global 
change research information office.
    Eighth, the USGCRA highlighted the importance of U.S. participation 
in international cooperative efforts to advance research and to work 
with international partners in mitigating and adapting to the effects 
of global change.
    How well did this structure and management approach work? During 
the nineties, the U.S. supported long-term studies, research into basic 
climate change processes, the development of models, and cooperative 
international field campaigns and assessments. But it was not until 
2000, 10 years after the USGCRA was passed, that a National Assessment 
was published. Further, all the prescribed statutory elements of the 
scientific assessment provision were not completed until July 2003.
    During that time, however, U.S. scientists played a central role in 
the investigation of many critical climate change processes, and U.S. 
scientists from Federal agencies and from numerous research 
institutions supported by Federal funds produced a significant portion 
of the scientific work underlying the Intergovernmental Panel on 
Climate Change (IPCC) assessment reports, as well as other 
international scientific efforts.
Summary of the President's Plan
    In a report commissioned by the current Administration, Climate 
Change Science: An Analysis of Some Key Questions, the National 
Research Council reviewed and evaluated the climate change assessment 
produced by the Intergovernmental Panel on Climate Change (IPCC, 2001) 
and made a number of recommendations about climate change research 
needs. In response to that report and a growing concern about climate 
change, the President launched the Climate Change Research Program, and 
to accelerate progress in resolving uncertainties about the global 
climate system that had been identified by policymakers or described in 
the National Research Council report.
    At that time, it also became clear that energy consumption and 
energy technologies would play central roles in understanding and 
forecasting climate change and mitigating emissions of greenhouse 
gases. As a result, the Climate Change Technology Program (CCTP) was 
created to pursue the research and development of technologies to 
complement the science research efforts. The Program subsequently was 
authorized in the Energy Policy Act of 2005.
    In order to improve the research support for decisionmaking and to 
increase accountability, the Administration developed a new management 
structure for these research programs. The President announced this 
change on February 14, 2002, when he established a new high-level 
structure for coordinating Federal climate change science and 
technology development.
    At the highest level, the new structure acknowledges the 
responsibility of the White House policy offices to examine high level 
climate science and technology policy and make recommendations to the 
President.
    To establish clear line authority for execution of the program, the 
President designated the Secretaries of Commerce and Energy to assume 
responsibility for integrating and managing the program offices. A 
Committee on Climate Change Science and Technology Integration was 
established to oversee the Federal climate change science and 
technology programs. The Committee consists of the Secretaries and 
Administrators of Departments and Agencies that have substantial 
research activities in climate change science or technology and is co-
chaired by the Secretaries of Commerce and Energy. The Executive 
Director of the Committee is the Director of the OSTP. The Committee, 
in coordination with the Office of Management and Budget (OMB), 
provides recommendations concerning climate science and technology to 
the President and may, if needed, recommend the movement of funding and 
programs across agency boundaries.
    In addition to the Cabinet-level Committee, an interagency working 
group was established at the Deputy Secretary or Undersecretary level 
to ensure implementation of priority research activities within the 
Departments. The Interagency Working Group on Climate Change Science 
and Technology reports to the Committee on Climate Change Science and 
Technology Integration and meets regularly to address pressing issues 
within the Climate Change Science Program and the Climate Change 
Technology Program. The Chair and Vice Chair rotate annually between 
the Department of Energy and the Department of Commerce. The Executive 
Secretary of the Working Group is the OSTP Associate Director for 
Science. The Working Group reviews all programs that contribute to 
climate change science and technology and makes recommendations to the 
Committee about funding and program allocations in order to implement a 
climate change science and technology program that will contribute to 
the enhanced understanding needed to better support policy development.
    The Climate Change Science Program (CCSP) was developed to balance 
the near-term (2- to 4-year) focus of the Climate Change Research 
Initiative with the breadth of the USGCRP, pursuing accelerated 
development of answers to the scientific aspects of key climate policy 
issues while continuing to seek advances in the knowledge of the 
physical, biological and chemical processes that influence the Earth 
system. CCSP has joint membership with the NSTC's Subcommittee on 
Global Change Research (SGCR), the interagency body that coordinates 
the USGCRP under the NSTC Committee on Environment and Natural 
Resources. CCSP includes representatives from all agencies that have 
mission activities and/or funding in climate science research. The CCSP 
is responsible for defining integrated program goals and priorities and 
for reviewing all programs that contribute to climate change science. 
Participating agencies are responsible for ensuring their plans and 
programs implement the goals, priorities, and plans defined by the CCSP 
in the course of fulfilling their respective agency missions. For this 
reason, participating agencies' personnel play an active role in the 
formulation of CCSP strategy.
    The CCTP provides for the coordination and development, across all 
Federal research and development (R&D) agencies, of a comprehensive, 
multi-year, integrated climate change technology R&D program for the 
United States. An interagency working group carries out much of the 
technical coordination. The CCTP Office provides technical and staff 
support, and performs certain integrative, analytical, modeling, 
communication, and administrative functions. As with the CCSP, 
participating CCTP agencies are responsible for ensuring their plans 
and programs implement the goals, priorities, and plans defined by the 
CCTP in the course of fulfilling their respective agency missions, and 
here too participating agencies' personnel play an active role in the 
formulation of CCTP strategy.
    Within this management structure the Director of OSTP serves as 
Executive Director of the Cabinet-level Committee, the OSTP Associate 
Director for Science serves as Executive Secretary of the Deputy-level 
Interagency Working Group, and an OSTP representative serves on the 
CCSP Principals' Group. OSTP maintains an oversight role in the current 
management structure of CCSP and CCTP, but the day-to-day management is 
the responsibility of the Directors of CCSP and CCTP. While this 
committee structure appears to be complex, there is considerable 
overlap among the membership of each component, and frequent 
communication among OSTP, the Council on Environment Quality and 
relevant Department and Agency officials.
Optimizing Structure and Management for Climate Change Science 
        Research
    Based on an examination of the interagency coordination process 
that drove the U.S. Global Change Research Program, and comparing it 
with the activities and management of the shorter-term CCSP, I consider 
the following characteristics to be essential for successful management 
of an interagency Federal science program.
    First, the statute that prescribes the research program should not 
be overly prescriptive. Today, the 2007 program is diligently working 
to produce assessments on topics that were prescribed in 1990. 
Fortunately, the program is also working to produce results on other 
important climate change topics that were not envisioned in 1990--such 
as the likelihood of abrupt climate change and understanding the 
mechanism of melting in ice sheets. An appropriate reauthorization, 
therefore, should not attempt to direct the research program's 
specifics for years to come, but rather provide flexibility for the 
program managers to determine the topics to be addressed through their 
interaction with the National Research Council and other stakeholders.
    Second, the program must have a governance and management structure 
in which the scientists, the agency managers, and the program 
coordinators for whom they work. Strong interagency coordination is 
essential, but scientists work for funding institutions and will 
respond to direction from line management. Having line managers 
involved in the management of the interagency process at several levels 
is a strength of the CCSP model.
    Third, it is a reality that central budgeting for an interagency 
effort like CCSP or CCTP is incompatible with the Federal budget 
structures and processes. Each agency must submit its own budget for 
its work. Centralizing funding of interagency efforts is not a 
desirable goal.
    Fourth, reports and other products must be useful and the number 
and timing of products must be reasonable. A scientist who produces 
several synthesis products in addition to his or her primary scientific 
publications will lose valuable research time to the effort. Demands 
for assessment products must include careful budgeting for the human 
and financial resources necessary to produce those secondary or 
tertiary publications.
    Fifth, communication of research results and assessment products is 
necessary and very valuable. Development of decision support tools 
requires specialists in that field. Communications professionals that 
are capable of translating highly technical research results into 
publications for decisionmakers are essential.
    Sixth, a well-run program coordination office has great value in 
the implementation of an interagency program. The establishment of a 
coordination office should be part of any interagency program.
    Seventh, input from stakeholders during the planning process is an 
essential ingredient of successful programs. The current interaction 
with the National Research Council is vital to program strength and 
credibility, and the current role of the states and Governors is 
particularly important. The increasing emphasis on regional and local 
impacts of climate change will require the advice and cooperation of 
state and local governments. An advisory panel for the climate change 
research program would be entirely appropriate.
    One intangible factor--strong leadership in science and 
management--has an enormous impact on the success of an interagency 
effort. Leadership is required at every level of the program--in the 
central coordinating office and in each of the participating agencies 
and groups of research scientists. The interdisciplinary nature of 
climate science and technology and the very high degree of interest in 
climate issues among a wide diversity of stakeholders renders the 
leadership function an extremely challenging one in this case. We have 
been fortunate to have talented individuals willing to devote 
themselves to the success of this important Federal program, and I wish 
to take this opportunity to express my gratitude to them on behalf of 
the Administration.
    Thank you for the opportunity to speak with you today. I am 
prepared to answer any questions you have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Kerry. We appreciate it. Thank you very much.
    Senator Stevens, did you have any opening statement you 
wanted to make?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Well, I would like my statement to be 
printed in full in the Record.
    I would like to indicate, though, climate change research 
has been an emphasis we have been pursuing for quite some time. 
When I was Chairman of Appropriations, I saw to it that we 
appropriated nearly, or since that time, nearly $37 billion in 
climate change research. As a matter of fact, we currently 
spend more on research on the climate than any nation in the 
world.
    I think this is a very important hearing, and I look 
forward to the statements. I would appreciate it if you would 
put my statement in full in the Record.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    The United States is the world leader in climate change research. 
We currently spend more on research than any other nation in the world. 
Since 2001 Congress has appropriated nearly $37 billion for climate 
change research, technology and incentive programs. In fact much of 
this funding was appropriated during my term as Chairman of the 
Appropriations Committee.
    A robust research program is essential because any decision about 
the mitigation and prevention of climate change must be based on sound 
science.
    In Alaska we have already begun to see the effects of climate 
change. This is especially true along our Arctic coast where 
communities are literally falling into the sea due to erosion. It is 
vital that we have the tools to allow these communities to adapt.
    There is consensus that manmade carbon emissions have an impact on 
climate change. This, along with the need to achieve energy 
independence, is why I support raising the corporate average fuel 
economy standard. However, there is no agreement on how much of an 
influence these emissions carry. Sound science will help to resolve 
this question and avoid making policy decisions that can be unnecessary 
and over burdensome.
    I look forward to hearing from our witnesses on how we can improve 
our understanding of climate change.

    Senator Kerry. Absolutely, your full statement will be 
placed in the Record. And I did acknowledge in my opening 
statement, Senator Stevens, the degree to which the Committee 
has followed that and we've been trying to do it. I think the 
questions here are regarding the structure and format, and also 
the follow-through, because we haven't received the reports 
that we've asked for regarding it.
    But, let me begin by asking, your opening statement, Dr. 
Marburger, is an important one. You say that it's happening, 
it's happening rapidly, it's a serious issue, we need to 
respond to it, et cetera.
    We have United States Senators who don't believe what you 
just said. Who fight that. Have you ever reached out and come 
up here to brief some of those known resisters to this process?
    Dr. Marburger. Yes, I have spoken with some of those who 
are skeptical about climate change, and gone over some details.
    One of those things that I do when I talk with people who 
resist the notion of climate change, is encourage them to take 
a visit to the Koshland Museum, which is operated by the, under 
the auspices of the National Academy of Sciences over here on, 
I think it's 6th and E Streets, NW, it's a nice little science 
museum, and it has an exhibit on global change and climate 
change, in particular, which pretty well spells out findings of 
the National Academics, as expressed in its reports, and gives 
visual instruction in the impacts and the causes of climate 
change, and I would recommend that to anyone who's interested 
in learning more about it.
    Senator Kerry. Have you suggested that to some of those 
that you've talked with?
    Dr. Marburger. I have, indeed.
    Senator Kerry. Has the Administration, in your judgment, 
engaged in a proactive, urgent process of trying to create a 
consensus with respect to what science tells us we must now 
begin to do, i.e., reduce those carbon dioxide emissions, 
perhaps begin moving in alternative directions with respect to 
fuels and so forth.
    Dr. Marburger. I think it's somewhat subjective to judge 
the effectiveness of these statements, but I always point to a 
speech that President Bush made, in the summer of 2001, when he 
acknowledged the existence of climate change, and the 
importance of taking action to reduce greenhouse gas emissions.
    Since then, this Administration has worked very hard to 
support technologies that do, in fact, reduce or eliminate 
greenhouse gas emissions, but are related, as well, to energy 
independence. And while the emphasis has been, in public 
statements, about energy independence, there is a very strong 
overlap between the technology that's required for energy 
independence, and the technology that's required to address the 
serious problem of excessive greenhouse gas emissions.
    Senator Kerry. We're obviously aware, I mean, we've seen a 
few of the tidbits that have been thrown, frankly, to certain 
sectors of the energy economy. I mean, these energy bills we've 
passed to date, for instance, 2 years ago we passed an energy 
bill--we in the Senate had a 65 percent concentration of the 
funding on alternatives and renewables, and about a 30 percent, 
30, 40 whatever it was, remainder on fossil fuels.
    In the conference Committee, that was rewritten and 
changed, and the Administration supported it, and they, in 
fact, came back with about a 65 percent fossil fuel, and 30 
percent to the alternative renewable. So, you're going to have 
a very hard time persuading--at least this Member of the 
Committee--that the Administration has been a leader with 
respect to moving in that direction. Have they thrown some 
bones out there? Sure.
    But let me, perhaps, phrase the question this way--you're 
the Chief Science Advisor to the President of the United 
States, who is the leader of the free world, and one of the 
most, we're the largest emitter of emissions in the world, and 
we're the biggest and strongest economy, for a little while 
longer.
    My question to you is, what urgency do you tell the 
President? I mean, how urgent do you believe it is that we put 
in place some kind of mandatory movement, in order to meet what 
the science is telling us we must meet?
    Dr. Marburger. Sir, that's a somewhat, that's a multiple 
question, and the issue of exactly how you go about changing 
the behavior of a large fraction of the human population of the 
world is one that's very difficult----
    Senator Kerry. Well, just answer the first part of the 
question, how urgent do you believe the science is telling us 
it is? It's a simple question.
    Dr. Marburger. I believe the science is telling us that 
it's important to begin to address the emission of greenhouse 
gases----
    Senator Kerry. Is it urgent?
    Dr. Marburger. We need to do it as soon as we can.
    Senator Kerry. Does that mean it's urgent? I mean you're a 
science advisor, I hear you resisting the word urgent.
    Dr. Marburger. There is--yes, absolutely, there is a sense 
of urgency here----
    Senator Kerry. Sense of urgency? Or in your judgment, is it 
really urgent?
    Dr. Marburger. In my judgment, it's important to begin to 
reduce our greenhouse gas emissions as soon as possible.
    Senator Kerry. So, the top science advisor to the President 
is resisting using the word urgent.
    Dr. Marburger. Yes, I am resisting the use of the word 
urgent, I think that the----
    Senator Kerry. Frankly, I think you ought to resign. I 
really do. Can you tell me why it isn't urgent when you have 
the science that we've heard? When Jim--do you disagree with 
Jim Hansen that there's a 10-year window to get this right? You 
disagree with that?
    Dr. Marburger. I am conflicted on this issue, because I 
know that it's going to be very, very difficult to reduce the 
greenhouse gas emissions as rapidly as is desirable. There is--
it is very important for us to begin, it is very important for 
us to take the problem seriously----
    Senator Kerry. Then you don't agree with the IPCC report? I 
basically hear you disagreeing with it. Because the IPCC report 
and the consensus of scientists is that you have to hold our 
greenhouse gas emissions to a level of about 450--it was 550, 
but now they say 450--parts per million. Now, we're at 370 
today, 370, 380. We've gone up 100 in the course of the 
industrial revolution. China's coming online with hundreds of 
coal-fired powered, pulverized coal plants, India is doing the 
same, we're going to do the same--at the rate we're going, 
we're looking at 600 to 900 parts per million, which every 
scientist I've listened to tells me is catastrophic, beyond the 
tipping point of global climate change. Do you accept that?
    Dr. Marburger. Yes, I accept those high numbers.
    Senator Kerry. Then how can it not be urgent to move?
    Dr. Marburger. What is urgent is to begin to reduce the 
greenhouse gas emissions, there's no question about that. That 
we must begin, this Administration has begun, by calling 
together the leaders of countries that are responsible for the 
greatest fraction of the emissions----
    Senator Kerry. But they're not in favor of mandatory 
reductions.
    Dr. Marburger.--and beginning to develop plans in each of 
those countries that are consistent with the particular 
circumstances of those countries. I don't----
    Senator Kerry. Let me just interrupt you--do you believe 
that we can meet the goals we need to meet on a voluntary 
basis, Doctor?
    Dr. Marburger. I believe that meeting the goals will 
require a mixture of policy and technology alternatives.
    Senator Kerry. That's not what I asked you.
    Dr. Marburger. And they would----
    Senator Kerry. I asked you, do you believe we can do it 
without mandatory requirements?
    Dr. Marburger. Belief is not a word that I tend to use for 
these issues.
    Senator Kerry. Do you have confidence that as a policy we 
can achieve our goals without their being mandatory?
    Dr. Marburger. It is possible that we could achieve the 
goals without mandatory.
    Senator Kerry. And you have confidence that that is doable?
    Dr. Marburger. I don't have confidence that it's doable.
    Senator Kerry. Senator Stevens?
    Senator Stevens. I regret you asked someone to resign just 
because they disagree with you.
    Senator Kerry. That's not why I asked him to resign.
    Senator Stevens. I certainly disagree with you, and I am 
not going to resign. What do you think of the International 
Arctic Research Institute that we have at the University of 
Fairbanks?
    Dr. Marburger. Well, I think these institutes are an 
important part of the science that's done to keep us informed 
about the progress of global change.
    Senator Stevens. Do you have a climatologist on your staff?
    Dr. Marburger. I do.
    Senator Stevens. Who is it?
    Dr. Marburger. His name is Phil DeColla, and he is a 
scientist who is temporarily on loan to us from NASA.
    Senator Stevens. I find it interesting----
    Dr. Marburger. I might add that he reports in his NASA 
capacity to Dr. Kaye, here, on my left.
    Senator Stevens. I will save some questions for Dr. Kaye.
    I find it interesting that we listen to so many people who 
claim to have knowledge, yet the climatologists that have been 
studying this matter for 40 years at our University, and that's 
an international organization, sponsored by Japan, Canada, the 
United States, and sometimes other countries, have given us a 
definite impression what we are seeing is a continuum that is 
the ending of the warming, coming out of the ``little Ice 
Age.'' Have you seen their presentations?
    Dr. Marburger. Yes, I have, Senator.
    Senator Stevens. Have they influenced you at all, in terms 
of your work?
    Dr. Marburger. Well, there's no question that there are 
natural--that is to say, nonanthropogenic, or non-human--causes 
for climate change, but there is a strong consensus that recent 
warming of the climate, which is observable, does have human 
origins, and----
    Senator Stevens. It all has human origins?
    Dr. Marburger. Not all, but----
    Senator Stevens. I am told that one-fifth of the change in 
the last 100 years is a result of human intervention. Do you 
disagree with that?
    Dr. Marburger. I'm not sure of that number.
    Dr. Kaye, do you know?
    Dr. Kaye. I'm not familiar with any one number, I know that 
we have to look at a wide range of parameters when you're 
trying to assign to what extent something's anthropogenic, or 
to some extent it's natural. You really have to look at a suite 
of things and try to--that's how you get a fingerprint for 
what's human-induced, and what would be natural.
    Senator Stevens. We will ask questions later. I don't think 
there is a human contribution to the current problem of the 
increased warming. It is added to the ongoing warming trend 
that has been going on for well over 900 years. We are at the 
end of that trend, in terms of the climatologists I have 
visited with. If they are right, if we overreact now, and set 
arbitrary goals, we are liable to do more harm than good.
    I look forward to the hearing.
    Thank you very much, Mr. Chairman.
    Senator Kerry. Thank you.
    Senator, the reason I made the comment about resigning, I 
didn't call on him, I said I think he should, because I think 
the President of the United States ought to be getting what 
represents the scientific consensus and fact that is being put 
forward in the IPCC and elsewhere. And if the President is not 
getting that sense of urgency and fact, then I don't think the 
President is getting the best advice, that's my feeling.
    Second, with respect--well, I'll come back to that 
afterwards. Let me turn to Senator Boxer.
    Senator Boxer. Thank you, Senator.
    You know, I think the statement from the Senator from 
Alaska is very close to what Senator Inhofe says every time we 
have a meeting. And I was pleased, Dr. Marburger, with your 
unequivocal statement that you do believe the IPCC is correct.
    We better get off the dime here. There are always people 
that say, ``HIV didn't cause AIDS, and Dr. Jonas Salk was wrong 
when he said there could be a vaccine,'' there are people who 
still say, ``Smoking doesn't cause cancer.'' You know what? 
It's dangerous to follow that kind of lead. And Dr. Marburger, 
I'm very pleased with your unequivocal statement, and the fact 
that you did say there's--you didn't say there's--you didn't 
say it's urgent, you said there are--what was your comment? You 
used the word urgency.
    Dr. Marburger. There's an urgency, I believe there's an 
urgency to begin to solve this problem, we must get started.
    Senator Boxer. OK. There's an urgency to begin to solve 
this problem. I think Senator Stevens ought to hear that. The 
top science adviser, Senator Stevens says, there's an urgency--
I'll wait, it's OK--the top science adviser--I thought girls 
gossiped.
    Senator Stevens. You do not stop when I am talking.
    [Laughter.]
    Senator Boxer. I always stop, I always listen to you.
    [Laughter.]
    Senator Boxer. Well, Senator----
    Senator Kerry. All right, all right everybody, let's keep 
going forward here.
    Senator Boxer. Senator Stevens, my entire talk so far which 
has been 60 seconds, has been aimed at what you said, I listen 
to everything you say.
    Senator Kerry. Senator Boxer, I want you to know I was 
bringing him along, I was bringing him over to our side.
    [Laughter.]
    Senator Boxer. I know, I know, I know.
    [Laughter.]
    Senator Boxer. Well, you have better luck than I've had.
    Now, here's the point. You had the President's top science 
advisor, George Bush's top science advisor, although he may not 
have used all of the words that I think he should, and I agree 
with Senator Kerry on that--saying that there is an urgency to 
start to reduce these carbon emissions. So, you can talk to 
scientists who are off in the corner, who are--maybe there's 5 
percent of the scientists in the world that believe that--I'd 
rather go with 95 percent of the scientists.
    Because if you look at the history of our nation, we listen 
to science. We don't go with the people who said, ``The world 
is flat, the world is flat,'' there's still people who say the 
world is flat. But, here's why--because what's at stake here, 
is the whole future of the planet. And Dr. Marburger, I think 
you understand it, and that's why I'm going to segue way to my 
issue that I opened up with.
    I know it's very unpleasant for you. But since you were 
blamed for the redacting, and I'll show you the Washington Post 
story, they show--one, two, three, four, five pages--five and a 
half pages redacted, Dana Perino blamed it on you. Did you 
redact those pages?
    Dr. Marburger. Well, I'm not sure Dana Perino blamed it on 
me----
    Senator Boxer. Well, I'll read you what she said----
    Dr. Marburger.--but I----
    Senator Boxer.--but go ahead.
    Dr. Marburger. But my office participated in a process that 
is run by the Office of Management and Budget that reviews all 
testimony provided by senior Administration officials. And 
because there was a sharp media reaction to this incident that 
you described in your statement, Senator Boxer, I issued a 
statement of my own----
    Senator Boxer. I read that, yes.
    Dr. Marburger.--following this----
    Senator Boxer. I read that.
    Dr. Marburger.--that explained our role in the process. We 
were one of a number of commenters on the testimony, and we did 
recommend changes in the draft testimony that we saw. We did 
not recommend dropping, you know, wiping out 8 pages of it, but 
I gave examples in my statement, and in fact, I would like to 
submit my statement for the record for this hearing, if 
Chairman Kerry----
    Senator Boxer. Chairman Kerry, is that OK, if we include 
that in the Record? OK.
    [The information previously referred to follows:]

             Statement from Dr. John Marburger, Director, 
                Office of Science and Technology Policy
                                                   October 26, 2007
    ``I am taking the unusual step of commenting on OSTP's 
participation in the review of testimony given by another Executive 
branch agency in order to respond to reports and press statements that 
have alleged or insinuated that OSTP acted inappropriately.
    OSTP was asked to review draft CDC testimony as part of a standard 
interagency review process. The OSTP climate science experts who 
reviewed the draft testimony thought it was focused on the appropriate 
connections between climate change and impacts on human health, which 
is one of many topics in the recent Intergovernmental Panel on Climate 
Change's (IPCC's) Working Group II (WGII) report. However, they also 
found that there was an overall lack of precision in aspects of the 
draft testimony describing important details regarding the level of 
certainty for specific findings, the spatial scale for which certain 
impacts have been assessed, and the specific nature of some climate 
change impacts on human health. The draft testimony did not contain 
reference to any sources, either to the IPCC Fourth Assessment or more 
recent work completed and published after the deadline for inclusion in 
the IPCC. This led to OSTP comments asking the authors to either make 
more precise reference to IPCC conclusions, or cite the new work that 
supports a different conclusion.
    OSTP regards the science that is reflected in the IPCC's Fourth 
Assessment--which was not cited or referenced in the draft testimony--
as an accepted and important source of credible scientific information 
on the current state of climate change science. The comments of the 
OSTP reviewers were grounded in their in-depth understanding of the 
IPCC report.
    The OSTP comments did not seek to redact sections of the report, 
but instead made a number of substantive and constructive comments and 
suggestions to ensure the testimony accurately represented the state of 
climate science and asked a number of questions intended to solicit 
clarity in the statements being made. My office takes our role in 
evaluating the scientific accuracy of Administration documents very 
seriously, and the comments of the OSTP reviewers in this instance were 
made based on their scientific knowledge of climate change science and 
upheld the high standards for scientific accuracy that I expect from my 
staff.
    Several commentators have suggested that the draft testimony mapped 
faithfully to the IPCC's report. Those commentators have missed or 
ignored several nuanced but important differences between the IPCC 
report's findings and the draft testimony.''
    Below are several examples:

        1. Scalability of Impacts. The draft testimony begins by 
        stating that ``In the United States, climate change is likely 
        to have a significant impact on health, through links with the 
        following outcomes,'' and then lists nine main areas of climate 
        change impacts on health. The IPCC is not an assessment of 
        impacts in the United States. Chapter 8 of the IPCC WGII report 
        addresses human health impacts globally, and Chapter 14 of that 
        same report focuses on impacts within North America--a large 
        and diverse continent. While some studies have focused on U.S.-
        based impacts, it is imprecise to simply apply global or 
        continental-scale impacts to the U.S. without a basis in more 
        geographically-centered studies.

        2. Extreme Weather Events. The draft testimony says ``Climate 
        change is anticipated to alter the frequency, timing, 
        intensity, and duration of extreme weather events, such as 
        hurricanes and floods.'' The IPCC reports do not provide a 
        basis for a link between hurricane frequency and climate 
        change. Most of the text in the recent IPCC reports focuses on 
        the link between hurricane intensity and climate change--an 
        issue about which there is considerable debate within the 
        scientific community. The testimony appeared to have modified a 
        more general reference in the WGII report that ``. . . some 
        weather events and extremes will become more frequent, more 
        widespread and/or more intense during the 21st century . . 
        .''--a reference that may be accurately applied to certain 
        weather events, but not, based on current science, to 
        hurricanes.

        3. Food Scarcity. The draft testimony says ``Climate change is 
        predicted to alter agricultural production, both directly and 
        indirectly. This may lead to scarcity of some foods, increase 
        food prices, and threaten access to food for Americans who 
        experience food insecurity.'' These statements do not reflect 
        the full and complex consideration of agricultural impacts in 
        the IPCC working group reports, and appear to be an ill-
        supported application of a potential global condition to the 
        United States. In fact, the IPCC WGII report, in the chapter on 
        North America says ``Research since the [last IPCC report] 
        supports the conclusion that moderate climate change will 
        likely increase yields on North American rain fed agriculture . 
        . . Most studies project likely climate-related yield increases 
        of 5-20 percent over the first decades of the century . . . 
        Major challenges are projected for crops that are near the warm 
        end of their suitable range or depend on highly utilized water 
        resources.''

        4. Mental health problems. The testimony says ``Some Americans 
        may suffer anxiety, depression, and similar symptoms in 
        anticipating climate change and/or in coping with its 
        effects.'' The IPCC report focuses on mental health issues in 
        the context of post-disaster effects, not in anticipating them, 
        as the testimony suggests.

    Dr. Marburger. So----
    Senator Boxer. Well, I read that, and I read very carefully 
what you wrote--those were small edits. And I read those.
    Dr. Marburger. Right.
    Senator Boxer. And that could have been changed with one 
word. I used to be an editor at a small paper and I know how to 
edit, all you had to do is change one or two words in those 
four areas, and that would have been fine. Someone redacted six 
pages, was it six pages?
    Here we go, one, two, three, four, five, six and a half, 
right? Six and a half pages.
    Now, when Perino was asked about it, she said, ``I know our 
scientists at the Office of Science and Technology Policy 
looked at the draft, and wanted to make sure it was taking 
advantage of the science.'' And that was all she said, she 
didn't say anybody else looked it--who else looked at it? Do 
you know?
    Dr. Marburger. As I explained in my statement, there is a 
process of reviewing all testimony by senior Administration 
officials that's run by the Office of Management and Budget----
    Senator Boxer. OK.
    Dr. Marburger.--they gather----
    Senator Boxer.--well I just want you to know, they're 
blaming you for it. And I will put in the Record, without 
objection, if I might, Mr. Chairman, Dana Perino's statement. 
First she blamed you, then they came back again at her, and she 
said, ``Well, look, I do know is the Office of Science and 
Technology Policy those scientists over there, led by Dr. Jack 
Marburger, are the ones who have been encouraging us to do 
climate change and they're the ones who said these were 
wrong.'' So, in your name, they've redacted this testimony.
    Further, Fred Fielding--is that Fielding?--said that he 
will not turn over this material because of Executive 
Privilege.
    So, I want to ask you something. You're the top scientist. 
Do you think that the American people have a right to know what 
you think on global warming?
    Dr. Marburger. Oh, of course, I do. Yes.
    Senator Boxer. Do you think they have a right to know what 
the top doc, Dr. Gerberding, thinks about global warming?
    Dr. Marburger. Yes, indeed.
    Senator Boxer. Do you agree that the taxpayers pay the 
salary of not only us, but you and her, right?
    Dr. Marburger. Certainly.
    Senator Boxer. OK. Well, could you take this back to this 
Administration? Because I find it vile that they would not 
allow Dr. Gerberding's testimony to be seen by the taxpayers of 
this country. You've got people like Senator Stevens, and 
Senator Inhofe saying that human beings really--in their 
opinion, after talking to their scientists--they don't really 
believe humankind is the major cause of this.
    Senator Stevens. That is not true.
    Senator Boxer. Well, I'll reiterate what you said, you said 
it was 5 percent of the cause.
    You just said it.
    Senator Stevens. No, I said it was one-fifth.
    Senator Boxer. One-fifth of the cause. So, four-fifths of 
the cause have to do with other things. That is directly 
contrary to what the scientists are telling us at the IPCC who 
said, ``Most of the observed increase in global average 
temperatures during the mid-20th Century is very likely due to 
the observed increase in greenhouse gas concentrations,'' and 
they go through it and they say, ``Human influences now 
extend,'' et cetera, et cetera.
    So, here's the point, Dr.--Dr. Stevens----
    [Laughter.]
    Senator Boxer. Senator Stevens has the absolute right to 
his opinion. His state is the one most at risk, by the way. 
Most at risk.
    Senator Stevens. From methane, not from CO<INF>2</INF>.
    Senator Boxer. Greenhouse gas emissions include methane.
    Senator Kerry. In fairness, Senator Boxer, let me just say, 
Senator Stevens and I--and I've talked about this also in the 
past--there is an enormous amount--methane is released now in 
Siberia and Alaska, and elsewhere, and it's been released for a 
long period of time. Methane is 20 to 30 times more powerful 
than CO<INF>2</INF>.
    Senator Boxer. Right.
    Senator Kerry. And there are pockets of methane that have 
been frozen for some 200,000 years, that now because the 
permafrost is melting, are also suddenly being exposed. So, we 
need to talk about methane capture and the natural capture, as 
well as the CO<INF>2</INF> component. And, the Senator is 
correct, that in his state there is a significant methane 
issue.
    Senator Klobuchar. But the permafrost is melting because of 
the climate change.
    Senator Boxer. If I might take back----
    Senator Kerry. Right, I understand----
    Senator Stevens. Not totally because of methane. It is a 
process of time.
    Senator Boxer. Go ahead. I don't want to get in the way of 
this, this is great.
    Let me just say this point. Our bill deals with greenhouse 
gas emissions, we all know it's not just carbon, OK? We 
understand that. The fact of the matter is, Senator Stevens has 
his scientific theories on it, after speaking with scientists, 
I have my own speaking with scientists, the taxpayers deserve 
to hear what you think, they deserve today, to hear what you 
said. That we need to start to act, there's a sense of urgency 
in the need to act.
    And the thing in closing I would say is, you're getting 
blamed for this redacting, whether you like it or not. 
Somebody's hanging you out there to dry, and you ought to find 
out who it is, do you know who it is? Who redacted those pages, 
sir?
    Dr. Marburger. No, I----
    Senator Boxer. OK.
    Dr. Marburger. They were sent back by OMB.
    Senator Boxer. Well, I hope you get your----
    Senator Kerry. By OMB?
    Dr. Marburger. The process of reviewing testimony is run by 
the Office of Management and Budget.
    Senator Kerry. Right.
    Dr. Marburger. And they gather together comments from all 
of the offices and then send them back.
    Senator Kerry. It's usually OMB that we hear does most of 
the deleting, I think, because they just see dollars.
    Senator Boxer. Well, I would just say this--if I were you, 
and I were sitting over there, just knowing me, and somebody 
was hanging me out to dry, I wouldn't take it in as sweet as--
you're a sweet person. I would not be sweet. I would demand to 
know who was ruining my reputation, I would demand to know who 
is responsible.
    And I would say to this President--who I think doesn't know 
about these things, I can't imagine he does--that his lawyer is 
hiding information from the people. It's an absolute outrage. 
You didn't redact it. Somebody else redacted it, for political 
purposes. It is a scandal.
    And it lets people sit around here and say, ``Oh, there's 
no problem, there's no science, there's no this, there's no 
that.'' Yes, there is.
    So, sir, I just hope you will come away from this with 
hope, not fear, and I sensed in your answer to Senator Kerry, 
you said, ``I'm conflicted because it's difficult for us to 
make these changes.'' You are right. But that is not your job. 
Your job is the pure science. Our job is to make the political, 
you know, decisions. It's my job to fight with Senator Stevens, 
and say, ``I hope you will come on the Snowe-Kerry bill, or the 
Kerry-Snowe bill or the Lieberman-Warner bill,'' and try to 
convince him to do it, he has his right never to do it. But 
that's our job. Your job is to give us the science.
    So, I hope, as a result today, when you go home tonight and 
talk with your family, you'll realize that you're in a pivotal 
position here, as the top scientist to this President and I 
hope you'll get the courage to do what is right.
    Thank you very much.
    Senator Kerry. Thank you very much, Senator Boxer, I 
appreciate it.
    Senator Klobuchar, and then Senator Snowe, Senator Thune, 
Senator Vitter.
    Senator Thune. Mr. Chairman, I am going to go. I have a 
statement to submit.
    Senator Klobuchar. It's fine with me if he goes.

                STATMENT FROM HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. No, I know, it is all right, go ahead. I am 
just saying I would like to submit a statement for the Record.
    Senator Kerry. Absolutely. Your full statement will be put 
in the Record, and we appreciate it.
    Senator Thune. Thank you, Mr. Chairman.
    Senator Kerry. Thank you.
    [The prepared statement of Senator Thune follows:]

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota
    Mr. Chairman: I want to thank the Chairman for holding today's 
hearing on an important topic: research on Global Climate Change and 
the impact it may have on our environment.
    With regard to climate change research, it is critical that 
policymakers at all levels of government have clear, concise, and 
reliable data on global climate change.
    Objective, science-based research is needed to understand the 
magnitude and cause and effect of climate change. And I appreciate 
today's witnesses for joining us today on this topic.
    However, regardless of your beliefs of the causes and impacts of 
global climate change or on the objectivity of climate change research, 
it is clear that Congress should continue to make clean renewable 
energy the cornerstone of our national energy policy.
    My state of South Dakota is rich in renewable energy potential, and 
is a fine example of how clean renewable energy can benefit the entire 
nation.
    By the end of 2008, South Dakota will be producing over 1 billion 
gallons of ethanol each year.
    According Argonne National Laboratory, ethanol consumption could 
result in a significant reduction in greenhouse gas emissions.
    In a recent study, Argonne National Laboratory measured the life-
cycle greenhouse gas emissions for corn-based E85, which is a mix of 85 
percent ethanol and 15 percent regular gasoline. Argonne concluded that 
corn-based E85 results in a 20 percent reduction in greenhouse gas 
emissions relative to regular gasoline.
    If the renewable fuel is cellulosic ethanol, Argonne National 
Laboratory predicts that greenhouse gas emissions are reduced by 67 
percent to 89 percent.
    Additionally, our electrical power sector can contribute to a 
reduction of greenhouse gas emissions. Over 50 percent of our 
electricity is generated by coal-fired power plants.
    Last week, the Commerce Committee held an informative hearing on 
the potential of clean coal technologies. Capturing and sequestering 
carbon from traditional power sources can greatly reduce greenhouse gas 
emissions.
    These traditional sources of energy can be supplemented with clean 
renewable sources of energy such as wind and geothermal energy. Wind 
energy in particular is growing part of our Nation's energy portfolio. 
Additionally, it is one of the few energy sources we have at our 
disposal that is truly carbon neutral.
    Again, Mr. Chairman I thank you for today's hearing and I look 
forward to working with members of this committee as we look for ways 
to improve upon climate change research and promote clean renewable 
sources of energy.

    Senator Klobuchar. Thank you, Chairman Kerry. And I'd like 
to also note, I'd said earlier that I think this should be 
bipartisan solutions to this issue, like we've done in our 
state, where we have a Republican Governor, Democratic 
legislature working together with one of the most aggressive 
renewable electricity standards in the country.
    I'm happy to see my colleagues here, Senator Snowe and I 
have worked together on the carbon registry, which is a piece 
of the climate change bill that is going through the 
Environment Committee.
    And I would also like to note that I have heard Senator 
Stevens talk about the change to the permafrost, and make some 
statements about how he sees the climate change issue evolving, 
and I think there has been some movement on this from our 
colleagues, and I really appreciate that, and I think it's the 
only way we're going to go through this. But, again, I don't 
think we're going to get there unless the Administration has a 
sense of urgency about what's happening.
    And I wanted to, first of all, Dr. Marburger, and I 
appreciate your statement that climate change exists. But, in 
your official statement you released, in response to our 
Committee's inquiry and to the editing of Dr. Gerberding's 
testimony, you stated, ``The IPCC is not an assessment of 
impacts in the United States.'' Do you really believe that the 
IPCC's findings are not applicable to the United States?
    Dr. Marburger. No that's not quite correct, but the IPCC 
report tends to describe impacts around the world. There is a 
section in the IPCC report that addresses phenomena in North 
America. But one of the problems that we had with the testimony 
as we saw it, was that it tended to accept the impacts that 
could happen anywhere in the world, as signaling what would 
happen in the U.S.
    Senator Klobuchar. But you don't believe that this would 
happen in the United States, what could happen in the rest of 
the world?
    Dr. Marburger. Some--there are important variations in 
impacts in different parts of the world. And in the U.S., for 
example, some of impacts will be significantly modified, 
compared with sub-Saharan Africa, for example, or the Polar 
Regions, or--so there are different impacts in different 
places. This is one of the areas that I expect will receive 
priority for climate change science research in the future----
    Senator Klobuchar. You know, I know firsthand, as we see 
rises in sea level, we see decreases in Lake Superior, where I 
live, because the--and the barge industry is very concerned 
about this, because the ice is evaporating, and they can't get 
their barges in and we see the effect on the economy--I know 
that there are differences for different regions in different 
parts of the world. But, what I'm getting at, is their findings 
must be applicable to the United States when they say that 
there could be an increase in fires, there could be an increase 
in more severe hurricanes, or storms and flooding--is that not 
applicable to the United States?
    Dr. Marburger. Of course, but case-by-case. For example, 
the impact on agriculture will be very different in the U.S. 
than in other parts of the world, where conditions are 
different.
    So, you know----
    Senator Kerry. But it will have an impact.
    Dr. Marburger. It certainly will have an impact. 
Absolutely.
    Senator Kerry. That's all the IPCC report says.
    Dr. Marburger. Well, no, the IPCC report is specific--when 
it comes to health impacts it does make a difference what, 
exactly, you're talking about. And impacts on agriculture, for 
example, could be expected to have major impacts on health of 
people, people who may already be at risk for, undernourished.
    So, I think it's important to make those distinctions, and 
those are the kinds of distinctions that we recommended should 
be made in the testimony. Not deleting multiple pages, but to 
be precise.
    Senator Klobuchar. So, you disagree with the deleting of 
multiple pages in the testimony.
    Dr. Marburger. I think it was not necessary to delete the 
multiple pages in the testimony. It would have been much 
better, simply to make the corrections that were proposed, and 
have it go forward. Obviously, no one likes to see this kind of 
reaction, and accusations of censorship and so forth, it's----
    Senator Klobuchar. Now, in your official statement, you 
mentioned that you, ``Asked the authors to either make more 
precise reference to the IPCC conclusions, or cite to new 
work.'' How many times have you testified before Congress, Dr. 
Marburger?
    Dr. Marburger. I can't remember.
    Senator Klobuchar. Well, do you cite sources in all of your 
testimony?
    Dr. Marburger. In my written testimony I try to do that.
    Senator Klobuchar. But, are there citations in your 
testimony today?
    Dr. Marburger. In my testimony today, no.
    Senator Klobuchar. All right, and that wasn't censored. 
Because it was one of the reasons that was given for why this 
testimony was deleted.
    In the original testimony of Dr. Gerberding, it included 
this statement, ``The United States is expected to see an 
increase in the severity, duration, and frequency of extreme 
heat waves. This, coupled with an aging population, increases 
the likelihood of higher mortality, as the elderly are more 
vulnerable to dying from exposure to excessive heat.''
    You and--well, the Administration claims--that Dr. 
Gerberding's testimony was edited because it, ``Missed or 
ignored several important differences between the IPCC 
report.'' Now, the IPCC report says, ``Severe heat waves will 
intensify in magnitude and duration over the portions of the 
U.S. where they already occur,'' and ``Local factors, such as 
the proportion of elderly people, are important in determining 
the underlying temperature-mortality relationship in a 
population.''
    So, what is the Administration's response for why they 
edited that section? What is the rationale?
    Dr. Marburger. I'm not prepared today to give you the 
detailed rationale for each of the recommendations that we 
made, but I would respond to that for the record. I was not the 
one that made those recommendations, but I believe that they 
are justified, and I will be glad to respond to that question 
for the record.
    [The information previously referred to follows:]

    Regarding the section in the draft CDC testimony on ``Heat Stress 
and Direct Thermal Injury,'' OSTP raised two concerns regarding 
statements that described links between projected increases in 
temperature and health impacts within the United States. OSTP's climate 
experts found that the health impacts of climate change discussed in 
that section were largely congruent with the science described in the 
recent IPCC report, and we did not suggest any specific changes, 
deletions, or addition of text. However, OSTP's two concerns were 
motivated by the fact that our reviewers found inconsistencies between 
important scientific details in the draft testimony and those of the 
relevant IPCC conclusions.
    One OSTP comment concerned the assessment of the likelihood of a 
future increase in the frequency of hot days, hot nights, and heat 
waves. The OSTP expert who reviewed the testimony pointed out that the 
IPCC assigned an even stronger likelihood to that projection than 
stated in the CDC testimony. The other issue raised by the OSTP 
reviewer dealt with the spatial scales of the specific impacts 
described in the testimony, which were inconsistent in their details 
(see below) with the science cited in the IPCC report. However, 
recognizing that there could be recently published results that were 
not included in the IPCC report because of IPCC-imposed deadlines for 
inclusion, OSTP simply asked for clarification regarding the source of 
the statements in the testimony.
    Regarding the specific concern of the OSTP reviewer mentioned 
above, the draft CDC testimony on heat waves refers to projections for 
both ``the United States'' and for ``Midwestern and Northeastern 
cities.'' Chapter 8 of the IPCC Working Group II report addresses human 
health impacts globally, and Chapter 14 of that same report focuses on 
impacts within North America--a large and diverse continent. It is 
imprecise to simply apply the global- or continental-scale impacts 
described in the IPCC report to the U.S. without a basis in more 
geographically-centered studies. It is equally problematic to take very 
geographically narrow studies (the IPCC report cites specific studies 
focused on Chicago, as well as four cities in California) and 
extrapolate the results to larger areas, without a scientific basis for 
the extrapolation. Thus OSTP's question suggested either a more careful 
representation of the IPCC assessment's conclusions be made, or that 
CDC identify more recently published research as the basis for the 
different conclusions.
    The differences between the CDC testimony and the conclusions of 
the IPCC report--such as the one I have addressed above regarding 
heatwaves--may be subtle, but they are extremely important. The OSTP 
experts who reviewed the draft testimony appropriately called attention 
to these types of subtle, but scientifically important, differences in 
their comments on the draft CDC testimony.

    Senator Klobuchar. And then also, I'd cited earlier in my 
opening statement the similarity between the testimony of Dr. 
Gerberding about wildfires, and the IPCC report. And no one 
said wildfires are caused by climate change, they said the 
increases of severity of them, because of the drought 
conditions. And if you could explain what the differences were 
with that, and why that was deleted, I would appreciate that, 
as well.
    Thank you.
    [The information previously referred to follows:]

    OSTP had no comments, questions, or edits to the section of the 
draft CDC testimony related to wildfires.

    Senator Kerry. Thank you very much, Senator Klobuchar.
    Senator Snowe?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman, and thank you for 
your leadership on this most critical issue. I am very pleased 
to join you in introducing legislation to reform the Climate 
Science Research Program, to update it. Revamping it is 
absolutely vital, and certainly in our national security 
interest, without a doubt.
    Policymakers and local decisionmakers at all levels of 
government have to make decisions that are predicated on sound 
scientific information. We have to have a better understanding 
of the environmental information and evidence on which to base 
our policies and our decisions, and also to act in a timely 
fashion.
    I think you can sense, Dr. Marburger and Dr. Kaye, there is 
a great deal of frustration. I share that frustration with my 
colleagues on the Committee, because frankly, the 
Administration has not lived up to its commitment within the 
strategic plan of the Climate Science Research Program.
    Based on the National Academy of Sciences, when you hear 
what the Chairman had to say with respect to the fact the 
program has not produced but three of the 21 reports. We have 
seen declining budgets, declining personnel, at a time in which 
we are facing this global challenge to which the United States 
clearly plays an integral role. Good science is absolutely 
vital, and imperative.
    What I would like to ask you Dr. Marburger, at a time in 
which we are seeing more than 67 bills introduced in the 
Congress, so all the more reason to have this strong science in 
which to make our decisions. Your agency, for which you're 
responsible, has not produced but 3 of the 21 reports that you 
are responsible for.
    Can you tell this Committee as to why only 3 of the 21 
planned reports to address various components and aspects of 
climate change have not been forthcoming?
    Dr. Marburger. I don't know, in detail, why it has taken so 
long to produce these reports. I'm very disappointed that they 
have not been produced on schedule. I take very seriously the 
finding of a Federal court in California that this is not 
appropriate, and I'm taking steps in my office to make sure 
that the timetable that was specified by the Court is adhered 
to, and that these reports will come out on time.
    Senator Snowe. When could we expect them? What kind of 
time-frame are we talking about?
    Dr. Marburger. The deadline established by the Court which 
is also, by the way, the deadline that was set by the climate 
change science program itself, which is, it's not my program, 
although I accept some responsibility for it on behalf of the 
Administration, that deadline was in May of 2008, I believe, 
when all the reports were supposed to be done. There are other 
deadlines, a schedule, that was in the court decision that I 
don't recall at the present time. But the idea is to have 
everything done, including a new plan by May 2008.
    Senator Snowe. You can understand the depth of our concern, 
frustrations, and skepticism about the intent of the 
Administration with respect to this issue. Where it seems in 
concentrating on the uncertainties of whether or not climate 
change is a problem, human-induced or otherwise, rather than 
concentrating on solutions to this national and global problem.
    The United States has an enormous responsibility. It is 
certainly in our national security interests. It is our Federal 
obligation, not only to provide a national policy, but also to 
assist local decisionmakers, at the local and State level. To 
be able to anticipate, to adapt, to predict future 
environmental events. It is a matter of life and death.
    I believe the Administration is in a time warp on this 
issue. The world has moved ahead, and we have stood still. That 
is why it is so important, not only to update this program, but 
obviously, we need the support of the Administration in the 
meantime. I do not believe the Administration has lived up to 
the strategic plan of this program. Do you believe it has?
    Dr. Marburger. The reports are certainly delinquent, and 
it's very disappointing that they haven't appeared. I think 
this is a problem that needs to be addressed.
    Senator Snowe. In addition to that, the National Academy of 
Science panel, and I know others have mentioned it, as well, 
has indicated the number of environmental satellites are 
anticipated to be reduced from 120 to 80 by 2010. I would like 
to have you address that, as well, Dr. Kaye. That is a critical 
issue. We are providing more in the NASA budget. At the same 
time, we are seeing that we are cutting the environmental 
science and the satellites are so important to be able to 
understand what is going on here on earth.
    Dr. Marburger. My office is equally concerned about the 
fate of the instruments, the sensor instruments that Senator 
Nelson also referred to in his opening remark, that had been 
scheduled to be flown on the NPOESS satellite. That program 
was, became--its budget grew beyond limits, statutory limits--
it required it to undergo a review that led to the 
cancellation, or removal, or demanifestation, I think is the 
word, of important sensors from the NPOESS satellite.
    My office, when we became aware that that might happen, 
immediately contacted NOAA and NASA and asked them to produce 
plans for filling that gap. And, that we could take to the 
President, if necessary, and seek support for through the 
budget process. We do have some plans from NASA, they should be 
shared with Congress at the appropriate time, and I hope that 
it will be possible for us to make up for the losses that were 
anticipated when the demanifestation occurred.
    Senator Snowe. What would be that timeframe?
    Dr. Marburger. That time-frame would be within a matter of 
months, in connection with the President's budget request.
    Senator Snowe. Do you believe we should take any mandatory 
approach to a reduction in greenhouse gas emissions?
    Dr. Marburger. I don't have an opinion on that. Let me tell 
you what I do think----
    Senator Snowe. From a scientific standpoint, knowing what 
you know today.
    Dr. Marburger. You know, when you begin to talk mandatory, 
that's not scientific. I can't tell you what motivates people.
    I do know that you have to give people a choice as to how 
they're going to improve their lives. We have countries like 
China and India that are developing very rapidly, that are 
insisting on access to the same kinds of advantages that we 
have. And I think when you talk mandatory under conditions like 
that, you're not going to get a very favorable reaction. It's 
necessary to design approaches for those countries that are 
appropriate, that they will be willing to live with. The 
problem is not only within the U.S., the problem is also with 
other countries that are developing very rapidly.
    Within the U.S., I think it's absolutely essential to have 
technical alternatives to the way we produce and use energy 
today. So, in my view, the most important thing, is to develop 
technologies that are feasible, alternatives, to the greenhouse 
gas-producing way of life that we have. And this has been a 
priority with this Administration, there's been major 
investments in research in these areas, and I believe that 
that's important.
    Now, no doubt, there will have to be policy actions taken, 
the sorts of actions that are currently being discussed in 
Congress, no doubt will have to be taken to provide the 
appropriate incentives to switch technologies. But, I don't--I 
am not advising on mandatory versus non-mandatory. That is a 
policy issue that's not in my purview.
    Senator Snowe. But don't you think the United States should 
be part of some agreement? I mean, beyond Kyoto, obviously. 
There are ways of structuring----
    Dr. Marburger. Climate change----
    Senator Snowe.--international agreements----
    Dr. Marburger. Climate change----
    Senator Snowe.--that addresses the concerns you have 
mentioned? I have attempted--I co-chair an international group 
we presented to the President that hopefully would have been on 
the G-8 agenda, at a time when Prime Minister Blair was the 
President of the G-8, to something beyond Kyoto. I understand, 
the United States was not a party to that agreement. What else 
could we do beyond that, rather than just allowing the problem 
to persist?
    Dr. Marburger. I believe the actions that President Bush 
has taken to call together the governments of the countries 
that are major greenhouse gas emitters is a very good action, 
it's the sort of thing that has to be done, to bring these 
other countries into the fold, as it were, and have them to be 
eager participants in the problem of addressing greenhouse gas 
emissions. This is--I think--a very forward-looking program, 
and one that seems to have receptivity on the part of those 
countries that need to be involved.
    There's no question that climate change is a global 
problem, and we must bring other countries along.
    Senator Snowe. The Montreal Protocol just celebrated its 
20th anniversary, and they had different timing for 
underdeveloped, and developing, nations, in terms of the 
timelines for compliance. And that's been effective and 
successful. There are ways in which to address the issues the 
United States might be concerned about, but it is not an option 
just to ignore the problem, and allow it to remain unaddressed.
    [The prepared statement of Senator Snowe follows:]

    Prepared Statement of Olympia J. Snowe, U.S. Senator from Maine
    Thank you. Mr. Chairman.
    I am very pleased that you have called this full committee hearing 
today as the planet is facing a critical problem--that of global 
climate change--and this country is challenged with a critical 
question--is our Nation's current Federal climate research program 
meeting the needs of our researchers, of the end-users of its products, 
services and information, and most importantly to members of this 
committee, of those of us who are elected to make the most informed 
scientific decisions on U.S. climate policy?
    I am pleased to have recently joined with Senator Kerry in 
introducing the Global Change Research Improvement Act of 2007, so I 
guess our answer to the above question would be absolutely not, as we 
seek to amend and strengthen the existing U.S. climate change research 
and assessment program that will ultimately benefit all of the citizens 
of our Nation. Our intent is to improve upon the basic research and 
products that the Federal Government develops on climate change and its 
inherent impacts. Our legislation would refocus the emphasis of the 
nations' climate change research program and fulfill the need for 
relevant information for states, and local and nongovernmental 
decision-makers.
    In addition, the creation of a new National Climate Service within 
NOAA will provide climate change forecasting on a regular basis to end-
users, and create a permanent information network so that 
decisionmakers in every city and town, county and state, and the 
Federal Government can make timely planning decisions to deal with 
impacts and develop adaptation methodologies.
    Our bill also calls for an Abrupt Climate Change Research Program 
within NOAA--a program I have been strongly supporting for at least 5 
years now--so that scientists can gather more knowledge about a change 
in the climate that occurs so rapidly or unexpectedly that human or 
natural systems have difficulty adapting to the change. My alma mater, 
the University of Maine at Orono, has a world renowned abrupt climate 
change research program under the direction of Dr. Paul Mayewski. He 
and his colleague Dr. George Denton have been major contributors to 
research on past climate shifts so that scientists can better predict 
future climate change.
    The U.S. Global Change Research Program, the country's esteemed 
climate research and assessment program, was established in law by the 
Global Change Research Act of 1990, and I know that cosponsors of the 
1990 Act, Senators Inouye, Stevens, Rockefeller, McCain, and Kerry 
should feel justifiably proud in creating the program that was signed 
into law by President George H. W. Bush. We now need to consider what 
has happened technologically since then, what was generally unheard of 
at that time. We now drive hybrid cars, we are tuned into iPods, we use 
hand held Blackberries for instant communication, we have much more 
advanced and high speed computers for modeling and, most importantly 
for our legislation, more comprehensive knowledge and understanding of 
climate change through 17 more years of peer-reviewed scientific 
research, monitoring, and assessments. Our nation's climate change 
research program needs restructuring so that we can turn all of that 
knowledge into timely and useful information for decision-makers. This 
is exactly what our bill does.
    We in Congress need a strong foundation of updated scientific 
information to make good climate policy; as of November 1, 67 climate 
change bills have been introduced in Congress. Yet, the National 
Academy of Sciences' September 13, 2007 assessment stated that the 
Climate Change Science Program has only completed and delivered 3 of 
its 21 planned reports on various aspects of climate science. The 
reason, past managers have commented is because the program is 
bureaucratically-driven. In fact, a Federal District Court found that 
the current Administration has failed to comply with the 1990 statute's 
mandate to provide regular assessments of the impacts of climate change 
on critical resources; no such assessment has been published since 
October 31, 2000.
    The NAS panel pointed out that the CCSP's director does not have 
the power to direct or prioritize climate spending at the 13 di fferent 
agencies involved. So he must watch helplessly as, for instance, the 
number of environmental satellites has been cut from 120 to 80 by 2010. 
As the NAS panel Chair states, ``There is no national assessment of 
[climate change] impacts on agriculture, water and health.'' ``And as 
of last year, there were 2 billion people living in urban areas. That's 
going to double 20 years from now, and how is that going to impact 
pollution and production of greenhouse gases?''
    Our bill addresses these weaknesses and gaps, making important 
changes to strengthen the mandate to provide assessments, enabling the 
GCRP' to perform critical climate observations and research on climate 
systems; improve our ability to predict climate impacts at national, 
regional and local levels; and, importantly, to communicate those 
impacts in a timely and useful fashion to state and local decision-
makers, resource managers, and other stakeholders.
    Thank you, Mr. Chairman. I look forward to the testimony of our 
panelists this morning.

    Thank you, Mr. Chairman.
    Senator Kerry. Thank you very much, Senator Snowe.
    Senator Vitter?

                STATEMENT OF HON. DAVID VITTER, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Vitter. Thank you, Mr. Chairman.
    Thank you, Doctor. First of all, I share everyone's 
frustration about the lateness of these climate assessments 
under the 1990 Act, but I did want to point out, do you know 
what the timing record of the previous Administration on that 
was?
    Dr. Marburger. Yes, it did take 10 years after the Act to 
produce the first assessment.
    Senator Vitter. Right. My notes say 10 years for the 
beginning assessment, an additional 3 years for the technical 
documents for a total of 13 years. I wanted to point that out, 
for the record.
    Doctor, a lot of folks, including me, are very surprised 
when we look at the annual investment our government makes in 
climate science, and one of the reasons is, we do not see a lot 
of very concrete or tangible returns on that investment.
    Besides our contributions to the IPCC, could you share some 
of the products of this very significant annual investment?
    Dr. Marburger. Well, there are several important points to 
be made on this.
    The first one is that, the measurements that we make of 
Earth parameters, rainfall and sea level, and temperatures, and 
so forth over time, are useful for a large number of things, of 
planning shorter-term weather prediction, for example, or 
cycles that are important for agricultural planning and land-
use planning. So, many of these products that are important for 
climate science are also important for other things, that fall 
within the missions, for example, of NOAA or the U.S. 
Geological Survey or NASA or the Department of Defense.
    The United States is acknowledged to be the world's leader 
in climate science, and the physical properties of the earth 
and modeling, and particularly in the satellite measurements--
the rest of the world depends on us, which is why we take so 
seriously the satellite program that Senator Snowe just 
mentioned.
    So, our science, U.S. science informs--not only the IPCC 
process--but also the missions of all of the agencies in the 
United States that have responsibility for our land and sea 
activities.
    Senator Vitter. I would just underscore the point in my 
opinion, I think both a substantive and a political problem 
with the program is a lack of things we can really get our arms 
around, in terms of more concrete results for this very 
substantial investment.
    One possible reaction to that is taking steps to 
regionalize and interpret the information, to make it more 
useful or relevant for State and local planners. What steps 
could be taken in that regard?
    Dr. Marburger. There's another activity that overlaps with 
the Climate Change Science Program, it's a system of earth 
observation, earth observation system that is a multi-agency 
program, just as the climate change program is. And that 
program attempts to address gaps in our current observing 
system, and produce products such as the ones you've just 
described that could be useful to other agencies and local 
planners, to address their land-planning needs, so----
    Senator Vitter. In conjunction to that, could there be a 
useful role for NOAA's Regional Climate Centers?
    Dr. Marburger. Absolutely, Climate Centers are an example 
of assets that should be coordinated and integrated into a 
system that can produce better planning documents.
    Senator Vitter. To my knowledge, and correct me, I may be 
wrong, but to my knowledge, there is not much of a role right 
now for those NOAA Regional Centers, and I would suggest a way 
to make this research more relevant and useful, regionally.
    In your testimony, you also cite the authority of the 
Integration Committee and OMB is to move science and technology 
monies among agencies. Either off the cuff, or maybe follow up 
in writing, it would be really useful for me to know how that 
authority has been used in the past, how many times, and to 
what effect?
    Dr. Marburger. I'll say something briefly now, but I can 
follow up in the Record.
    During the process of assembling the President's budget 
proposal to Congress each year, the Office of Management and 
Budget solicits input from the agencies and from the policy 
offices in the White House, and it's in connection with that 
process that the--any transfers for adjustments of the research 
programs related to climate change would take place.
    Senator Vitter. It would be useful for me to know how that 
has specifically been used in the past--how often monies are 
moved around, and for what effect, in the last few years.
    Finally, as Senator Snowe mentioned, there are an enormous 
number of climate change and energy-related bills floating 
around. One provision, included in the House-passed Energy 
bill, restructured the Climate Change Science Program. It is 
based off H.R. 906 that passed the House Science Committee.
    Is this a proposal you would support? Do you have specific 
reaction of this proposal?
    Dr. Marburger. There is--I believe there is an 
administrative statement of Administration's policy on this 
bill, but I've just saw it this morning, and I'm not totally 
familiar with it, so I would defer to--I would rather respond 
to that for the record.
    Senator Vitter. OK, thank you, Mr. Chairman.
    Senator Kerry. Dr. Marburger, if I could just come back to 
a couple of things here.
    At the beginning of the year, the National Academy of 
Science Decadal Study sounded grave concerns about the loss of 
climate sensors, we've discussed a couple of aspects of the 
satellite, but NOAA and NASA environmental satellites.
    Subsequent to that, the Administration's budget came out, 
it had significant reductions in the climate research budget. 
The GAO came out with its study in August, concluding that our 
federally managed resources are suffering from climate impacts, 
yet the Administration is providing no guidance for addressing 
such impact.
    A Federal District Court, as we've discussed earlier, 
decided the Administration was violating the Global Climate 
Change Research Act, due to its failure to issue the national 
assessment. The NRC released a preliminary review of the CCSP 
that found many weaknesses in the program, notably its focus on 
climate change impacts. And through all of this, NOAA, the 
agency that chairs CCSP, has not appointed a climate scientist 
to fill the vacancy left by the departure of Jim Mahoney.
    So, I mean, as we look at this mix of returns on this 
program, how do you counter the notion that this just ain't 
working right? This is not what we put in place, and this is 
not the way it ought to be?
    Dr. Marburger. I think it could work better, and----
    Senator Kerry. Well, who's responsible for that?
    Dr. Marburger. The responsibility lies with us. I would 
have to say that this is an Administration responsibility, it 
is important for us to get it right, and we're determined to do 
it.
    Senator Kerry. What's going to make it, sort of, get right, 
in a sense? I mean, first of all, you've got this issue of 21 
reports versus one report. I mean, the Court ruled that we 
envisioned one report--we envisioned one report, we've now 
introduced legislation to make it clear we envisioned one 
report, and most people have determined that that's the best 
way to help people be able to make decisions about this. Not to 
wade through 21 disparate reports, but to have a centralized 
reporting thing.
    Notwithstanding that, the Administration has announced that 
it's going to plan to do the 21 reports, that it comports with 
the law. So, it just don't seem to be getting from here to 
there.
    Dr. Marburger. Senator, the Court decision did acknowledge 
that the 21 reports could be appropriate, and insisted that 
they be submitted on time. The strategic plan that led to the 
creation of the 21 reports, or to the plan to create them was, 
in fact, vetted by the National Academies at that time when it 
was produced, and they commented favorably, as far as I can 
recall, on this proposal.
    Now, it turns out that each one of these 20, more than 20 
assessment reports has taken a lot longer than anyone expected 
to complete, and to clear through the agencies. It's a 
cumbersome process, and it really needs to be streamlined. So, 
our experience there has not been totally satisfactory and 
we're concerned about it.
    Senator Kerry. Well, it's hard to understand, I mean, look, 
I'm not trying to, I mean, if you want to have 21 reports come 
in, and you pick and struggle through them, and sort of do an 
Administration document about them, that's one thing. But to 
sort of have 21 different reports is not a national--``a'', the 
word ``a''--a national assessment, is what Congress asked for. 
That's not a national assessment. That's 21 agencies giving us 
a report.
    It seems to me that the GAO concurs completely, I mean, you 
sort of choose to ignore the GAO, and pick and select how you 
want to approach this. What's the virtue of the 21 reports and 
their disparate manner not being--and why would you not choose 
to give us a national assessment, as an Administration, 
speaking with one voice, in that assessment?
    Dr. Marburger. Senator, I believe that it would be 
appropriate to have a single assessment report. But to do it 
right, that report would have to be very long, and include much 
of the material that would occur in the 21 assessment reports--
--
    Senator Kerry. Well, that's why you get--put a report 
together.
    Dr. Marburger. One of the reasons that the first report, 
one that was prepared during the Clinton Administration took so 
long is that there was so much in it. And each one of the 
different components of the whole climate change picture had to 
be addressed and studied and written up and included in the 
final document.
    I believe that the management of the Climate Change Science 
Program at the time felt that it would be appropriate to 
focus--not agency by agency--but topic by topic on the key 
remaining areas of uncertainty that had been pointed out by the 
National Academies that needed to be addressed by the program, 
to focus on those, and really clean them up and provide the 
information that was needed to move ahead. And, I still think 
that's not a bad strategy, but it clearly--clearly doesn't 
satisfy the desire for Congress, and for the public to have a 
single document that summarizes these findings.
    Senator Kerry. Well, are we going to get a single document 
by May 31, 2008? That's what the judge directed you to do, to 
produce a research plan by March 1, and a scientific assessment 
by May 31.
    Dr. Marburger. We will obey the law.
    Senator Kerry. And it doesn't say multiple scientific 
assessments, it says a scientific assessment.
    Dr. Marburger. That--my understanding is that that will be 
produced by the program office.
    Senator Kerry. Well, that's good news.
    And, I might comment to Senator Vitter who's no longer 
here, I believe the Clinton Administration took too long to do 
it, no question about it, but the law was passed in 1990, under 
the other Bush Administration, and they didn't come in until 
1993, so you, you know, you have what you have to get 
organized, and it was released in 2000, that's not 13 years.
    Nevertheless, it was too long. We requested one every 4 
years, and I think we have a right to expect it.
    But, given that, why is the research budget being cut? 
Being, when the resource demands for climate science are 
increasing, and we have this issue of getting a report out 
every 4 years, and the struggle of it, et cetera, but that's to 
guide us, intelligently, not every 8 years, but every 4 years--
we've seen the budget steadily decline from a high of nearly $2 
billion in 2004, to $1.54 requested for 2008. So, when you 
factor in inflation, additional costs and everything else, 
that's just a big whack at a budget--while people have lauded 
here the notion we spend a lot, we do, it's not what we need to 
do. And this is a critical area.
    NOAA's budget request for climate research is a $23 million 
decrease from last year, and so forth. Why are we moving in the 
wrong direction?
    Dr. Marburger. I can't give a single answer for why the sum 
of all of the climate science programs in different agencies is 
going, has gone down. I do believe that these budgets are 
subject to large fluctuations because of the satellite 
programs, which are quite expensive, as one goes down, and 
another one comes up, the construction costs and the launch 
costs and so forth tend to make the budget rather erratic.
    But, as far as the details of this budget, which is not a 
single-agency budget, but rather a roll-up of expenditures in 
many different agencies, I can't give details at this point.
    Senator Kerry. Well, I don't want to belabor it now, we 
have another panel and we're getting late as it is. A couple of 
other colleagues, I think may have a couple more follow up 
questions, so we need to do those and move on.
    But, I think, Doctor, I mean, I don't envy your position at 
all. I've got to tell you. I'm sure that there's some 
frustration in you that you don't articulate, but there's got 
to be--it just seems like every time you turn around, Senator 
Snowe and I are Ranking and Chair of the Small Business 
Committee, and we keep hearing how we can't do this and can't 
do that, and doing more with less, and it's not more with less, 
it winds up, you know, this is just a very frustrating 
allocation of resources that we're seeing from department to 
department. And, you're put in the tough position of coming up 
here to defend it, without having made the decisions on those 
budgets, and I respect that.
    But, it's pretty hard from this side of the table to keep 
listening to it in Committee after Committee after Committee.
    Senator Boxer?
    Senator Boxer. Thank you, Senator.
    I just have some closing comments, I don't think I'll go 
too long. I never know, though, once I get started. But I'll 
try to keep them short.
    I've been living and breathing this, as so many of us here 
on this panel have for so long, as you have, sir.
    So, Doctor, you seem very strong in your certainty that 
global warming is real, and that you are very strong about 
agreeing with the scientists, the IPCC that say that human 
activity is responsible--not for 20 percent of it, but for most 
of it for the past 50 years, and I praise you for that. And I 
think that's news, I think that's a good thing. That this 
President's top adviser agrees with us, Mr. Chairman, that we 
have this serious problem.
    But, what I worry about is that you get weaker when it 
comes to action to combat global warming, and you seem to back 
away and pedal-back, and get very uncomfortable with it, and 
tell us that it's hard. We know it's hard.
    Look, do you know how long it took for Senators Kerry and 
Snowe to put together their legislation, how long it took for 
Senator Jeffords--who we all miss so much--to put together the 
Jeffords-Boxer bill, and then Sanders took it, and for Jeff 
Bingaman, and I know that colleagues, it's hard, but frankly, 
we don't want you caught up in that. We want you concentrating 
on telling us the truth, and standing up for the truth.
    And then you say, you go on in answer to Senator Snowe 
about China, ``Oh, they need choices.'' Well, let me tell you 
something. Humankind doesn't have a choice but to deal with 
this, and China's coming to realize it, the worst thing we can 
do is nothing. Because then, that's what they'll do. So, since 
when do we sit around saying, ``Oh, woe is me, China, India, 
China, India,'' since when do we wait for those countries to 
take the lead on environmental issues--it's never happened.
    Now look at my state, Republican governor, Democratic 
legislature. It's hard work, but they have got it right. They 
have got the gold standard, they have done it right. And, look 
at California, for 30 years, under Republican governors, 
Democratic governors--we kept our energy consumption per 
capita, even. Imagine, we never increased it, while the Nation 
doubled. If the whole Nation had just done what our state did, 
and there were visionary leaders in the state, in terms of 
energy efficiency, a lot of the low-hanging fruit, we would 
save the equivalent of all of the oil we import from the Middle 
East every year. We would save the equivalent of energy of all 
of the oil we import from the Middle East every year, if we had 
just stayed steady on a per capita basis.
    But we know this can be done. If we had stayed steady, and 
not increased our per capita use, we would save the equivalent 
of all of the oil we import from the Middle East every year.
    Now, California is a place where we live well there. We 
have not had to walk around in sack cloth and ashes, we have 
beautiful homes, we have beautiful cars, everything's great. 
But we have kept this in our sights.
    So, I think your tenant, your nervousness about the next 
step, I hope you get over that. Because I think when our kids 
and our grandkids and their kids look at us, you know what it's 
going to be, Mr. Chairman? You're a war hero, Senator Stevens--
I will say, every generation has its challenges, this is ours. 
It's a little different than the other challenges, which were 
in many ways tougher. Because they involved young men and women 
putting their lives on the line--this is a little different 
than that, but we will save lives.
    So, you are in the position, as are we, every one of us, 
and you, and the staff and the people in this room--to really 
do something about one of the greatest challenges.
    Now, we can hide behind a minority of scientists who say, 
``Pull the covers over your head, you can't do anything about 
it, it's happening anyway,'' or we can step up to the plate.
    What I want to urge you to do is, don't sit back and let 
Dana Perino hang this redacting thing on you, take her on. 
That's an outrage. You didn't redact those pages, I know you 
didn't. But it is an outrage that the President's legal counsel 
won't let us see them.
    The fact is, you should engage in this. I think you should.
    The last point I'd make, you talked about the 
Administration's calling the nations of the world together. 
Guess what, I wrote the letter and asked them to do it, on 
February 7, I said, ``Call the nations of the world together, 
in the White House,'' and they did it. That's the great news. 
The bad news is the President said, there's only two things off 
the table--cap-and-trade and mandatory cuts. That's ridiculous.
    I guess you're a Republican, I don't know. But the 
Republicans in my state, the big businesses, the Silicone 
Valley people are all telling us, business wants mandatory 
cuts, and they want a price on carbon. Because as we all know 
here who have worked on this, that's the signal in a free 
market economy that we're serious about these technologies.
    So, I want, in closing, which is the word you've been 
waiting for, to say--you can lead. You're in a position to lead 
on this, and if I say anything to you, it's that I respect your 
knowledge and your wisdom, I agree with you on how you feel 
about this issue. But don't be afraid, because when history is 
written the people who were afraid are just not going to be--
they're going to be part of the problem. I hope you'll help us.
    Thank you.
    Senator Kerry. Anybody else? Senator Stevens?
    Dr. Marburger, thank you very much. We appreciate it, and 
certainly want to follow up. I'm glad to hear you're going to 
have those reports in, we look forward to seeing them, and if 
you can work with us on this issue the 21, et cetera, we'd love 
to work with you on it, see how we can do it.
    Thank you.
    Can we invite the second panel up, and we thank you very 
much for their patience.
    We have Donald Boesch, Professor of Marine Science, 
University of Maryland; Braxton Davis, Chair of the Climate 
Change Working Group, Coastal States Organization; Peter 
Frumhoff, Director of Science and Policy, Chief Scientist, 
Climate Campaign, Union of Concerned Scientists; Lynne Carter, 
Adaptation Network; John Christy, Professor and Director of 
Earth Science Center; and Richard Moss, Vice President and 
Managing Director, Climate Change World Wildlife Federation.
    We have a lot of very bright and capable people about to 
testify, and we look forward to your testimony. I would like to 
ask you to each do a 5-minute summary or so. Your full 
statements, as you all know, you've all done this before, will 
be placed in the record, as if read in full, and we look 
forward to hearing from you.
    Dr. Boesch, do you want to begin?

STATEMENT OF DONALD F. BOESCH, Ph.D., PROFESSOR AND PRESIDENT, 
               UNIVERSITY OF MARYLAND CENTER FOR 
                     ENVIRONMENTAL SCIENCE

    Dr. Boesch. Yes, Senator Kerry and Members of the 
Committee, I'm Donald Boesch, I'm President of the University 
of Maryland Center for Environmental Science. I'm pleased to 
appear before you today to address this, ``Improving the 
Federal Climate Change Research and Information Program.''
    You asked that I address the Government Accountability 
report that you discussed earlier on Federal lands, also the 
National Academies assessments of this climate change science 
program, and my own experiences. I actually was a participant 
in the 2000 national assessment, chairing the coastal areas and 
marine resource sector group that prepared reports that led to 
that integrated assessment.
    I'll summarize my main points, and refer to these 
experiences.
    The first point I want to make is that the Global Change 
Research Program requires a significant increase in financial 
support, more effective budgetary and programmatic coordination 
and accountability among Federal agencies, and urgent action--I 
use that word ``urgent,'' I'm afraid--attention to critical 
observations of system requirements--satellites, in particular, 
and more focus on providing information to users. Senator 
Vitter earlier talked about what we get from the investment, I 
think this will be a theme of the point I want to make, is that 
we need to think about serving the American people, by 
providing information, providing states information on which 
they need to manage--Federal resource managers are only one of 
those important constituencies.
    The second point I want to make is that research on climate 
change and its intended impacts at regional and sub-regional 
scales in this country should be greatly expanded in order to 
provide information relevant for State and local managers and 
policymakers, and the general public.
    The NRC, for example, found that discovery science and 
understanding of the global climate system, as Dr. Marburger 
pointed out, appropriately leads the world, we can be very 
proud of that.
    However, progress in understanding and predicting climate 
change has improved more at global, continental and oceanic 
scales, then what we have here in our own nation, on regional 
and local scales where people actually live. And so, again, if 
we have this, we can provide information that people can 
understand--understand the consequences, and begin to act on 
how to deal with the effects.
    Expanded regional-scale science will require integrated 
modeling, appropriately scaled observations, scenarios of 
climate change and impacts, partnerships among the Federal 
Government and states and universities which have a lot of this 
local, regional knowledge and experience on the issues that 
which we're trying to manage, are the most effective means to 
accomplish this. If we had that, we wouldn't have to debate 
about whether the quotations from the IPCC were relevant to the 
United States, we'd have some very specific information to help 
us in this--help us understand the consequences to our own 
country.
    The third point is that more informative and effective 
products and services should be provided to decisionmakers to 
inform policies and actions for mitigation and adaptation of 
risks and opportunities.
    This need is discussed, of course, with Federal lands, 
Federal resources by the GAO. I am currently involved with the 
Maryland Commission for, on climate change that Governor 
O'Malley, our Governor, has established, and we're desperately 
in need of climate predictions, evaluations of the consequences 
to our citizens so that they, our Governor, and members of the 
General Assembly can make well-based decisions, regarding our 
commitment to reductions that we would need to make in our 
state, as well as adapting to the consequences--inevitable 
consequences--of climate change, even regardless of what we do 
to mitigate the results.
    From a regional perspective, we had a hearing 2 months ago, 
Senator Boxer had, on the Chesapeake Bay, on climate change, 
and we're trying to, you know, spend an enormous effort 
restoring the Bay, now we're finding ourselves addressing a 
moving target because of the climate change is already changing 
the Bay, as we manage forward.
    This is just an example of the kind of information that we 
need going forward.
    The fourth point I want to make is that regular, fully 
informed, fully integrated assessments of the consequences of 
climate change and variability should be conducted on regional 
scales, as was discussed, a single national assessment on 
national scales, but also, importantly on regional scales.
    The 2000 national assessment did include regional impacts 
assessments that involved local stakeholders, and importantly, 
there are a number of regions of the country that are actually 
undertaking this, and doing this. We have much more experience, 
much more powerful tools then we had in 2000 for integrated 
assessments, and I'll point to the recent reports of the non-
governmental Northeast climate impacts assessment, led by my 
fellow panelist, Dr. Frumhoff here, as an excellent model of 
the scientifically sound, approachable, useful, regional 
integrated assessments that I think are needed.
    I should also point out that we talked--you had a 
discussion about the timing, the time it takes to these 
impacts, these assessments. They are very challenging, 
complicated activities. But it's noticeable that the IPCC has 
been able to complete its reports on a timelier basis than the 
Climate Change Science Program in this country, even though 
they were dealing with global collaboration, very large numbers 
of volunteer scientists, peer-review, extensive negotiation and 
the like.
    And the last point I want to make is to support your 
efforts, Senator Kerry and Senator Snowe, on the Global Change 
Research Improvement Act, which addresses my four points fairly 
directly and establishes a National Climate Service that would 
bring focus, financial and material and intellectual resources 
to bear on this issue of unparalleled national and global 
significance.
    Thank you.
    [The prepared statement of Dr. Boesch follows:]

Prepared Statement of Donald F. Boesch, Ph.D., Professor and President, 
        University of Maryland Center for Environmental Science
    Chairman Inouye and Members of the Committee, I am Donald F. Boesch 
and am pleased to appear before you today to address improving the 
Federal climate change research and information program.
    By way of background, I am a marine environmental scientist who has 
conducted research along our Atlantic and Gulf coasts and in Australia 
and the East China Sea. Although not a climate scientist, I have been 
engaged in several assessments of the environmental consequences of 
climate change. Notably, I served as co-chair of the Coastal Areas and 
Marine Resources Sector Team for the U.S. National Assessment of 
Climate Variability and Change \1\ and I participated in workshops and 
consultations that contributed to the Government Accountability 
Office's (GAO) report on addressing the effects of climate change on 
Federal land and water resources. As a member of the Ocean Studies 
Board of the National Research Council, I am engaged in various 
evaluations of the consequences of climate change for oceans and 
coastal zones and, currently, I am serving as chair of the Scientific 
and Technical Working Group of the Maryland Commission on Climate 
Change that is responsible for preparing a Comprehensive Climate Change 
Impact Assessment for Maryland. From these multiple perspectives, I 
offer the following observations on improving the Federal climate 
change research and information program.
---------------------------------------------------------------------------
    \1\ Boesch, D.F., J.C. Field, and D. Scavia. 2000. The Potential 
Consequences of Climate Variability and Change on Coastal Areas and 
Marine Resources. NOAA Coastal Ocean Program Decision Analysis Series 
Number #21, National Oceanic and Atmospheric Administration, Silver 
Spring, MD.
---------------------------------------------------------------------------
Integrated Assessment of Climate Change Effects
    The National Assessment of the Potential Impacts of Climate Change 
in which I participated was conducted pursuant to the requirements of 
the Global Change Research Act of 1990 and produced Overview and 
Foundation reports \2\ published in 2000 and 2001, respectively. In 
addition to these integrated assessments of diverse consequences over 
the entire nation, the National Assessment produced separate in-depth 
reports for five sectors (agriculture, water, health, forests and 
coastal areas and marine resources) and nine regions of the Nation. The 
process that produced these reports involved hundreds of scientists and 
stakeholders inside and outside of the Federal Government, was unwieldy 
at times, and was definitely under-resourced. However, it focused on 
developing an integrated assessment, not of the state of science, but 
of what could be reasonably concluded about the potential consequences 
of climate change on the United States from available knowledge and 
understanding.
---------------------------------------------------------------------------
    \2\ National Assessment Synthesis Team. 2000. Climate Change 
Impacts on the United States The Potential Consequences of Climate 
Variability and Change. http://www.usgcrp.gov/usgcrp/nacc/default.htm.
---------------------------------------------------------------------------
    It is distressing to me as a pro bono contributor to see how the 
2000 National Assessment, an ``inconvenient assessment'' as it has been 
called,\3\ has been suppressed and marginalized when it should have 
been built and improved upon. As the Committee is aware, a Federal 
District Court recently issued a finding that the Administration has 
failed to produce another National Assessment as called for by the 
statute. Rather, the Climate Change Science Program has undertaken to 
produce 21 Synthesis and Assessment Products (SAPs), the majority of 
which are oriented to knowledge related to the past and present 
climate, quantification of forces bringing about changes, and reducing 
uncertainty in projections of how climate may change. Seven of the SAPs 
address the sensitivity and adaptability of ecosystems and human 
systems to climate change and three explore the uses of evolving 
knowledge to manage risks and opportunities. Although, as originally 
scheduled, the synthesis and assessment process was to have been 
completed by now, presently only three of the 21 SAPs are fully 
completed.\4\ Of the 10 SAPs that address sensitivity, adaptability and 
managing risks and opportunities five have progressed to the point of 
public review drafts.
---------------------------------------------------------------------------
    \3\ Mooney, C. 2007. An inconvenient assessment. Bulletin of the 
Atomic Scientists 63(6):40-47.
    \4\ Status of Synthesis and Assessment Products as of November 12, 
2007, as indicated at http://www.climatescience.gov/Library/sap/sap-
summary.php.
---------------------------------------------------------------------------
    Significantly, there does not appear to be a strategy of producing 
integrated assessments, either across systems (natural, managed or 
human) or within regions. Yet such integrated, regional assessments are 
critical to communicating to citizens and decisionmakers at the state 
and local levels the impacts of climate change where they live and over 
timeframes they can understand, and what they will be required to do to 
deal with those impacts. As an excellent example of such an integrated 
regional assessment I point to the recent reports of the Northeast 
Climate Impacts Assessment (NECIA),\5\ a nongovernmental collaboration 
between the Union of Concerned Scientists and a team of independent 
scientific experts, chaired by Dr. Peter Frumhoff. The NCEIA developed 
and effectively communicated an assessment of climate change and 
associated impacts on key climate-sensitive sectors in the northeastern 
United States in a way that provides thought leaders, policymakers, and 
the public a basis for informed choices about climate change mitigation 
and adaptation.
---------------------------------------------------------------------------
    \5\ Northeast Climate Impacts Assessment. 2006. Climate Change in 
the U.S. Northeast. Union of Concerned Scientists, Cambridge, MA. 
http://www.northeastclimateimpacts.org/
    Frumhoff, P.C., J.J. McCarthy, J.M. Melillo, S.C. Moser, and D.J. 
Wuebbles. 2007. Confronting Climate Change in the U.S. Northeast: 
Science, Impacts, and Solutions. Union of Concerned Scientists, 
Cambridge, MA. http://www.northeastclimateimpacts.org/
---------------------------------------------------------------------------
    The process of developing the CCSP's 21 separate SAPs is much more 
formally structured than that of the 2000 National Assessment. While 
peer review, including the National Academies, and the opportunity for 
public comment are laudable, it seems that this elaborate design has 
slowed down the process. Colleagues within my Center who have 
contributed to the SAPs have found the process constraining and 
inefficient. It is notable that the Intergovernmental Panel on Climate 
Change has been able to complete its reports on a timelier basis, even 
though that involved global collaboration, a much larger number of 
volunteer scientists, peer review, and extensive negotiation. And, the 
IPCC delved deeper into adaptation and vulnerability (Working Group 2) 
than the CCSP and addressed mitigation, a topic not covered by the 
CCSP.
Federal Lands and Water Resources
    In response to a request by Senators Kerry and McCain, the GAO 
released its report \6\ in August 2007. It found that Federal land and 
water resources are vulnerable to a wide range of effects from climate 
change and some of these climate-related effects have already been 
observed. In spite of the observed and projected impacts of climate 
change on land and water resources, undertaking activities that address 
the effects of climate change is not currently a priority within 
resource management agencies and is not specifically addressed in 
planning agencies. Furthermore, resource managers have limited guidance 
from their agencies about whether or how to address climate change in 
management activities and planning efforts. Moreover, these managers do 
not have sufficient site-specific information to plan for and manage 
the effects of climate changes on Federal resources that they oversee.
---------------------------------------------------------------------------
    \6\ Government Accountability Office. 2007. Climate Change: 
Agencies Should Develop Guidance for Addressing the Effects on Federal 
Land and Water Resources. GAO-07-863. GAO, Washington, D.C.
---------------------------------------------------------------------------
    My own impression and that of some my scientific colleagues who 
participated in GAO-convened workshops was that the resource managers 
with whom we interacted had serious concerns about their ability to 
meet their responsibilities in a world where climate is obviously 
already changing and were frustrated by the lack of substantive support 
from their headquarters. The GAO report underscores the deficiency in 
the CCSP synthesis and assessment approach, because such site or even 
region-specific information is not forthcoming in the SAPs, which also 
stop short of offering specific guidance or even general direction for 
managing resources through anticipated climate changes.
NRC's Preliminary Assessment of Climate Change Science Program
    The National Research Council (NRC) of the National Academies is 
assisting the CCSP in evaluating progress toward its program goals and 
in a report released in September presented a preliminary assessment of 
progress. \7\ The NRC is also providing detailed reviews of some of the 
SAPs. Six main findings were presented in this preliminary assessment 
as indicated in the following box. The NRC found that discovery science 
and understanding of the science of the global climate system are 
proceeding well, keeping the United States appropriately at the 
forefront of this fast moving field. However, future progress is 
threatened as many existing and planned observing systems have been 
canceled, delayed, or degraded.
---------------------------------------------------------------------------
    \7\ National Research Council. 2007. Evaluating Progress of the 
U.S. Climate Change Science Program: Methods and Preliminary Results. 
National Academies Press, Washington, D.C.

------------------------------------------------------------------------

------------------------------------------------------------------------
 National Research Council's Preliminary Assessment of Progress  in the
                     Climate Change Science Program
------------------------------------------------------------------------

1.                               The separation of leadership and budget
                                  authority presents a serious obstacle
                                  to progress in the CCSP.
2.                               Discovery science and understanding of
                                  the climate system are proceeding
                                  well, but use of that knowledge to
                                  support decisionmaking and to manage
                                  risks and opportunities of climate
                                  change is proceeding slowly.
3.                               Progress in understanding and
                                  predicting climate change has improved
                                  more at global, continental, and ocean
                                  basin scales than at regional and
                                  local scales.
4.                               Our understanding of the impact of
                                  climate change on human well-being and
                                  vulnerabilities is much less developed
                                  than our understanding of the natural
                                  climate system.
5.                               Science quality observation systems
                                  have fueled advances in climate
                                  science and applications, but many
                                  existing and planned observations have
                                  been canceled, delayed, or degraded,
                                  which threatens future progress.
6.                               Progress in communicating CCSP results
                                  and engaging stakeholders is
                                  inadequate.
------------------------------------------------------------------------

    If these observing systems are not maintained and upgraded, not 
only will the U.S. lose its position as a world leader in climate 
science, but information critical to responding to climate change at 
regional and local scales will be lacking as climate change impacts 
worsen. Another recent NRC study \8\ documented a reduction in the 
purchasing power of NASA's Earth Science Program, which constitutes 
half or more of the total budget of the Global Change Research Program 
(GCRP), by about 30 percent over the past 7 years and prioritized the 
national imperatives that should be addressed. The GCRP budget is now 
about $1.7 billion, down from $2 billion in 1992. When inflation is 
taken into account, U.S. investments in science to address what is 
arguably the grand challenge of our time, have actually declined some 
42 percent over the past 15 years!
---------------------------------------------------------------------------
    \8\ National Research Council. 2007. Earth Science and Applications 
from Space: National Imperatives for the Next Decade and Beyond. 
National Academies Press, Washington, D.C.
---------------------------------------------------------------------------
    In contrast to progress on understanding the global climate system, 
the NRC report concluded that progress in understanding and predicting 
climate change and attendant impacts at regional and local scales has 
lagged, thus limiting the information most relevant for state and local 
resource managers and policymakers, as well as for the general public. 
Improving this understanding would require expanded and improved 
integrated modeling, regional-scale observations, and the development 
of scenarios of climate change and impacts, in addition to socio-
economic evaluations, in order to achieve improvements in adaptation 
responses.
    Consistent with my earlier remarks on integrated assessment and 
with the GAO findings, the NRC found that progress in synthesizing 
research results or supporting decisionmaking and risk management and 
in communicating CCSP results and engaging stakeholders has been 
inadequate. While there have been some successes interacting with 
scientists, Federal agencies and water resource managers, ``efforts to 
identify and engage in a two-way dialogue with state and local 
officials, nongovernmental organizations, and the climate change 
technology community have been limited and ad hoc.'' Consequently, the 
program is not gaining the input required and missing opportunities to 
inform decisionmakers.
State Needs as Exemplified by Maryland
    In the absence of Federal policy for mitigation of and adaptation 
to climate change many states are charting their own course, most 
famously California, but also my own state of Maryland. More than 24 
states have either adopted or are in the process of developing goals to 
reduce greenhouse gas emissions. Governor Martin O'Malley established 
the Maryland Commission on Climate Change \9\ in April and charged it 
with developing a Plan of Action to address the drivers and causes of 
climate change, to prepare for its likely consequences and impacts to 
Maryland, and to establish firm benchmarks and timetables for 
implementing the Plan of Action. Due to be completed in April 2008, the 
Plan of Action will include a comprehensive climate change impact 
assessment, a comprehensive greenhouse gas and carbon footprint 
reduction strategy, and a comprehensive strategy for reducing 
Maryland's climate change vulnerability. Because our state has 
extensive low-lying lands and wetlands on the Eastern Shore and around 
the Chesapeake Bay, particular emphasis is being given to assessing and 
reducing vulnerability to sea-level rise and coastal storms.
---------------------------------------------------------------------------
    \9\ Information on the Maryland Commission on Climate Change is 
available at http://www.mdclimatechange.us/
---------------------------------------------------------------------------
    I lead the working group responsible for the climate change impact 
assessment, which must be based on reliable and current scientific 
information in order to inform the Governor, the General Assembly, and 
the citizens of Maryland about the likely consequences of climate 
change on our environments, natural resources and people. As was done 
in the Northeastern Climate Impacts Assessment, we are conducting this 
assessment based on both business-as-usual and mitigated emission 
scenarios. This will allow our decision-makers and citizens to 
understand the consequences of climate change that would be experienced 
regardless of what actions are taken to control greenhouse gas 
concentrations in the atmosphere and the potential benefits of global 
action to stabilize those concentrations. Our assessment is a very 
challenging one because regional scale climate projections are not 
readily available and the relationship of climate to ecosystem 
processes and societal requirements are not always clear. We would be a 
ready user for information of this sort if it was provided by the CCSP.
    The complexity of the understanding of the effects of global 
warming that is required is exemplified by the nearby Chesapeake Bay, 
the topic of a recent hearing by the Senate Committee on the 
Environment and Public Works at which I was a witness.\10\ In response 
to a follow-up question from Senator Cardin, I offered the following 
list of key questions that should guide a science program for 
Chesapeake Bay climate change. These questions could be addressed 
through a regional center representing a Federal-State-university 
partnership, much like the Climate Impacts Group,\11\ based at the 
University of Washington, which engages in climate science in the 
public interest, working to understand the consequences of climate 
variability and climate change for the Pacific Northwest. The Climate 
Impacts Group is one of six Regional Integrated Sciences and 
Assessments (RISA) programs, which support research that addresses 
complex climate sensitive issues of concern to decision-makers and 
policy planners at a regional level. The RISA programs receive some of 
their funding from NOAA's Climate Program Office and involve university 
scientists and information users at regional, state and local levels. 
RISA is a useful model to consider for expanding regional climate 
change research and assessment to meet the deficiencies in CCSP 
identified by the NRC.
---------------------------------------------------------------------------
    \10\ D.F. Boesch testimony at hearing of U.S. Senate Committee on 
the Environment and Public Works on ``An Examination of the Impacts of 
Global Warming on the Chesapeake Bay,'' September 26, 2007 http://
epw.senate.gov/public/index.cfm?FuseAction=Hearings.Testimony&Hear
ing_ID=23a539ea-802a-23ad-45fd-606dcd273a3a&Witness_ID=72fbe039-bd13-
439e-9348-9951f
808a982.
    \11\ Climate Impacts Group at the University of Washington; http://
cses.washington.edu/cig.

------------------------------------------------------------------------

------------------------------------------------------------------------
     Key Questions for Understanding Climate Change Impacts  on the
                             Chesapeake Bay
------------------------------------------------------------------------

1.                               How will likely changes in
                                  precipitation and evapotranspiration
                                  interact with projected land use
                                  changes to affect the flow of fresh
                                  water, nutrients and sediments into
                                  the Chesapeake estuary?
2.                               How will likely sea-level rise and the
                                  resulting deepening of the Bay affect
                                  circulation, the distribution of
                                  salinity, groundwater intrusion,
                                  stratification, hypoxia, and
                                  sedimentation?
3.                               How will tidal wetlands and shorelines
                                  respond to likely acceleration in sea-
                                  level rise and what are the most
                                  effective measures that can be taken
                                  to avoid or minimize negative impacts
                                  to natural environments and human
                                  infrastructure?
4.                               How will likely increases in
                                  temperature and its seasonal timing
                                  affect ecologically and economically
                                  organisms, potential invasive species
                                  and key biogeochemical processes in
                                  the Bay?
5.                               To what degree will increased CO2
                                  concentrations in the atmosphere
                                  result in acidification of Bay waters
                                  and what will be the ecological
                                  consequences of such changes?
------------------------------------------------------------------------

Global Change Research Improvement Act
    Senators Kerry and Snowe have introduced S. 2307, the Global Change 
Research Improvement Act of 2007, which in my opinion, addresses many 
of the shortcomings of the Climate Change Science Program identified by 
the NRC. If these needs were filled this would go a long way to 
providing pertinent information for Federal resource managers, regional 
and state decision-makers such as those in Maryland and the Chesapeake 
Bay region, and informing citizens about the risks and opportunities 
presented by climate change.
    In particular, S. 2307 makes it clear and explicit that the purpose 
of the Global Change Research Program (GCRP) encompasses not only 
observation and research, but also assessment and outreach to better 
understand, assess, predict, mitigate and adapt to the effects of 
global change. It requires Strategic and Implementation Plans that 
provide information relevant and readily usable by local, state, and 
Federal decisionmakers and includes research and assessments to 
identify and describe regional consequences. The bill elevates the 
responsibility and accountability for the GCRP, including budgeting of 
investments across agencies and authorizes research grants to 
universities and other nongovernmental organizations. It explicitly 
requires ``a single, integrated, comprehensive assessment'' not less 
frequently than every 4 years, which given the urgency and magnitude of 
the decisions and actions that lie ahead seems most appropriate. The 
bill provides specific authorization for studies of the status of ice 
sheet melt and movement and hurricane frequency and intensity, both 
topics of great significance and uncertainty.
    To ensure its overall effectiveness in integrated assessment 
activities, further reorganization of the GCRP would be useful. In 
particular, greater budgetary control of assessment activities under 
the central office rather than in the individual participating agencies 
would increase the likelihood that the assessment agenda can progress 
as intended. Also, a regional component of GCRP structure would improve 
stakeholder input and enhance communication with users of assessment 
information. The latter could take advantage of an expansion of NOAA's 
RISA network or similar Federal-state-university partnerships.
    S. 2307 also authorizes a National Climate Service within the 
National Oceanic and Atmospheric Administration to include a national 
center and a network of regional and local facilities. While there are 
already programs and assets that address climate science and 
applications within NOAA, I support the creation of the NCS to bring 
focus and additional financial, material and intellectual resources to 
this area of unparalleled national and global significance. As the bill 
indicates there is an urgent need to improve observations and 
``integrated modeling, assessment and predictive capabilities needed to 
document and predict climate changes and impacts and to guide national, 
regional, and local planning and decisionmaking.'' For the NCS to 
achieve these objectives it will be necessary to reallocate and closely 
integrate and coordinate activities within the other NOAA line offices 
(NWS, NOS, OAR, NMFS, NESDIS) and with key programs in other agencies 
(NASA, NSF, EPA, DOI, USDA and others). In addition, it will be 
important that the contract and grant authority is used to develop 
effective partnerships with universities, states and other entities to 
implement effectively regional applications in the context of the 
environmental and social challenges that are being and will be 
addressed.
Summary
    Based on the findings of the GAO and NRC reports and my own 
experiences with the 2000 National Assessment and Maryland Commission 
on Climate Change I offer the following summary suggestions for 
improving the Federal climate change research and information program:

        1. The Global Change Research Program requires significantly 
        increased financial support, more effective budgetary and 
        programmatic coordination and accountability among Federal 
        agencies, urgent attention to critical observations system 
        requirements, and more focus on providing information to users.

        2. Research on climate change and its attendant impacts at 
        regional and subregional scales should be greatly expanded in 
        order to provide information relevant for state and local 
        managers and policymakers and the general public. This requires 
        integrated modeling, regional-scale observations, and scenarios 
        of climate change and impacts. Partnerships among the Federal 
        Government, states and universities are the most effective 
        means to accomplish this.

        3. More informative and effective products and services should 
        be provided to decisionmakers to inform policies and actions 
        for mitigation and adaptation to the risks and opportunities.

        4. Regular, fully integrated assessments of the consequences of 
        climate change and variability should be conducted at national 
        and regional scales. This is especially important now as our 
        society struggles to become better aware of the likely 
        consequences of climate change as it makes critical decisions 
        during what increasingly appears to be a narrow response window 
        for mitigation options.

        5. The Global Change Research Improvement Act (S. 2307) 
        addresses the above four requirements and establishes a 
        National Climate Service that would bring focus and financial, 
        material and intellectual resources to bear on this issue of 
        unparalleled national and global significance.

    Senator Kerry. Thank you very much, Doctor, I appreciate 
it.
    Dr. Davis?

  STATEMENT OF BRAXTON C. DAVIS, Ph.D., CHAIR, CLIMATE CHANGE 
 COMMITTEE, COASTAL STATES ORGANIZATION AND DIRECTOR, SCIENCE 
   AND POLICY DIVISION, OFFICE OF OCEAN AND COASTAL RESOURCE 
      MANAGEMENT, SOUTH CAROLINA DEPARTMENT OF HEALTH AND 
   ENVIRONMENTAL CONTROLCHAIR, CLIMATE CHANGE WORKING GROUP, 
                  COASTAL STATES ORGANIZATION

    Dr. Davis. Mr. Chairman, Members of the Committee, I 
appreciate the opportunity to offer testimony on the importance 
of climate change research to State and local resource 
managers. I serve as Director of the Science and Policy 
Division of South Carolina's, Coastal Zone Management Program, 
and over the past year, I've served as the Chair of the Climate 
Change Committee for the Coastal States Organization here in 
Washington.
    Since 1970, CSO has represented the interests of the 
Governor's from the coastal states, commonwealths and 
territories on Federal, legislative, administrative and policy 
issues.
    Your continuing support of climate change research and 
monitoring activities through the Global Change Research Act is 
of critical and growing importance to coastal States and 
communities. My testimony will focus primarily on the issues 
surrounding the impacts of climate change in the coastal zone. 
According to the IPCC, the impacts of climate change are 
projected to be most significant in the coastal areas in the 
United States, where communities and natural resource-based 
economies are especially vulnerable to accelerated sea level 
rise, shoreline erosion, increased storm frequency or 
intensity, and salt water intrusion into coastal rivers and 
aquifers, among other impacts.
    So there are three primary points that I'd like to make 
today. First, there's a need to focus research on the local 
scale effects of climate change. Our general understanding of 
the impacts of climate change continues to improve through 
research supported under the Global Change Research Program, 
however, this research must be useful at scales appropriate for 
action by state and local resource managers.
    Each city and town needs to understand the potential 
impacts of climate change, the associated risks, and the costs 
and benefits of various management options, and the cost--the 
potential cost--of inaction.
    To support the needs of state and local decisionmakers, the 
Coastal States Organization recently identified priority 
information and research needs to address future impacts of 
climate change in the coastal zone, and those included the 
systematic collection of high-resolution, coastal elevation 
data, improved models of shoreline change under varying sea 
level rise projections, and a better understanding of the 
related socio-economic and environmental vulnerabilities, among 
other needs. I've included more specific information on those 
needs in my written testimony.
    I'd like to emphasize that all of this information must be 
tailored to the specific environmental and socio-economic 
settings of individual communities. Federally-conducted or 
supported research examining climate change impacts at the 
local scale should be carried out in close cooperation with 
Sate and local partners to ensure that their information needs 
are met, that local conditions and data are appropriately 
considered, and to avoid duplication of efforts.
    Second, there's an immediate need for adaptation planning 
and implementation activities. While ongoing Federal research 
is critical for future decisionmaking, State and local 
governments have immediate responsibilities for managing many 
of the resources likely to be impacted by climate change. State 
and local communities need to act now, and cannot wait for 
perfect information.
    Many of the projected impacts will require adaptation 
solutions that cross Federal, state and local programs and 
jurisdictions. Because a wide variety of Federal activities 
influence coastal developments and responses to climate change, 
there's a need for a clear Federal strategy for 
intergovernmental coordination on coastal adaptation. The 
strategy should define the roles of the various Federal 
programs and the specific mechanisms by which those programs 
will coordinate with state and local partners.
    We need a true partnership between Federal, state and local 
governments, if we're to successfully plan and implement sound 
adaptation strategies.
    And third, we'd urge Congress to address the needs that 
I've discussed through existing mechanisms for interagency 
cooperation and information exchange. Several programs exist 
where partnerships between Federal, state and local governments 
are already in place.
    For example, the Coastal Zone Management Act should be 
recognized by Congress and the Administration as one of the 
primary statutes that can foster adaptation to climate change 
at the state and local levels.
    State coastal programs are interested in amending the CZMA 
to strengthen their climate change authorities and to support 
states and territories in developing specific coastal climate 
change strategies.
    So, in closing, state and local resource managers are 
striving to leverage existing funds, programs and research to 
address projected climate change impacts, but have considerable 
and ongoing responsibilities beyond the issues that I've 
described. Through close collaboration with State and local 
partners, the science and technical support provided by the 
Global Change Research Program will inform critical decisions 
at the local level, in light of the uncertainty and 
considerable risks associated with climate change. If we 
conduct all of this research, but fail to get it into the hands 
of the decisionmakers at the appropriate scales, then we may 
become very knowledgeable, but ill-prepared to meet the 
challenges facing us in the coming decades.
    Thank you again for the opportunity to help inform the 
Committee on the importance of climate change research to State 
and local resource managers.
    And I'd be happy to answer any questions you may have.
    [The prepared statement of Dr. Davis follows:]

   Prepared Statement of Dr. Braxton C. Davis, Chair, Climate Change 
Committee, Coastal States Organization and Director, Science and Policy 
   Division, Office of Ocean and Coastal Resource Management, South 
        Carolina Department of Health and Environmental Control
    Mr. Chairman and Members of the Committee: I appreciate the 
opportunity to offer testimony on the importance of climate change 
research to state and local resource managers. I serve as Director of 
the Science and Policy Division of South Carolina's Coastal Zone 
Management Program. Over the past year, I have also served as chair of 
a Climate Change committee for the Coastal States Organization (CSO). 
Since 1970, CSO has represented the interests of the Governors from the 
thirty-five coastal states, commonwealths and territories on Federal 
legislative, administrative, and policy issues relating to sound 
coastal, Great Lakes, and ocean management.
    Your continuing support of climate change research and monitoring 
activities through the Global Change Research Act is of critical and 
growing importance to coastal states and communities. My testimony will 
primarily focus on issues related to the impacts of climate change in 
the coastal zone. According to the Intergovernmental Panel on Climate 
Change (IPCC), socioeconomic and environmental impacts of climate 
change are projected to be most significant in coastal areas of the 
United States. The U.S. population is concentrated in coastal areas, 
where communities and natural resource-based economies are especially 
vulnerable to accelerated sea level rise and lake level changes, 
shoreline erosion, increased storm frequency or intensity, changes in 
rainfall, and related flooding. Other impacts may include changes in 
chemical (ocean acidification) and physical characteristics of marine 
systems, saltwater intrusion into groundwater aquifers and coastal 
rivers, increased harmful algal blooms, spread of invasive species, 
habitat loss (wetlands and coral reefs), species migrations, and 
changes in population dynamics among marine and coastal species. These 
impacts will vary regionally, but scientists contend that many are 
likely to be experienced in the coming decades--even if greenhouse gas 
emissions are reduced significantly.
Focus on Local-Scale Effects of Climate Change
    Our general understanding of climate change and related impacts 
continues to improve through research supported under the U.S. Global 
Change Research Program (US GCRP). However, this research must be 
useful at scales appropriate for actions by state and local planners 
and decision-makers. In many cases, regional information will be 
inadequate for individual communities. Each city and town needs to 
understand the potential impacts of climate change, the associated 
risks, and the costs and benefits of various management options, as 
well as the potential costs of inaction. To support the needs of local 
decision-makers, the Coastal States Organization identified priority 
information and research needs to address future impacts of climate 
change in the coastal zone. We ask for Federal support of state and 
local-level research and planning efforts in the following areas:
Coastal Topography and Bathymetry Data
    High-resolution coastal elevation data are essential for states to 
begin assessing the lands and resources most vulnerable to accelerated 
sea level rise. Today, coastal topography is often limited to coarse 
10-20 foot contour intervals, and therefore does not have sufficient 
detail for impact studies, modeling, or policy and regulatory use. 
Improved nearshore bathymetry data are also needed to improve our 
understanding of shoreline changes, since shoreline positions do not 
accurately convey changes to sand volumes and the steepness of 
shoreline slopes. In some cases, these data are available for 
beachfront areas, but do not capture the full extent of estuarine or 
``sheltered'' coastlines. In other cases, funding to support high-
resolution coastal mapping has recently been obtained from the Federal 
Emergency Management Agency (FEMA), U.S. Army Corps of Engineers 
(USACE), National Oceanic and Atmospheric Administration (NOAA), or 
through state and local interagency partnerships. However, there is a 
strong need for more predictable and consistent availability of high-
resolution coastal topography and bathymetry data through systematic 
mapping of all coastal areas of the United States.
Improved Models of Shoreline Changes under Varying Sea Level Rise 
        Scenarios
    Where high-resolution coastal elevation data are available, state 
and local studies are beginning to use basic inundation models to 
consider the potential impacts of accelerated sea level rise. These 
models can identify the lands most vulnerable to sea level rise, and 
similar maps have been produced by Federal agencies on a regional 
(multi-state) scale, including the Environmental Protection Agency 
(EPA) and the U.S. Geological Survey (USGS). However, sea level rise, 
erosion, circulation patterns, wave climates, sediment budgets, and 
other shoreline features are interrelated. Coastal states and 
communities will need more detailed and complex models that incorporate 
local changes in coastal geomorphology, hydrological conditions, and 
human alterations and responses (seawalls, sand replenishment, etc.) in 
order to more adequately assess social, environmental, and economic 
vulnerabilities. Coastal states and communities would benefit from the 
development of uniform methods for modeling local-scale shoreline 
changes associated with varying sea level rise projections.
Impacts of Accelerated Sea Level Rise on Social and Economic Resources
    Building on improved models of sea level rise at the local-scale, 
Federal support is needed in assessing related social and economic 
vulnerabilities. Insufficient attention has been given to this 
important area of research. To make fully informed decisions, states 
and local communities need to be able to determine risks and the costs 
associated with mitigating those risks. The potential for significant 
losses of economic and cultural resources, such as public 
infrastructure (wastewater treatment systems, roads, ports, public 
facilities, river flood protection levees and bridge clearances for 
shipping interests), historic and cultural sites, shoreline property 
values, and coastal tourism activities, among other losses, are 
difficult to quantify, but need to be anticipated and planned for in 
light of sea level rise projections. Federal programs should seek to 
provide best practices, case studies, trainings/workshops, and 
accessible, intuitive software tools to support community-level and 
statewide vulnerability assessments and planning activities.
Impacts of Accelerated Sea Level Rise on Coastal Habitats
    Several coastal states have begun focusing on the impacts of 
accelerated sea level rise on coastal wetlands, as well as potential 
conservation, mitigation, and restoration strategies. However, further 
research is needed to better understand natural erosion and deposition 
cycles in tidal marshes, and to improve our ability to predict the 
effects of accelerated rates of sea level rise. Natural sediment 
sources, the movement of sediment within the system, and the locations 
and rates of sediment deposition need to be quantified for discreet 
shoreline reaches in order for predictive capabilities to be developed. 
Similarly, beaches respond to the background sea level rise rate 
through the accumulation of sand on the berm and dune from wave and 
wind forces. The ability of sand supplies in coastal systems to keep 
pace with an accelerated rate of sea level rise is not well understood. 
There continues to be a need for improved models that predict the 
migration and/or vertical accretion of coastal wetlands and beaches in 
response to accelerated sea level rise, information on the costs of 
response options, and the consequences of taking no action. There is 
also a need for research on the anticipated role of sea level rise in 
beach nourishment frequency and volumetric requirements; as well as the 
potential use of artificial sediment supplies to ``nourish'' coastal 
wetlands.
    Other habitats at risk include submerged aquatic vegetation, coral 
reefs, oyster reefs, and fringing maritime forests. Thermal and 
chemical changes in coastal waters may affect marine species survival 
and distributions. Further research is needed to understand the 
potential for latitudinal habitat changes as northern climates begin to 
resemble today's southern climates.
Research Concerning Other Climate Change Impacts
    As I mentioned earlier, coastal zones are subject to a wide variety 
of climate change impacts beyond the threat of sea level rise--many of 
which are not well understood. Coastal states need further information, 
research, and guidance on issues like invasive species introductions, 
ocean acidification, ecosystem migration, freshwater resources, and 
improved storm surge models. We anticipate that coastal and ocean 
observing systems within the U.S. Integrated Ocean Observing System 
(IOOS) will generate useful information products related to real-time 
and projected climate, storm surge, and physical, chemical, and 
biological changes in ocean and coastal systems. Guidance is also 
needed for modeling local-scale effects of storm events coupled with 
rainfall, river flooding, and sea level rise projections.
    I would like to emphasize that all of this information must either 
be tailored to individual community needs or easily transferable. No 
single model can fit all of the diverse local environmental and 
socioeconomic settings around the country.
Avoid Duplication of Efforts
    Some coastal states have already begun to support local-scale 
research on the potential effects of accelerated sea level rise on 
communities and resources, including models and maps of shoreline 
changes, community vulnerability analyses and socio-economic studies; 
and projected environmental changes. A common concern of state coastal 
managers is that their research efforts and those conducted by the 
Federal Government be well coordinated and not duplicative. Federally-
conducted or supported research examining climate change impacts at the 
local scale should be carried out in close cooperation with state and 
local governments to ensure that their information needs are met, and 
that local conditions and data are appropriately considered. Input from 
state and local managers should be sought in the earliest planning 
phases.
    While the U.S. GCRP provides important synthesis products related 
to climate change, state and local agencies would benefit from a 
``clearinghouse'' mechanism for Federal, state, and local programs, 
research activities, and other information related to climate change in 
their region. It would also be helpful if the GCRP could spur improved 
collaboration between Federal agencies. State and local officials need 
to be aware of research that the USACE, FEMA, USGS, EPA, NOAA, National 
Science Foundation, and others are conducting (or have conducted) in 
their state or region, and of management activities and lessons learned 
by neighboring states and communities. There is also a need for up-to-
date sea level rise and climate projections and information at the 
regional level, including documented coastal and ocean changes that 
have occurred or are occurring due to climate change. Beyond a single 
inventory of existing research programs and activities, states are 
interested in establishing sustained mechanisms for regional 
collaboration on climate change issues because states in the same 
region will likely face similar potential impacts and policy 
considerations.
Need for Adaptation Planning and Implementation
    While ongoing Federal research activities will prove critical in 
future decisionmaking, state and local governments have immediate 
responsibilities for managing many of the resources and communities 
that are likely to be impacted by climate change. Preparing for and 
coping with these impacts has been termed ``adaptation'' by the 
research and management community. Many of the projected impacts will 
require adaptation solutions that cross Federal, state, regional, and 
local agencies, programs, policies, and jurisdictions. For example, new 
policies are being developed to address sea level rise scenarios in the 
siting of public infrastructure, wetland conservation and restoration 
projects, and increased shoreline building setbacks and elevations. 
States and local communities need to act now, and cannot wait for 
perfect information.
    Because a wide variety of Federal agencies and programs influence 
coastal developments, alterations, and responses to coastal hazards, 
there is a need for a clear Federal strategy for intergovernmental 
coordination on coastal adaptation to climate change. The strategy 
should clearly define the roles of the various Federal agencies, and 
the specific mechanisms by which Federal programs will coordinate with 
state partners on adaptation planning and implementation. Again, 
because the impacts of climate change will vary regionally, and because 
regional coastal/ocean partnerships are already in development around 
the nation, an opportunity exists to establish a regional framework for 
Federal-state coordination on climate change adaptation activities.
Existing Mechanisms
    We urge Congress to take advantage of existing programs and 
mechanisms to disseminate climate change research and information in 
support of state and local resource management. Many programs exist 
where partnerships between Federal, state and local governments are 
already in place. For example, the Federal Coastal Zone Management Act 
(CZMA) should be recognized by Congress and the Administration as one 
of the primary statutes that can foster adaptation to climate change at 
the state and local levels. State coastal programs often directly 
manage shoreline development, and work closely with local governments 
on land use planning, habitat acquisition, and a variety of other 
activities. States coastal programs also play a key role in 
coordinating Federal, state and local agencies, and have the authority 
to review and condition Federal permits in the coastal zone. As state 
and local governments consider future climate change policies and 
strategies, coastal zone management programs will play an important 
role in identifying local-scale impacts, vulnerabilities, and 
opportunities for adaptation; and in fostering interagency 
collaboration on climate change issues.
    State coastal programs are interested in amending the CZMA to 
strengthen their climate change authorities and to allow states and 
territories to develop specific coastal climate change plans or 
strategies. States also support increased funding for climate change 
activities and support legislation that would encourage NOAA and other 
agencies to assist the states via technical assistance, mapping, 
modeling, data, and forecasting products, and intergovernmental 
coordination. Federal activities related to coastal adaptation should 
be coordinated closely with states by involving coastal zone management 
programs early in the planning process.
Conclusion
    State and local resource managers are striving to leverage existing 
funds, programs, and research to address projected climate change 
impacts, but have considerable and ongoing responsibilities beyond 
those described here. Therefore, Federal agencies and programs should 
be encouraged to engage state and local officials early in planning and 
research efforts related to climate change. Through close collaboration 
with state and local partners, the science and technical support 
provided by the U.S. Global Change Research Program will inform 
critical decisions at the local level in light of the uncertainty and 
considerable risks associated with climate change. If we collect all of 
this research and data but fail to get it into the hands of the 
decision-makers at the appropriate scale, then we may become very 
knowledgeable but ill-prepared to meet the challenges facing us in the 
coming decades.
    Thank you again for the opportunity to help inform the Committee on 
the importance of climate change research to state and local resource 
managers. I would be happy to respond to any questions that you may 
have.

    Senator Kerry. Thank you, Dr. Davis, for that informative 
summary, we appreciate it.
    Dr. Frumhoff?

STATEMENT OF PETER C. FRUMHOFF, Ph.D., DIRECTOR OF SCIENCE AND 
    POLICY, AND CHIEF SCIENTIST, CLIMATE CAMPAIGN, UNION OF 
                      CONCERNED SCIENTISTS

    Dr. Frumhoff. Thank you, Mr. Chairman, Members of the 
Committee for the opportunity to speak with you today.
    I'm Peter Frumhoff, I'm the Director of Science and Policy 
of the Union of Concerned Scientists, I'm an ecologist and 
global change scientist, and a lead author of the current 
assessment report of the IPCC.
    Over the past decade, I've also guided a series of 
scientific collaborations, both to assess and to communicate to 
policymakers and the public, the projected impacts of climate 
change on several regions of the United States, including 
California, the Great Lakes region, and most recently, the 
Northeast.
    I'm here today to provide UCS's very strong support for the 
Global Change Research Improvement Act. We believe that the 
Federal Government has an essential leadership role to play in 
ensuring that the public and policymakers in our country have 
the best available science to inform sound decisions about both 
mitigating and adapting to global climate change. Let me make 
several specific points.
    As you know, the climate change poses substantial risks to 
our nation, the IPCC report, other studies, make clear, for 
example, that our coastlines are highly vulnerable to sea level 
rise, to projected increases in the frequency and intensity of 
extreme summer heat that threatens public health in our cities. 
We know the declining winter snow pack is already reducing 
scarce water resources in the Intermountain West.
    Managing these risks effectively requires that we have 
information for decisionmakers at all scales, the best 
available information on the impacts of climate change on those 
sectors for public health, the coastal resources, to 
agriculture that are sensitive to climate change.
    The scientific capacity to assess climate change impacts at 
a regional scale has considerably improved since the U.S. 
national assessment was released in 2001. The science exists 
today to provide decisionmakers with high-quality information 
on climate change risks and vulnerabilities. Information that 
needs to be framed in terms of where the uncertainties are, 
what our levels of confidences are, but we have that 
information today, which we're not producing in most parts of 
this country.
    We need to make these assessments regularly updated to 
capture improvements in our understanding over time, and to 
respond to evolving information needs of decisionmakers.
    Third, there is an enormous gap between the need and demand 
for this sort of information, and the information that's 
currently being provided by the Climate Change Science Program. 
With climate change, the conditions we face in the decades 
ahead will be very different from those we face today, yet 
since the publication of the U.S. national assessment, the 
Federal Government has not been systematically providing 
accessible, updated information on projected change, on risks 
and vulnerabilities.
    The UCS-led regional impacts assessments, I noted earlier, 
have been designed to help fill this gap. This past July, for 
example, we released the Northeast Climate Impacts Assessment, 
a 3-year collaboration between our organization and more than 
50 independent scientists and economists.
    Our report details, for example, that sea level rise is 
projected to increase coastal flooding in the cities of Boston, 
Massachusetts, Atlantic City, New Jersey and others. For each 
of those two cities, the current 100-year coastal flood is 
conservatively--conservatively--projected to occur every 3 to 4 
years by mid-century.
    The information we're producing is not sitting on the 
shelf. We're engaged in the outreach and dissemination of the 
sort that we hope the National Climate Service will do 
effectively, we're speaking with Governor Corzine's staff, for 
example, in New Jersey, who've asked us to work with them, to 
incorporate the finding of this assessment into a variety of 
climate initiatives in that State. We're working with 
policymakers in New York. On Monday, I'm briefing Mayor Menino 
in Boston with his top officials, to help them understand how 
the impacts of climate change affect that city, and how they 
can best adapt to the changes that are likely to come.
    We've done similar work in California that I had the 
privilege of reporting here to this Committee in September of 
2004.
    Senators I'm proud of the work that we've done. Every month 
we receive requests for similar information in regions of the 
United States where no recent integrated climate impact 
assessment has been done.
    But we're not positioned to provide such information at a 
scale commensurate with the need. This is the responsibility of 
the Federal Government.
    Finally, I want to highlight that it's critical to ensure 
that the assessments meet the highest standards of scientific 
integrity, and that the process is not subject to political 
interference.
    We appreciate, for example, that the White House Office of 
Science and Technology Policy has an important role to play in 
interagency coordination on scientific and technology matters. 
However, we remain concerned that the proposed establishment of 
the integrated program office within OSTP may subject the 
assessment process to undue political interference. To address 
this concern, we request that the Committee consider further 
strengthening the bill, to ensure that both the climate 
assessment and outreach activities carried out under it are 
subject to a transparent public review by a credible 
independent body charged with recommending any necessary 
corrective action.
    I look forward to working with the Committee and my 
colleagues in the scientific community to assist in the 
transition to a new era of accurate, readily accessible policy-
relevant information on climate change risks, adaptation 
strategies and mitigation options for the United States.
    I thank you for your time.
    [The prepared statement of Dr. Frumhoff follows:]

Prepared Statement of Peter C. Frumhoff, Ph.D., Director of Science and 
   Policy and Chief Scientist, Climate Campaign, Union of Concerned 
                               Scientists
    Mr. Chairman and distinguished Members of the Committee, thank you 
for this opportunity to speak with you today on improving the Federal 
climate change research program and the communication of climate 
information to decisionmakers.
    I am Peter Frumhoff, Director of Science and Policy and Chief 
Scientist of the Climate Campaign at the Union of Concerned Scientists 
(UCS). I am an ecologist and global change scientist, and a lead author 
of the current assessment report of the Intergovernmental Panel on 
Climate Change (IPCC). Over the past decade, I have also guided a 
series of scientific collaborations to assess and communicate to 
policymakers and the public the projected impacts of climate change on 
several regions of the United States, including California,\1\ the 
Great Lakes region \2\ and, most recently, across the Northeast 
states.\3\
---------------------------------------------------------------------------
    \1\ Hayhoe, K., D. Cayan, C.B. Field, P.C. Frumhoff, E.P. Maurerf, 
N.L. Miller, S.C. Moser, S.H. Schneider, K.N. Cahill, E.E. Cleland, L. 
Dale, R. Drapek, R.M. Hanemann, L. S. Kalkstein, J. Lenihan, C.K. 
Lunch, R.P. Neilson, S.C. Sheridan, and J.H. Verville (2004). Emissions 
pathways, climate change, and impacts on California, The Proceedings of 
the National Academy of Sciences 101: 12422-12427.
    \2\ Kling, G.W., K. Hayhoe, L.B. Johnson, J.J. Magnuson, S. 
Polasky, S.K. Robinson, B.J. Shuter, M.M. Wander, D.J. Wuebbles, D.R. 
Zak, R.L. Lindroth, S.C. Moser, and M.L. Wilson. (2003). Confronting 
Climate Change in the Great Lakes Region: Impacts on our Communities 
and Ecosystems. Union of Concerned Scientists, Cambridge, M.A., and 
Ecological Society of America, Washington, D.C.
    \3\ Frumhoff, P.C., J.J. McCarthy, J.M. Melillo, S.C. Moser, and 
D.J. Wuebbles. (2007). Confronting Climate Change in the U.S. 
Northeast: Science, Impacts, and Solutions. Synthesis report of the 
Northeast Climate Impacts Assessment (NECIA). Cambridge, MA: Union of 
Concerned Scientists.
---------------------------------------------------------------------------
    I am here today to provide UCS's support for the Global Change 
Research Improvement Act of 2007 (GCRIA). We believe that Federal 
Government has an essential leadership role to play in ensuring that 
the public and policymakers in the United States have the best 
available science upon which to inform and motivate sound decisions 
about mitigating and adapting to global climate change.
    We strongly support the bill's intent to serve all the regions of 
the country, and to provide information on climate change 
vulnerabilities and impacts across sectors and under a range of 
plausible scenarios of further climate change. We appreciate the 
explicit intent to couple high-quality policy-relevant climate 
assessments with ongoing outreach to public and private sector 
decision-makers and ensure that findings can inform and strengthen 
their capacity to adapt--to manage those impacts which are now 
unavoidable. We also appreciate that the work carried out under this 
bill will provide much needed information on those most severe impacts 
and costs of adaptation that can still be avoided through timely, 
effective actions to reduce further emissions.
    I wish to make several specific points:

    1. Climate change poses substantial risks to the United States. 
Research summarized by the IPCC,\4\ UCS-led regional impacts 
assessments, and other recent studies makes clear, for example, that 
our coastlines are highly vulnerable to sea-level rise, that projected 
increases in the frequency and intensity of extreme summer heat 
threatens the public health in many U.S. cities, and declining winter 
snowpack is reducing already scarce water resources in the 
intermountain west.
---------------------------------------------------------------------------
    \4\ Field, C.B., L.D. Mortsch, M. Brklacich, D.L. Forbes, P. 
Kovacs, J.A. Patz, S.W. Running and M.J. Scott, 2007: North America. 
ClimateChange 2007: Impacts, Adaptation and Vulnerability. Contribution 
of Working Group II to the Fourth Assessment Report of the 
Intergovernmental Panel on Climate Change, M.L. Parry, O.F. Canziani, 
J.P. Palutikof, P.J. van der Linden and C.E. Hanson, Eds., Cambridge 
University Press, Cambridge, UK, 617-652.
---------------------------------------------------------------------------
    Managing these risks effectively requires that decision-makers 
across the Nation at all scales--from local to national--and across all 
climate sensitive sectors--from public health to coastal resources to 
agriculture--have access to the best available information upon which 
to make informed choices about both adaptation and mitigation.
    Due to inertia in the Earth's climate, we are poised to experience 
substantial global warming over the next several decades--to these 
changes we must adapt. But the further extent and severity of climate 
change impacts by mid-century and beyond depends upon the choices that 
the U.S. and other nations make today about our emissions of heat-
trapping gases.
    2. The scientific capacity to assess climate change impacts at a 
regional scale has considerably improved since the U.S. National 
Assessment \5\ was published in 2001. Continued dedicated efforts to 
improve that capacity are essential, but the science exists today to 
provide decision-makers with high-quality information on climate change 
risks and vulnerabilities. Assessments must be produced at regular 
multi-year intervals, both to capture improvements over time and to 
respond to evolving information needs of decision-makers.
---------------------------------------------------------------------------
    \5\ National Assessment Synthesis Team (2001). Climate Change 
Impacts on the United States: The Potential Consequences of Climate 
Variability and Change, Report for the U.S. Global Change Research 
Program, Cambridge University Press, Cambridge UK, 620 pp.
---------------------------------------------------------------------------
    3. There is an enormous gap between the need and demand for policy-
relevant climate change information and the information provided by the 
current U.S. Climate Change Science Program.
    With climate change, the conditions we face in the decades ahead 
will be very different from those we face today. Yet, since the 
publication of the U.S. National Assessment in 2001, the Federal 
Government has not been systematically providing accessible, updated 
information on climate change risks and impacts across climate-
sensitive sectors and regions of the United States.
    The UCS-led regional impacts assessments I noted above have been 
designed to help fill this gap. In every region in which we have 
worked, the public and policymaker demand for high quality information 
on impacts and response options is enormous.
    In July 2007, for example, we released the Northeast Climate 
Impacts Assessment (NECIA), a three-year collaboration between UCS and 
more than 50 independent scientists and economists. Our report details, 
for example, that sea-level rise is projected to dramatically increase 
coastal flooding in the cities of Boston, MA and Atlantic City, NJ--for 
each, the current 100 year coastal flood is conservatively projected to 
occur every 3-4 years by mid-century.
    We have distributed thousands of copies of the report and held 
briefings for municipal leaders, business leaders, senior officials of 
state agencies, and several Governors and Members of Congress from 
across the Northeast. New Jersey Governor John Corzine's staff has 
cited the NECIA as extremely valuable to their work and has asked UCS 
to work with them to incorporate NECIA findings into a variety of 
climate initiatives under way in the state. New York State's new 
climate office has asked for several different NECIA briefings to delve 
more deeply into the climate implications for their relevant state 
agencies and to support climate initiatives under consideration by the 
Spitzer Administration. New York City's Office of Long-Term Planning 
and Sustainability is convening a citywide agency task force to prepare 
for the climate impacts that are no longer avoidable and has asked 
NECIA experts for assistance in developing the action plan. In New 
Hampshire, the New Hampshire Department of Environmental Services 
placed strong emphasis on the NECIA findings in the rationale for the 
draft legislation that would implement the Regional Greenhouse Gas 
Initiative in that state.
    Three years ago, in September 2004, I had the privilege of 
appearing before this Committee to share with you the findings of a 
major new study on the projected impacts of climate change on 
California, published in the Proceedings of the National Academy of 
Sciences.\6\ Joining me that day for the presentation was one of my co-
authors, Dr Daniel R. Cayan, Director of the Climate Research Division 
at the Scripps Institute of Oceanography, University of California, San 
Diego. I am very pleased to tell you that we have learned from senior 
policymakers in California that our report has been an enormously 
important resource to the state as it develops aggressive plans to 
reduce emissions and to cope with the substantial impacts of climate 
change (including steep declines in the Sierra snowpack that provides 
water to millions across the state) that are now unavoidable.
---------------------------------------------------------------------------
    \6\ Hayhoe, K., D. Cayan, C.B. Field, P.C. Frumhoff, E.P. Maurerf, 
N.L. Miller, S.C. Moser, S.H. Schneider, K.N. Cahill, E.E. Cleland, L. 
Dale, R. Drapek, R.M. Hanemann, L. S. Kalkstein, J. Lenihan, C.K. 
Lunch, R.P. Neilson, S.C. Sheridan, and J.H. Verville (2004). Emissions 
pathways, climate change, and impacts on California, The Proceedings of 
the National Academy of Sciences 101: 12422-12427.
---------------------------------------------------------------------------
    I am also sorry to tell you that Dr. Cayan lost his home in the 
recent Southern California wildfires. Let me be clear: There is no 
evidence that climate change had a significant role in these recent 
fires. But the research of Dr. Cayan and his colleagues indicates that 
global warming may be increasing the risk and severity of high 
elevation forest wildfires across much of the western United States. 
Such research is at its early stages. The GCRIA should help ensure that 
citizens and decision-makers across the west have access to state-of-
the art research on such risks and vulnerabilities--research that is 
designed to help communities, resource managers, and policymakers 
constrain and manage the impacts on property, air quality and natural 
ecosystems.
    Senators, I am proud of the work that we have done. Every month, I 
receive requests for similar information in regions of the U.S. where 
no recent integrated climate impacts assessments have been done. But 
the Union of Concerned Scientists should not be in the business of 
providing the Nation with robust, accessible, policy-relevant 
information on climate change impacts. We are simply not positioned to 
provide such information at a scale commensurate with the need. This is 
the responsibility of the Federal Government.
    4. It is critical to ensure that the assessment products be 
produced in accordance with highest standards of scientific integrity 
and the assessment process is not subject to political interference. 
Toward that end, UCS strongly endorse the GCRIA's provisions to protect 
the integrity of the scientific research and the unfettered 
dissemination of research results by participating scientists.
    We appreciate that the White House Office of Science and Technology 
Policy (OSTP) has an important role to play in interagency coordination 
on scientific and technology matters. However, we remain concerned that 
the proposed establishment of the Integrated Program Office within 
(OSTP) may subject the assessment process to undue political 
interference. To address this concern, we request that the Committee 
consider further strengthening the bill to ensure that both the climate 
assessment and outreach activities carried out under the GCRIA be 
subject the transparent public review by a credible, independent body 
that is charged with recommending any necessary corrective action. For 
example, the President could appoint an independent, bipartisan 
commission that includes stakeholders, scientists, and social 
scientists to provide ongoing oversight and review of the program. The 
commission could issue a public report to the President and Congress at 
regular intervals (e.g., every 3 years) with the requirement that a 
timely response to recommendations be provided (e.g., within 6 months 
of report production).
    Finally, I wish to thank Senators Kerry and Snowe for their 
recognition that Congress needs more expert advice to address the broad 
range of critical science and technology policy issues facing our 
Nation. UCS looks forward to working with Congress to further assess 
and refine this proposal for a National Science and Technology 
Assessment Service and ensure that it receives the needed resources to 
fulfill this crucial mission.
    I look forward to working with the Committee and my colleagues in 
the scientific community to assist in the transition to a new era of 
accurate, readily accessible, and policy-relevant information on 
climate change risks, adaptation strategies, and mitigation options for 
the United States. I thank you for your time.

    Senator Kerry. Thank you very much, Dr. Frumhoff.
    Dr. Carter?

 STATEMENT OF LYNNE M. CARTER, Ph.D., CO-DIRECTOR, ADAPTATION 
                            NETWORK

    Dr. Carter. Mr. Chairman, Senator Kerry, and distinguished 
members of the Committee, thank you for your invitation to 
testify. I'm Lynne Carter, and I'm here to strongly support the 
Global Change Research Improvement Act of 2007, and I will 
center my remarks where you requested, where I believe the 
present-day Climate Change Science Program could see 
improvement, in both research focus and communication of 
results. And I especially support a regional perspective that 
you have outlined in the bill and that my other panelists have 
also mentioned.
    My perspective as the Co-Director of the non-profit 
Adaptation Network, and the former liaison to the regions for 
the first U.S. national assessment, is that regions and local 
areas are where the impacts of climate changes are felt most, 
and where adaptations will be required.
    Therefore, I strongly support improvements where regional 
and locally relevant research is undertaken, and the scale of 
the research closely matches the scale of the issue for the 
region; where the region and locally relevant information--not 
just data--is generated and distributed; where regionally 
relevant assistance is provided to help regional and local 
decisionmakers make use of the information in appropriate ways, 
including identifying and assessing adaptation options; and, 
where a formal mechanism is established to provide for regular 
dialogue between regional and local decisionmakers, and Federal 
research planners to identify regional and locally relevant 
research needs.
    To have a more effective communication plan for research 
findings to be useful to regional and local decisionmakers 
would require a synthesis of information from many sources and 
across many sectors, delivery of information at the appropriate 
scales, a delivery mechanism for useful and usable information, 
and the climate information must be within the public domain. 
Available to all who need it, and not just those who have a 
great deal of expertise or are able to afford it. This could be 
an important equity issue.
    In all of these facets of a communication effort could be 
included in a program such as a cooperative extension service 
for climate.
    The basis for my support for a regional approach stems from 
the fact that the regional mosaic in this country is rich and 
distinct. Working with the 20 regions as the regional liaison 
for the first U.S. national assessment, it became increasingly 
clear to me that there were some issues where many regions had 
similar concerns. Also, there were some issues that were 
completely regionally unique, and only one issue that every 
region had in common. That one common issue was water.
    But, however, while water may be a common concern to all 
regions of the nation, each region still has particular 
regional water issues, and will need to consider appropriate 
adaptation options.
    In some of the examples I'm going to describe come from the 
U.S. national assessment.
    The Midwest region's water issues related to likely 
reductions in lake and river levels, as were mentioned 
previously by one of their Senators testifying meant 
describing, and the resulting impacts from those reduced water 
levels to water supply, water quality, water-based 
transportation, hydropower generation, recreation, and major 
changes in freshwater ecosystems.
    Western regional water issues revolved around changes in 
the water resources, and that included both concerns about 
possibilities around too much water--flooding--and too little 
from such as early spring runoff resulting in summer droughts.
    Alaska water issues included concerns around thawing 
permafrost and melting sea ice, and the resulting impacts of 
increased erosion, land sides and sinking, as well as impacts 
of larger storm surges on coastal villages and marine 
ecosystems.
    Island water issues included impacts on freshwater 
resources through sea level rise and salt water intrusion, 
along with possible droughts and floods and the resulting 
impacts on tourism and agriculture, fish processing, urban and 
municipal users and natural ecosystems.
    So averages in broad-brush results as currently being 
produced do not adequately reflect the rich mosaic of regions 
and localities in this country. Nor do they reflect the variety 
of perspectives or information needs, even on what seems like 
the same issue, water.
    In terms of useful communication of research results, I'd 
like to focus on just one example, to show how important it is 
to have the scale of the climate issue needing to be addressed, 
match the scale of the climate information available to address 
the issue, and the data are taken from the New England regional 
assessment.
    The New England region included all of the six New England 
States and upstate New York. The annual precipitation in the 
region had increased, on average, nearly 4 percent between 1895 
and 1999, when those data were collected. If we were to tell 
any planner in that region to be ready to accommodate an 
increase of precipitation of 4 percent in their planning 
efforts, all of their plans would have been wrong, because the 
scale of the information that we gave them did not match the 
scale of the region that they were planning for.
    If you drill down into those data, even just to the State 
average levels, you'll find that a planner in Massachusetts 
would have been subject to more likely a positive, an increase 
of 30 percent in precipitation over that timeframe, and someone 
from Maine would have been subjected to a minus 12 percent of 
precipitation over that same timeframe.
    So, recognizing that all future projections have a level of 
uncertainty in them, efforts to provide the decisionmaker with 
more appropriately scaled regional climate change information, 
information that is as close as possible to their planning 
areas, should be an integral part of any Federal Climate Change 
Research Program. Accomplishing this would not only enable the 
decisionmaker to be more effective in planning and adapting to 
climate change, but it would also improve the effectiveness of 
this important Federal research program.
    Thank you for this opportunity to testify, and I'd be glad 
to answer any questions.
    [The prepared statement of Dr. Carter follows:]

      Prepared Statement of Lynne M. Carter, Ph.D., Co-Director, 
                           Adaptation Network
    Mr. Chairman (Senator Kerry) and distinguished members of the 
Committee, thank you for your invitation to testify. I am here to 
strongly support the Global Change Research Improvement Act of 2007 and 
will center my remarks on where I believe the present day Climate 
Change Science Program could see improvement in both research focus and 
communication of results.
    My perspective as the former liaison to the regions for the first 
U.S. National Assessment and the co-Director of the Adaptation Network 
on improvements to the Federal climate change research program, is that 
regions and local areas are where the impacts of climate changes are 
felt most and where adaptations will be required. Therefore, I am 
highlighting four areas of improvement to the Federal climate change 
research program: (1) regional and locally relevant research needs to 
be undertaken, and the scale of the research must match the scale of 
the issue for the region; (2) regional and locally relevant information 
(not just data) needs to be generated and distributed; (3) regionally 
relevant assistance must be available to help regional and local 
decisionmakers make use of the information in appropriate ways 
including identifying and assessing adaptation options; and (4) a 
formal mechanism must be established to provide for regular dialogue 
between regional and local decisionmakers and Federal research planners 
to identify regional and locally relevant research needs.
    To have a more effective communication plan for research findings 
to be useful to regional and local decisionmakers would require: a 
synthesis of information from many sources; delivery of information at 
appropriate scales for decisionmaking; a delivery mechanism for useful 
and useable information; and the climate information must be within the 
public domain, available to all who need it and not just those who have 
a great deal of expertise or are able to afford it--this could be an 
important equity issue. All of these facets of a communication effort 
could be included in a program such as a cooperative extension service 
for climate.
    The basis for my proposed regional approach to improve the Federal 
climate change research program stems from the fact that the regional 
mosaic in this country is rich and distinct. Working with the 20 
regions as the regional liaison for the first U.S. National Assessment, 
it became increasingly clear to me, that there were some issues where 
many regions had similar concerns. Also, there were some issues that 
were completely regionally unique, and only one issue that all regions 
had in common. That one common issue was water (fresh or salt). 
However, while water may be a common concern to all regions of the 
nation, each region still has particular regional water issues and will 
need to consider appropriate adaptation options. Examples (examples 
taken from the U.S. National Assessment of the Potential Consequences 
of Climate Variability and Change) of the range of issues around the 
theme of water follow:

  <bullet> The Midwest region's water issues related to likely 
        reductions in lake and river levels and the resulting impacts 
        to water supply, water quality, water-based transportation, 
        hydropower generation, recreation, and major changes in 
        freshwater ecosystems.

  <bullet> Western regional water issues revolved around changes in 
        water resources and that included both concerns about 
        possibilities around too much water (flooding) and too little 
        from such as early spring run-off resulting in summer droughts.

  <bullet> Alaska water issues included concerns around thawing 
        permafrost and melting sea ice and the resulting impacts of 
        increased erosion, landslides, and sinking as well as impacts 
        of larger storm surges on coastal villages and marine 
        ecosystems.

  <bullet> Island water issues included impacts on freshwater resources 
        through sea level rise and salt-water intrusion, along with 
        possible droughts and floods and the resulting impacts on 
        tourism, agriculture, fish processing, urban/municipal users, 
        and natural ecosystems.

    So averages and broad-brush results as currently being produced do 
not adequately reflect the rich mosaic of regions and localities in 
this country, nor do they reflect the variety of perspectives or 
information needs even on what seems like the same issue.
    In terms of useful communication of research results, I would like 
to focus on an example to show how important it is to have the scale of 
the climate issue needing to be addressed match the scale of the 
climate information available to address that issue. The data are taken 
from the NE Regional Assessment and the example is mine.
    The NE region included all of the six NE states and upstate New 
York. The annual precipitation in the region has increased on average 
nearly 4 percent between 1895 and 1999. If we were to tell any planner 
in the region to be ready to accommodate an increase in precipitation 
of about 4 percent in their planning efforts, all of their plans would 
be incorrect, because the scale of the information that we gave them 
did not match the scale of the region that they were planning for. If 
you drill into those data even just to the state average level you will 
find that a planner in Massachusetts would really have been subject to 
an increase of probably closer to + 30 percent and one in Maine would 
have been subject to a decrease of more like -12 percent over that same 
time period. Recognizing that all future projections have a level of 
uncertainty in them, efforts to provide the decisionmaker with more 
appropriately scaled regional climate change information--information 
that is as close as possible to their planning areas--should be an 
integral part of any Federal climate change research program. 
Accomplishing this would not only enable the decisionmaker to be more 
effective in planning and adapting to climate change, but it would also 
improve the effectiveness of this important Federal research program.
    Thank you again for this opportunity to testify. I would be glad to 
answer any questions Members of the Committee may have.

    Senator Stevens. Well, thank you very much.
    Our next witness is Dr. John Christy, Professor and 
Director of Earth Science System Center at National Space and 
Science Technology Center at the University of Alabama.
    Dr. Christy?

      STATEMENT OF JOHN R. CHRISTY, Ph.D., PROFESSOR AND 
 DIRECTOR, EARTH SYSTEM SCIENCE CENTER, NATIONAL SPACE SCIENCE 
   AND TECHNOLOGY CENTER, UNIVERSITY OF ALABAMA IN HUNTSVILLE

    Dr. Christy. Senator Stevens, and Committee Members, I'm 
Director of the Earth Systems Science Center at the University 
of Alabama in Huntsville, and Alabama State Climatologist, 
where I work on economic development.
    Thank you for allowing me to share a few comments on 
climate change. First, any science program on climate must be 
built on the foundation of continuous and accurate data. In 
other words, we must know what the climate is doing before we 
can understand why it does what it does.
    For example, we know through continuous and accurate 
satellite observations since 1979 that this year the area of 
Arctic sea ice retreated to a record minimum, and curiously, 
that the area of Antarctic sea ice expanded to a record 
maximum.
    But why these disparate results? Blaming increasing 
greenhouse gases is too quick and easy an answer, in my view.
    In another example, I was co-author on a publication by my 
UA Huntsville colleague, Dr. Roy Spencer, in which he used some 
terrific satellite data, to discover that the greenhouse effect 
of clouds evidently naturally mitigates warming rather than 
reinforcing it. This has powerful implications because it means 
the climate might react differently to increasing greenhouse 
gases than current theory predicts.
    Climate observations from space are indispensable for our 
climate program, and their continuations is mandatory so that 
we may know what the climate is doing, and why. I support the 
recommendations of the National Research Council Decadal Survey 
which insists that we add sensors in spacecrafts soon, to keep 
current measurements from disappearing. What we miss now, will 
be missed forever.
    The topic of human-caused climate change is a media darling 
these days. As a result, many proposals to ``do'' something are 
offered, but are based on the projection of climate models. The 
utility of models as predictive tools is highly questionable, 
in my view. When the national assessment chose two of the best 
models to describe the coming climate for the Southeastern 
U.S., one projected a jungle-like environment, the other a 
semi-arid savannah, and none--not one--of the many models we 
examined reproduced the actual climate of the last century, in 
which we experienced declining temperatures, and increasing 
rainfall in the Southeast.
    Climate models will not provide reliable projections of 
regional climate, yet that's the climate in which we actually 
live, work, and grow our food. Further, the relatively tiny 
impacts on global emissions of these proposals are so small, 
relative to the large variations of local climate, that there 
will not be a confident, predictable outcome of legislation nor 
means to detect its efficacy.
    Though regional predictions and models vary widely, their 
least problematic projection may be the global average surface 
temperature. The model calculations indicate that the global 
average temperature is quite stubborn. For example, 1,000 new 
nuclear power plants operating by 2020, replacing about 10 
percent of the CO<INF>2</INF> emissions would have a tiny 
impact of about fifteen-hundredths of a degree by 2100.
    In addition to continuous and accurate observations, I 
believe something else is needed. The climate model industry 
should be subject to a red team approach. Since the output of 
these models is being used to drive billion dollar strategies 
to inhibit emissions, and whose cost can have tremendous 
negative consequences for our economic health and welfare, they 
should be evaluated in the most hard-nosed program possible. 
Such an inexpensive program would provide policymakers with an 
independent point of view about the level of confidence that 
may be ascribed to the models.
    Whatever trajectory the climate takes, we will, of course, 
adapt. As State Climatologist, I'm heavily involved in defining 
and assessing climate-related impacts to our State's economy. 
Parts of my State are coping with the lowest rainfall in 100 
years. Sketchy records show a similar drought back in 1839 and 
1840.
    When Alabama was also dry in 1988, I penned my General Rule 
of Climate--if it happened before, it will happen again, and 
probably worse. And the point here is that by carefully 
examining what we know has happened in our past, add insurance, 
we will know how to reduce the negative consequences of events 
certain to occur in the future.
    In the case of our present drought, our farmers suffered 
severe losses, but Senator Sessions has included in the Farm 
bill, a provision to offer farmers help to build 
environmentally sustainable impoundments to store our abundant 
winter water for use in the summer, and thereby alleviate the 
terrible consequences. This is a perfect example where climate 
observations serve as a foundation to tell us when important 
variations occur, and what we can do to adapt.
    Finally, there is no guarantee that energy policies 
intended to deal with climate change will have the desired 
effect, or any effect. Making energy more expensive will, 
however, hurt my State. I'm optimistic, though, that the 
natural course of innovation, spurred by government investment 
and research, will lead to energy sources that deal with the 
significant issues of energy security, balance of trade, 
economic stability, as well as emissions reductions, while 
achieving the emphatically desirable goal of keeping energy 
affordable.
    Thank you.
    [The prepared statement of Dr. Christy follows:]

    Prepared Statement of John R. Christy, Professor of Atmospheric 
Science, and Director of the Earth System Science Center, University of 
        Alabama in Huntsville, and Alabama's State Climatologist
Summary
    The foundation of a climate science program must be a commitment to 
continuous and accurate observations. We must know WHAT the climate is 
doing before we can understand WHY it does what it does. However, we 
now face the loss of satellite and other observations critical to 
understanding the climate. The NRC Decadal Survey goals for satellite 
systems should be pursued vigorously as well as support for other 
systems.
    The climate science program now has a large climate-modeling 
component. However, based on limited studies, too much confidence in my 
view is placed in model projections. These projections cannot reliably 
predict the climate on regional scales where we live and grow our food. 
The potential of billion-dollar economic impacts of proposals designed 
to mitigate ``global warming'' are based on these models and some 
common misunderstandings. Thus it is imperative that a ``Red Team'' 
approach be taken with climate model evaluation. Such teams, 
independent from those with vested interests in the modeling industry, 
would evaluate models with a hard-nosed methodology to inform 
policymakers about model confidence from a different and scientifically 
defensible point of view.
    The human race will adapt to whatever trajectory the climate system 
selects. Having a firm understanding of past variability allows society 
to adapt more intelligently to variations almost certain to occur in 
the future. Such is a benefit of a robust observing system. In 1988 I 
penned a General Rule of Climate, ``If it happened before, it will 
happen again, and probably worse.'' The point is that if we prepare for 
what has already been observed (e.g., hurricanes, droughts, floods, 
heat waves, blizzards) and then some, we will be much better prepared 
for whatever the climate does.
    There is no guarantee that energy policies intended to deal with 
climate change will have the desired effect, either in sign or 
magnitude. However, policies which address the reduction of emissions 
as well as other important issues, one being the emphatically desirable 
goal of affordable energy, are worth pursuing.
    Making energy more expensive by direct taxes or cap-and-trade 
schemes (around which business may cleverly skirt) is troublesome. 
First, these are regressive taxes since the poor disproportionately 
spend more on energy. Second, as a manufacturer, who employs hundreds 
in my state, told me last week, ``If my energy costs go up according to 
these proposals, I'm closing down and moving offshore.'' Irony and 
tragedy are here. The irony is that higher energy costs will lead to an 
increase in greenhouse emissions as offshore plants have less stringent 
rules. The tragedy is that this will lead to further economic suffering 
in a part of my state where no more suffering is needed.
Observations are Foundational
    A climate science program must be built on a foundation of 
continuous and accurate observations. In other words, it is 
prerequisite that we know WHAT the climate system is doing before we 
can understand WHY it does what it does. We know, for example, because 
of continuous and accurate satellite monitoring since 1979, that in 
2007 the Arctic sea ice area retreated to a record minimum, and 
curiously, that the Antarctic sea ice area expanded to a record 
maximum. Even as I write this, the global sea ice extent is only about 
4 percent lower than the long-term average: http://
arctic.atmos.uiuc.edu/cryosphere/IMAGES/global.daily.ice.area.withtrend
.jpg.
    But why these disparate results between north and south? Blaming 
increasing greenhouse gases is too quick and easy an answer in my view.
    While ``global warming'' due to extra greenhouse gases seems to be 
consistent with Arctic melting it is at odds with Antarctic sea ice 
expansion. A more reasonable explanation for at least part of the 
Arctic ice reduction is offered by a NASA team (Nghiem, et al., 2007) 
suggesting that an anomalous circulation pattern of the atmosphere over 
the Arctic in 2007 pushed a large part of the sea ice to lower 
latitudes where it melted. Higher polar temperatures, near those of the 
late 1930s, likely also had a role as did the thinner ice. However, 
more research, and more observations are necessary to understand why 
such events occur. The complexity of this climate system can not be 
overstated.
    In another example, I was a co-author on a publication led by my 
UAHuntsville colleague Dr. Roy Spencer in which he used some terrific 
satellite data to discover that the greenhouse effect of clouds 
evidently behaves in a way that naturally mitigates warming rather than 
reinforcing it. We found that as the tropical atmosphere warms through 
heating related to rainfall, that the types of clouds that trap heat in 
the atmosphere shrink in coverage, allowing more heat to escape to 
space and cooling to ensue. This is an apparently strong negative 
feedback in the climate and has powerful implications because it 
indicates the climate might react differently to increasing greenhouse 
gases than current theory predicts.
    Climate observations from space are indispensable for a climate 
program and their continuation is mandatory so that we may know WHAT 
the climate is doing and thus WHY. I support the recommendations of the 
National Research Council Decadal Survey report which insists that we 
add sensors and spacecraft soon to keep current measurements from 
disappearing. What we miss now, will be missed forever.
    Ground-based observations are also critical. With the support of 
Congressman Cramer and Senator Shelby, Alabama has a nearly completed 
statewide system of the highest quality, federally-owned and operated 
climate stations. This type of system is needed world-wide where poor 
and lost measurements prevent us from having a full picture of what the 
climate is now doing. This is especially important because of new 
research in the factors that influence the historical record of surface 
temperatures.
    Mounting observational evidence and theoretical studies are 
shedding light on the utility of the heretofore iconic representation 
of the Earth's climate change over the past 150 years--the global 
average surface temperature. This metric has been promoted as the key 
proxy to represent the impact of enhanced greenhouse gases. However, I 
and others have published articles which suggest that this mean surface 
temperature quantity is a poor metric for this task. The basic problem 
is that the mean surface temperature is the average of the nighttime 
low and the daytime high. The inclusion of the nighttime low, our 
research suggests, is where the problem lies.
    Many studies have shown that the nighttime low has warmed more 
rapidly than the daytime high in most regions. The cause of this 
nighttime warming however is more consistent with the effects of human 
development of the surface and consequent influence on the near surface 
air (e.g., urbanization, farming, aerosol pollution) rather than 
greenhouse warming. The reasoning is as follows.
    The nighttime temperature over land occurs generally in a shallow, 
cold ``boundary layer'', disconnected from the deep and warmer 
atmosphere aloft. As it so happens, the deep atmosphere does not 
experience large temperature changes from day to night, yet the deep 
atmosphere is where the impacts of greenhouse gases are thought to be 
most pronounced over time. The nighttime boundary layer forms in a 
delicate balance of physical processes (radiation, heat and moisture 
fluxes, turbulence, etc.) that can be disrupted by minor changes in the 
surface characteristics such as urbanization, farming or radiative 
forcing such as from clouds, aerosols or greenhouse gases (Pielke Sr. 
et al., 2007, Christy et al., 2006, Walters et al., 2007).
    If the formation of the boundary layer is disrupted, the warmer air 
from above is mixed downward at night, leading to an appearance over 
time of an increasing temperature trend. However, this trend is not due 
to a warmer deep atmosphere, but to a mixing of that already-warmer air 
down to the surface more often than before. Global climate models, due 
to their coarse resolution, do not in general capture these nighttime 
boundary layer processes (Walters et al., 2007). Thus, while surface 
temperatures may show warming, these studies suggest it is not due to a 
global accumulation of heat (as depicted in climate models) but only to 
a very local redistribution of heat near the surface.
    The basic point here is that it appears that a significant portion 
of the rising surface temperatures over land, as depicted in the mean 
surface temperature--most of which is due to nighttime increases--are 
not related to enhanced greenhouse gases but to development of the 
surface around locations where thermometers reside. This is another 
example of the type of research that requires further analysis with 
more detailed observations and theory, and which has the potential to 
alter views of the causes of some of the temperature changes now 
assumed to be linked to greenhouse gas increases.
    Thus, from satellites above to the deepest ocean measurements and 
all parts in between, observations of the Earth System must have 
priority as the foundation of any climate science program.
Climate Model Issues
    The topic of human-caused climate change is ubiquitous in the media 
today. As a result, people are often made to be frightened about the 
future and their anxiety leads to many state and Federal proposals to 
``do something'' about climate change. It is essential to point out 
that these scenarios are based on the projections of climate models and 
are often announced from media personalities whose goals are viewer 
ratings. However, the utility of climate models as predictive tools is 
highly questionable in my view. The current climate science program has 
a large climate modeling component, but how effective is it?
    When the National Assessment chose two of the best models to 
describe the coming climate for the Southeastern U.S., one projected a 
jungle-like environment, the other a semi-arid savannah. And, none--not 
one--of the many models we examined were able to reproduce the actual 
climate of the last century in which we experienced declining 
temperatures and increasing rainfall in the Southeast.
    Climate models will not provide reliable projections of regional 
climate--yet that's the scale of climate where we actually live, work 
and grow our food. Further, the relatively tiny impacts on global 
emissions of these proposals are so small relative to the large 
variations of local climate, that there will not be a confident, 
predicable outcome of legislation, nor a means to confidently detect 
its efficacy. No one can say for a specific region whether a policy 
option would increase or decrease rainfall, or whether there was even 
any impact at all. The climate cannot be predictably-managed.
    Though regional predictions of models vary widely, the least 
problematic projection of models may be a single number, the global 
average surface temperature (problems with which were addressed 
earlier). Model calculations indicate that global average temperature 
is quite stubborn. For example, 1000 new nuclear power plants operating 
by 2020 would have a tiny impact of about 0.15 +C by 2100 according to 
the best estimate of the IPCC AR4 using the ``Business and Usual'' 
emission scenario named A1B. This is roughly equivalent to halving the 
U.S. carbon dioxide emissions. Thus, even on the global average scale 
(which has little to do with local climate variations) one must be 
quite circumspect as to what is possible even with dramatic changes in 
energy infrastructure.
Red Team Evaluations of Climate Projections
    Dr. Roger Pielke, Jr. observed in commenting on Roe and Barker 
(2007), who themselves discussed the intrinsic uncertainties of climate 
modeling, ``. . . the uncomfortable reality--for climate modelers--[is] 
that finite research dollars invested in ever more sophisticated 
climate models offer very little marginal benefit to decisionmakers.'' 
(New Scientist, 25 Oct 2007) Where could resources be invested with 
regard to climate model understanding if further investment in the 
activity itself will likely lead to little further knowledge?
    In addition to continuous and accurate observations, I believe 
there is gap in the model evaluation program and thus this represents a 
productive area of research. The climate model industry should be 
subject to a ``Red Team'' analysis in which the teams take a critical 
look at model efficacy. If the simulations of these models are being 
used to drive billion dollar strategies to inhibit emissions and whose 
costs can have tremendous negative consequences for our economic health 
and welfare, they should be evaluated by the most hard-nosed program 
possible. Such an inexpensive program would provide policymakers with 
an independent point of view about the level of confidence that may be 
ascribed to models. This is the way science works and thus such a Red 
Team program would be scientifically defensible. Additionally, this 
evaluation would very likely lead to improvements in model 
formulations. If the modeling industry objects to this approach, one 
should ask why.
Adaptation Will Occur
    Whatever trajectory the climate takes, we will of course adapt. As 
State Climatologist, I'm heavily involved in defining and assessing 
climate-related impacts to our state and the resulting viability of our 
economy. Parts of my state are coping with the lowest rainfall in 100 
years. Sketchy records show a similar drought back in 1839-40. In 
general terms, changes in water supply are more important than changes 
in temperature, so dealing with rainfall variations is crucial for any 
society.
    When Alabama was also dry in 1988 I pinned my General Rule of 
Climate: ``If it happened before, it will happen again and probably 
worse.'' The point here is that by carefully examining what we know has 
happened in our past, add a little insurance, we will know how to 
reduce the negative consequences of events certain to occur in the 
future.
    In the case of our present drought, our farmers suffered severe 
losses, but Senator Sessions has included in the Farm Bill a provision 
to offer farmers Federal help in building environmentally sustainable 
impoundments to store our abundant winter water for use in the summer 
and thereby alleviate the terrible consequences. This is a perfect 
example of how climate observations serve as a foundation to inform us 
of the important variations that occur and what we can do to adapt.
    The situation is more precarious in the West where the current 6-
year drought pales in comparison to droughts of the past which lasted 
50 years.
    Make no mistake, the concentrations of some atmospheric greenhouse 
gases, especially carbon dioxide, are increasing. These added gases 
will affect the radiation budget of the atmosphere in a way that allows 
the earth's atmosphere and ocean to retain more heat energy. Increasing 
carbon dioxide, which is the basic building block of life, has other 
effects too, such as the invigoration of the biosphere which is 
manifested among other things in increased food production. But, as 
noted above, determining the climate impact of the total amount of the 
extra energy retained in the climate system due to additional 
greenhouse gases involves no simple or fully-understood calculation.
Energy Policy
    In closing, I want to draw attention to my Op-Ed contribution to 
The Wall Street Journal (attached) which suggests that various social 
and environmental policy options vying for our limited resources should 
be understood and prioritized for effectiveness. Regarding energy 
policy, it is simply a fundamental fact that energy has brought 
uncountable benefits to human life. Thus, the demand for energy will 
grow given (a) the deep human desire for its benefits and (b) the 
enormous pent-up demand for these benefits in the developing world.
    In my view, government's role is to support, as it currently does, 
the discovery of new sources of energy which address simultaneously 
several economic and geopolitical issues (e.g., energy security, 
balance of trade, economic resilience, air pollution (CO<INF>2</INF> is 
not a pollutant)) besides the marginal and uncertain consequences of a 
desire to ``do something'' about climate change.
    Making energy more expensive, whether by direct taxes (most 
effective in reducing energy use) or cap-and-trade schemes (around 
which business may cleverly skirt) is troublesome in my view. First, 
these represent regressive taxes as the poorest in our Nation 
proportionally spend more on energy than the rest of us. And second, as 
a manufacturer, who employs hundreds in an economically-challenged part 
of my state, told me last week, ``If my energy costs go up according to 
these proposals, I'm closing down and moving offshore.'' There is irony 
and tragedy in this path. The irony is that artificial increases in 
energy costs here will likely lead to an increase in greenhouse gas 
emissions because: (a) offshore plants have less stringent requirements 
all around and (b) the product we need will then require transportation 
(and even more emissions). The tragedy is that this will lead to 
further economic suffering in a part of my state where no more is 
needed.
    Please note, there is no guarantee at all that specific energy 
policies designed to deal with climate change will actually have the 
intended effect either in magnitude or sign. Will they produce more or 
less rain? . . . no one knows. However, energy policies which address 
other important issues mentioned above and which include the 
emphatically desirable goal of affordable energy, and also reduce 
emissions, are worth pursuing.
References
    Christy, J.R., W.B. Norris, K. Redmond, and K.P. Gallo, 2006: 
Methodology and results of calculating central California surface 
temperature trends: Evidence of human-induced climate change? J. 
Climate, 19, 548-563.
    Nghiem, S.V., I.G. Rigor, D.K. Perovich, P. Clemente-Colon, J.W. 
Weathery., and G. Neumann, 2007: Rapid reduction in Arctic perennial 
sea ice. Geophys, Res. Lett. 34, doi:10.1029/2007GL03113 8.
    Pielke Sr., R.A., C.A. Davey, D. Niyogi, S. Fall, J. Steinweg-
Woods, K. Hubbard, X Lin, M. Cai, Y.-K. Lim, H. Li, J. Nielsen-Gammon, 
K. Gallo, R. Hale, R. Mahmood, S. Foster, R.T. McNider, and P. Blanken, 
2007: Unresolved issues with the assessment of multi-decadal global 
land temperature trends. J. Geophys. Res. (in press).
    Roe, G. and M. Baker, 2007, Why is climate sensitivity so 
unpredictable? Science, 318, 629-632 [DOI 10.1126/science. 1144735]
    Spencer, R.W., W.D. Braswell, J.R. Christy and J.J. Hnilo, 2007: 
Cloud and radiation budget changes associated with tropical 
intraseasonal oscillations. Geophys. Res. Lett., 34, doi:10.1029/2007/
GL029698, 2007.
    Walters, J.T., R.T. McNider, X. Shi, and W.B. Norris: 2007: 
Positive surface temperature feedback in the stable nocturnal boundary 
layer. Geophys. Res. Lett. Doi:10.1029/2007GL029505.
                                 ______
                                 

          November 1, 2007, Page A19, The Wall Street Journal

                            My Nobel Moment

                           By John R. Christy

    I've had a lot of fun recently with my tiny (and unofficial) slice 
of the 2007 Nobel Peace Prize awarded to the Intergovernmental Panel on 
Climate Change (IPCC). But, though I was one of thousands of IPCC 
participants, I don't think I will add ``0.0001 Nobel Laureate'' to my 
resume.
    The other half of the prize was awarded to former Vice President Al 
Gore, whose carbon footprint would stomp my neighborhood flat. But 
that's another story.
    Both halves of the award honor promoting the message that Earth's 
temperature is rising due to human-based emissions of greenhouse gases. 
The Nobel committee praises Mr. Gore and the IPCC for alerting us to a 
potential catastrophe and for spurring us to a carbonless economy.
    I'm sure the majority (but not all) of my IPCC colleagues cringe 
when I say this, but I see neither the developing catastrophe nor the 
smoking gun proving that human activity is to blame for most of the 
warming we see. Rather, I see a reliance on climate models (useful but 
never ``proof'') and the coincidence that changes in carbon dioxide and 
global temperatures have loose similarity over time.
    There are some of us who remain so humbled by the task of measuring 
and understanding the extraordinarily complex climate system that we 
are skeptical of our ability to know what it is doing and why. As we 
build climate data sets from scratch and look into the guts of the 
climate system, however, we don't find the alarmist theory matching 
observations. (The National Oceanic and Atmospheric Administration 
satellite data we analyze at the University of Alabama in Huntsville 
does show modest warming--around 2.5 degrees Fahrenheit per century, if 
current warming trends of 0.25 degrees per decade continue.)
    It is my turn to cringe when I hear overstated-confidence from 
those who describe the projected evolution of global weather patterns 
over the next 100 years, especially when I consider how difficult it is 
to accurately predict the system's behavior over the next 5 days.
    Mother Nature simply operates at a level of complexity that is, at 
this point, beyond the mastery of mere mortals (such as scientists) and 
the tools available to us. As my high-school physics teacher admonished 
us in those we-shall-conquer-the-world-with-a-slide-rule days, ``Begin 
all of your scientific pronouncements with `At our present level of 
ignorance, we think we know . . .' ''
    I haven't seen that type of humility lately. Rather I see jump-to-
conclusions advocates and, unfortunately, some scientists who see in 
every weather anomaly the specter of a global-warming apocalypse. 
Explaining each successive phenomenon as a result of human action gives 
them comfort and an easy answer.
    Others of us scratch our heads and try to understand the real 
causes behind what we see. We discount the possibility that everything 
is caused by human actions, because everything we've seen the climate 
do has happened before. Sea levels rise and fall continually. The 
Arctic ice cap has shrunk before. One millennium there are hippos 
swimming in the Thames, and a geological blink later there is an ice 
bridge linking Asia and North America.
    One of the challenges in studying global climate is keeping a 
global perspective, especially when much of the research focuses on 
data gathered from spots around the globe. Often, observations from one 
region get more attention than equally valid data from another.
    The recent CNN report ``Planet in Peril,'' for instance, spent 
considerable time discussing shrinking Arctic sea ice cover. CNN did 
not note that winter sea ice around Antarctica last month set a record 
maximum (yes, maximum) for coverage since aerial measurements started.
    Then, there is the challenge of translating global trends to local 
climate. For instance, hasn't global warming led to the five-year 
drought and fires in the U.S. Southwest?
    Not necessarily.
    There has been a drought, but it would be a stretch to link this 
drought to carbon dioxide. If you look at the 1,000-year climate record 
for the western U.S. you will see not five-year but 50-year-long 
droughts. The 12th and 13th centuries were particularly dry. The 
inconvenient truth is that the last century has been fairly benign in 
the American West. A return to the region's long-term ``normal'' 
climate would present huge challenges for urban planners.
    Without a doubt, atmospheric carbon dioxide is increasing due 
primarily to carbon-based energy production (with its undisputed 
benefits to humanity) and many people ardently believe we must ``do 
something'' about its alleged consequence, global warming. This might 
seem like a legitimate concern given the potential disasters that are 
announced almost daily, so I've looked at a couple of ways in which 
humans might reduce CO<INF>2</INF> emissions and their impact on 
temperatures.
    California and some Northeastern states have decided to force their 
residents to buy cars that average 43 miles-per-gallon within the next 
decade. Even if you applied this law to the entire world, the net 
effect would reduce projected warming by about 0.05 degrees Fahrenheit 
by 2100, an amount so minuscule as to be undetectable. Global 
temperatures vary more than that from day to day.
    Suppose you were very serious about making a dent in carbon 
emissions and could replace about 10 percent of the world's energy 
sources with non-CO<INF>2</INF>-emitting nuclear power by 2020--roughly 
equivalent to halving U.S. emissions. Based on IPCC-like projections, 
the required 1,000 new nuclear power plants would slow the warming by 
about 0.2 degrees Fahrenheit per century. It's a dent.
    But what is the economic and human price, and what is it worth 
given the scientific uncertainty?
    My experience as a missionary teacher in Africa opened my eyes to 
this simple fact: Without access to energy, life is brutal and short. 
The uncertain impacts of global warming far in the future must be 
weighed against disasters at our doorsteps today. Bjorn Lomborg's 
Copenhagen Consensus 2004, a cost-benefit analysis of health issues by 
leading economists (including three Nobelists), calculated that 
spending on health issues such as micronutrients for children, HIV/AIDS 
and water purification has benefits 50 to 200 times those of attempting 
to marginally limit ``global warming.''
    Given the scientific uncertainty and our relative impotence 
regarding climate change, the moral imperative here seems clear to me.

    Senator Kerry. Thank you. Dr. Moss?

 STATEMENT OF RICHARD MOSS, Ph.D., VICE PRESIDENT AND MANAGING 
          DIRECTOR, CLIMATE CHANGE WORLD WILDLIFE FUND

    Dr. Moss. Thank you, Mr. Chairman. I'm Richard Moss, and I 
currently serve as Vice President and Managing Director of 
Climate Change for the World Wildlife Federation. From May 2000 
to February of 2006, a period spanning both the Clinton and 
Bush Administrations, I served as Director of the Office of the 
U.S. Global Change Program, and its successor, the U.S. Climate 
Change Science Program. Since 1993, I've also served in a 
number of capacities with the intergovernmental panel on 
climate change.
    At the outset, I want to thank you, Senator Kerry and 
Senator Snowe for your leadership in improving our scientific 
understanding of climate change, and particularly applaud your 
leadership in introducing the Global Change Research 
Improvement Act of 2007. I think the Act is a tremendous step 
forward in revitalizing our Nation's global change research 
capacity.
    I'd like to offer my comments on the Act, drawing on my 
experience in both Administrations, serving as the Director of 
the Coordinating Office.
    The bill, I think, is extremely important in that it adopts 
a comprehensive approach for providing integrated information 
that's going to be needed to cope with future changing climate 
conditions. I think it's wise that the bill incorporates a 
climate and global change signs, a climate service, technology 
assessment and the development of measuring and monitoring 
technologies and standards. I think all of these components are 
going to be essential if we are to identify the highest 
priority threats and opportunities, and provide information for 
implementation of adaptation and mitigation options. So, I 
think this comprehensive approach is extremely important.
    I also think it's extremely important to pay more attention 
to the needs of decisionmakers and to improve approaches for 
interacting with stakeholders. I think in this sense, it is 
extremely important that you've include the climate service, 
information on climate that is provided through such a service, 
can improve decisions so long as it's accompanied by 
information about associated uncertainty and technical 
guidelines for the proper uses and limits of the information. I 
think it's key to realize that no one should use any single 
model, but what you want to do is use a range of models that 
span uncertainty, and I do disagree, I think that models can be 
extremely important in guiding future decisionmaking.
    I would recommend to strengthen the provisions about 
interactions with users that one might consider creation of a 
council of users from lake, state, local, regional and Federal 
levels to actually provide input on research needs, and to 
create opportunities for improving interactions between users 
and researchers.
    On the structure of the program that you've outlined, I 
think it's very wise to continue the distributed, multi-agency 
program. I think this is the best option, and it does draw on 
the strengths of the existing agencies.
    I also think it's extremely important that the bill 
formalizes the existing informal program office, and that that 
will also help to improve program management, and budgetary 
coordination. But I think we heard this morning in the colloquy 
with Dr. Marburger, two central tensions that exist.
    I think on the one hand, there were concerns about the 
performance of the program that stem from decentralization. You 
have these different agencies, they each respond to their own 
stakeholders and their own process, it's sometimes difficult to 
get them all on the same page, moving to do something like 
produce a national assessment.
    On the other hand, once you centralize, you have a 
potential for political influences coming into the reporting of 
the science, and I think we also heard that in a tremendous 
number of comments, concerns about redacting of science in the 
Administration and so forth. I think that the program structure 
that's created needs to try to deal with those central 
tensions.
    I'm not yet convinced that the legislation putting the 
Program Office in the Office of Science and Technology Policy 
will, in fact, solve that problem. I think it might be 
interesting to look at some other ideas, including the 
possibility of something like an independent Commission, which 
could be non-partisan or bipartisan, long-term membership that, 
in fact, might provide a better guarantee about some of this 
concern about political influence over the reporting of the 
findings.
    It might also be a good idea to actually request something 
like the National Academy of Public Administration to work with 
the National Research Council in developing some detailed 
recommendations on that.
    Two other very quick points, I think that an important gap 
not filled by the bill is to provide dedicated funding for the 
assessment process, including for the researchers at 
universities, think tanks and laboratories, who actually give 
of their time, in many cases, as volunteers now to do this 
work. I think there might be some dedicated funding to help 
provide them support necessary to do it.
    And finally, I think that the amendments to the Act should 
also be looking at communications and public education, and 
insisting there actually be an explicit strategy prepared. We, 
right now, in the old legislation have something called the 
Global Change Research Information Office, which has been 
extremely useful, but I would recommend actually looking to 
beef that up, it's extremely important to carry the information 
out to the public.
    So, in conclusion, I'd just like to thank you again for the 
opportunity to testify, and for your leadership in putting this 
great bill together.
    Thank you.
    [The prepared statement of Dr. Moss follows:]

   Prepared Statement of Richard H. Moss, Ph.D., Vice President and 
         Managing Director, Climate Change, World Wildlife Fund
    Chairman Inouye, Ranking Member Stevens, and Members of the 
Committee, and in particular Senator Snowe: thank you for your 
invitation to address the Committee today on the important topic of ``A 
Time for Change: Improved Federal Climate Research and Information 
Program.''
    I am Richard H. Moss, and I currently serve as Vice President and 
Managing Director, Climate Change, for the World Wildlife Fund. From 
May 2000 to February 2006 (a period spanning both the Clinton and Bush 
Administrations) I served as the Director of the Office of the U.S. 
Global Change Research Program (GCRP) and, as it was subsequently 
renamed, the U.S. Climate Change Science Program (CCSP). The USGCRP/
CCSP involves 13 Federal agencies conducting and overseeing Earth 
system observations, scientific research, computer simulations, and 
evaluation of possible adaptation and mitigation actions to address 
climate change. Since 1993, I have served in a number of capacities 
with the Intergovernmental Panel on Climate Change (IPCC), including 
Director of the Technical Support Unit of the Working Group on Impacts, 
Adaptation, Vulnerability and Mitigation (from 1993-1998), the 
coordinating lead author (with Dr. Stephen Schneider of Stanford 
University) of the first IPCC guidance document on characterizing and 
communicating uncertainty, and as lead author or editor of a number of 
IPCC reports related to impacts, adaptation, and mitigation. I 
currently chair several IPCC task groups related to the preparation and 
use of scenarios and other climate information.
    WWF is the largest private conservation organization working 
internationally to protect the world's wildlife, rich biological 
diversity and the ecosystems upon which they depend. We currently 
sponsor conservation programs in more than 100 countries, thanks to the 
support of 1.2 million members in the Unites States and more than 5 
million members worldwide. We seek to address the threat of climate 
change through our work in field programs that stretch from the Arctic 
to Antarctica; our work with corporations seeking to transform their 
business practices; our work with communities throughout the world 
attempting to maintain their livelihoods; and our work with governments 
in the U.S. and abroad in shaping policies for reducing greenhouse gas 
emissions and strengthening resilience and adaptive frameworks.
    At the outset, I want to thank Senators Kerry and Snowe for their 
longstanding leadership on addressing the need to improve our 
scientific understanding of climate change, which is so critical in 
shaping the policy decisions with which Congress is now grappling. In 
particular, I applaud their leadership for introducing S. 2307, the 
Global Change Research Improvement Act of 2007. This bill tackles the 
important issues of amending the Global Change Research Act, 
establishing a national climate service, and establishing initiatives 
to address technology-related aspects of climate-change.
    My testimony today provides my views about the current state of the 
Climate Change Science Program, its milestones, and how the program 
needs to be improved and amended in light of current knowledge and 
events. My testimony also offers my thoughts specifically on S. 2307 in 
terms of addressing those needs, along with some recommendations for 
further improving S. 2307. My comments are drawn from the specific 
perspective of my experience as Director of the Office of the GCRP and 
CCSP under two Administrations, as well as my experiences with the 
IPCC, particularly related to characterization and communication of 
scientific uncertainty.
I. Background
    I.1. The Global Change Research Act of 1990 is in need of 
significant updating. Our understanding of climate science has 
progressed significantly since 1990. The IPCC has concluded that there 
is better than a 9 in 10 probability that these changes are the result 
of human activities. Research to project future changes in climate and 
their potential implications is also advancing. Perhaps more 
importantly, our view of how to conduct problem-oriented research on 
global change has also evolved toward a model in which researchers and 
users of research information interact more closely in defining 
research questions and applying the results. This approach is essential 
for more rapidly incorporating knowledge into decisionmaking. Finally, 
our understanding of how to effectively run an interagency science 
program like the GCRP has improved, given our experiences with the 
program over the past 17 years. Our different understanding of what 
constitutes effective research and specific lessons about how to manage 
the program provide a basis for changes that must be incorporated into 
the amended Global Change Research Act.
    I.2. A multi-agency approach to research is still appropriate. The 
multi-agency organization of the GCRP makes sense because essential 
capacities for research are widely distributed across a number of 
government agencies. Each agency has different specialized 
capabilities, networks and relationships with the external research 
community that enable it to conduct focused research and activities at 
greater depth than would be the case in a single program attempting to 
cover all facets of global change. Moreover, it would be 
counterproductive to attempt to consolidate these different 
capabilities in one specialized climate research agency. We would lose 
a great deal of time that we don't have to waste.
    I.3. The single most important management challenge for the future 
is balancing the need for greater central political authority to 
achieve programmatic and budgetary integration with the need to ensure 
the actual and perceived independence of the program's research and 
assessment reports from political influence. While a distributed 
program taps the strengths and research capacity of powerful Federal 
agencies, it makes it more difficult to integrate program plans and 
budgets. Each agency responds to the requirements of its own mission 
and stakeholders, and makes program and budget decisions through 
different processes, and according to somewhat different schedules. 
Thus it is essential to provide for effective administrative and 
budgetary authority to ensure that agencies coordinate their plans and 
work to eliminate gaps and overlaps in program. Sufficient central 
authority is also required for implementation of program-wide 
activities that require coordination, such as a national assessment. 
While it would initially appear that a logical place to centralize this 
authority is within the Executive Office of the President (EOP), 
specifically the Office of Science and Technology Policy (OSTP) and the 
Office of Management and Budget (OMB), giving an increased role to the 
EOP also opens the door to political influence in the reporting of 
research results. The failure to disseminate the findings of the U.S. 
National Assessment of the Consequences of Climate Variability and 
Change is a prime example of this sort of political influence on the 
work of the GCRP agencies. This central tension between the need for 
centralized authority and freedom from political influence must be 
better managed if the GCRP is to succeed in its mission.
    I.4. A comprehensive approach for providing integrated information 
on energy use/emissions, climate system response, impacts, adaptation, 
and assessment of mitigation potential is required to cope with 
changing future conditions. Climate change and measures to respond to 
it will touch many aspects of the environment, society, and the 
economy. The decisions we make in the coming decades will determine the 
extent of future climate change and the degree to which we successfully 
adapt. A comprehensive national global change research enterprise that 
provides for climate and global change science, a climate service, 
technology assessment, and development of measurement and monitoring 
technologies and standards is needed to identify the highest priority 
threats and opportunities, to deliver useful information in a timely 
fashion, to compare the relative strengths and weaknesses of different 
response options, and to provide vital information for implementation 
of responses. WWF looks forward to working with Congress to further 
refine this comprehensive approach to ensure that it is capable of 
informing tradeoffs and realizing synergies between adaptation and 
mitigation options.
    I.5. It is vital to pay more attention to the needs of 
decisionmakers and to improve approaches for interacting with 
stakeholders. There is increased public concern about the consequences 
of climate change and thus a significant demand for data, information, 
models, and tools to help decisionmakers and resource managers cope 
with the increased risks. The CCSP's Synthesis and Assessment Products 
(SAPs) were intended to meet a particular set of information needs 
identified by Bush Administration decisionmakers, and they will 
constitute a valuable resource when completed. They were never, 
however, intended to constitute a ``national assessment'' of 
consequences of climate change for the United States. Technical 
planning for the next such assessment should be undertaken by the 
program as soon as possible. The CCSP strategic plan calls for 
development and use of research-based tools to support ``adaptive 
management.'' In developing these resources, GCRP agencies have built, 
to some extent, on the legacy of the previous national assessment. 
NOAA's Regional Integrated Sciences and Assessment (RISA) Program is an 
excellent example of a program that has successfully integrated 
sustained interaction with stakeholders into a research framework. 
Ensuring that stakeholders have continued access to research teams has 
led to improved communication of scientific results and improved 
sensitivity of research agendas to the evolving needs of decisionmakers 
attempting to incorporate climate change into management and planning. 
But there is an unprecedented opportunity to build on the GCRP's past 
accomplishments and to significantly improve and increase the Federal 
research effort to provide ``decision support'' to resource managers 
and other stakeholders around the country.
    I.6. There must be balance between the need for increased attention 
to the information demands of the public and decisionmakers, and the 
need to allow researchers to define a research agenda that addresses 
what they believe to be the most important scientific uncertainties. 
While a consensus about human-caused climate change has emerged, 
investigator-driven research is required to make progress on many 
issues, including abrupt climate change, extreme events and climate 
change, regional manifestations of climate variability and change, and 
climate-carbon-cycle interactions, to name a few key areas.
    1.7 The GCRP must adequately support needed observations, climate 
research, and resources for decisionmaking. No amount of good 
management can compensate for inadequate resources. While the Bush 
Administration should be given credit for maintaining resource levels 
during its first term, even in the wake of increased security spending 
following the 9/11 attacks, recent budgets have fallen short, 
especially in light of the increased demands on the program to 
accelerate research, complete the SAPs, and provide additional decision 
support products. Additional funding must be provided so that the 
preparation and provision of needed science is not jeopardized.
II. Analysis and Recommendations
    II.1. S. 2307 is a tremendous step forward in revitalizing our 
Nation's global change research capacity. I commend Senators Kerry and 
Snowe for their leadership. During my testimony I point to what I 
consider the strengths of the bill, as well as to opportunities where 
it can be further strengthened. I am an extremely enthusiastic about 
the legislation, and my suggestions for improvement in no way indicate 
a lack of support. With that in mind, here are my recommendations.
    II.2. The establishment in Section 102 of Title I of the Committee 
on Global Change Research provides a good foundation for the program. 
The proposed structure of a senior-level interagency committee with 
representatives of sufficient authority to allocate budgetary resources 
to meet program needs is appropriate. However, a stronger mechanism for 
budgetary coordination and integration needs to be identified.
    II.3. S. 2307 helpfully formalizes the existing informal program 
office to help manage the program and achieve budgetary coordination. 
The program office should be staffed by individuals with expertise in 
the key research areas being addressed by the program and should be 
tasked with leading interagency coordination to prepare a draft 
strategic plan, annual program plans, reports, and budgets. It should 
report to the senior interagency committee responsible for overall 
decisionmaking. It is important to consider whether placing the program 
office within the Office of Science and Technology Policy of the White 
House is the best option. While this may give the office greater 
authority to manage and coordinate the program across the agencies, it 
increases opportunities for political influence and thus potentially 
reduces the perceived credibility of research reports and assessments 
produced by the program.
    II.4. Beyond this, further clarification is required regarding the 
structure of the program and its top-level management to ensure that 
the tension between needed programmatic authority and scientific 
integrity is well managed. Because of the need for unbiased, credible 
research information, it is essential to carefully consider what 
management structure will most effectively create needed central 
authority while also protecting actual and perceived political 
independence of the program. The legislation should call for a study of 
options for organizing government-sponsored research in a multi-agency 
setting that creates adequate authority for program and budget 
integration but that also ensures scientific integrity. Such a study 
could examine the potential role of OMB, OSTP, the proper location of 
the integrated program office, and the establishment of incentives that 
reward interagency cooperation, among other issues. The National 
Academy of Public Administration and an appropriate panel of the 
National Research Council could be called upon to collaborate on such a 
study. A public review period would be essential and would provide 
researchers and other stakeholders with an opportunity for input. 
Ideally, the panel should report its findings 6-9 months after 
enactment of the legislation. Assuming the legislation passes this 
year, the panel's report and public review comments will then be 
available for the use of transition teams and ultimately by the next 
Administration.
    II. 5. The legislation should propose creation of a high-level, 
independent, non-partisan oversight mechanism. Section 113 of Title 1 
(``Scientific Communications''), which calls for agencies to adopt 
policies that ensure scientific independence of their investigators, 
will not be sufficient to guard against political influence in program-
wide activities and products such as a national assessment. The 
National Academy of Sciences (NAS) has successfully provided guidance 
to the GCRP/CCSP, reviewed specific reports, and commented on the 
quality of research plans and products developed by the program. It has 
not been asked, nor is it particularly well placed, to serve as a 
``watchdog'' of the independence of the program from political 
influence. Financial support for the NRC's activities should be 
provided outside of direct grants from USGCRP agencies to minimize 
perceived or actual exertion of influence over NAS reviews. One 
possible model for the Committee to consider is that of the independent 
commission. The rationale for establishing independent commissions 
includes the assumptions that: (1) long-term appointment of 
commissioners would promote stability and develop expertise, (2) 
independent status would insulate them from undue economic and 
political pressures, and (3) commissioners with different political 
persuasions and interests would provide diverse viewpoints. WWF would 
be eager to work with the Committee members and staff to help develop 
an appropriate structure.
    II.6. Given the need of decisionmakers for information, especially 
in light of continuing and in some cases irreducible uncertainties, it 
is appropriate for S. 2307 to launch a national climate service. The 
proposal for a national climate service recognizes the importance of 
climate variability and change for public safety, the environment, 
natural resources, human health, and even national security. 
Information on the state of the climate through such a service can 
improve decisions so long as it is accompanied by information about 
associated uncertainties and technical guidelines for the proper uses 
and limits of the information. The approach will bring needed focus 
among disparate programs and seems workable provided that the research 
program and climate service mandate a close link between the climate 
service and the GCRP. Research must inform the activities of the 
climate service, and user-driven questions and information needs should 
be used to stimulate scientific exploration and discovery. The 
relationship between the activities of the climate service and decisio- 
support programs within the GCRP (such as the national assessment and 
development of tools for adaptive management) will need to be 
clarified.
    II.7. S. 2307 effectively balances the tension between the needs of 
the public and decisionmakers for research information and the 
opportunities for scientific discovery afforded by a research agenda 
defined by the science community. Section 108 of Title I establishes a 
provision for supplemental research grants to priority areas not being 
adequately addressed by the participating Federal agencies. This is an 
excellent addition to the program that can be further strengthened by 
specifying that disbursement of these funds should be determined by an 
interagency committee of senior science program managers, with review 
by the senior interagency committee, and with administration of the 
funds by one of the participating Federal Agencies. This is similar to 
an approach to funding employed in the National Oceanographic 
Partnership Program. Paragraph 3A and B of Section 108 call for 
administering these funds through the Science and Technology Policy 
Institute. According to the Institute's website, http://www.ida.org/
stpi/index.html, the Institute is part of the Institute for Defense 
Analyses, which has no obvious expertise or experience in global 
change, and thus may not be the most appropriate choice.
III. Additional Recommendations
    III.1. The timing of the preparation of the strategic plan for the 
Global Change Research Program and the ``plan of action'' for the 
National Climate Service should be revised. Title I, Section 105 of 
S2307 amends Section 104 of the 1990 Act to require a Strategic Plan 
for the 10 year period beginning in 2008 and requires that the plan be 
submitted within 1 year of passage of the act. However, it does not 
make sense to have the program develop a plan under this Administration 
but deliver that plan to the following one. This should be changed so 
that the Strategic Plan covers the 10 year period beginning in 2011 and 
that the plan be submitted to Congress no later than 1 January 2010. 
This would give the incoming administration input to the plan. The 
current research plan, while in need of updating, can continue to 
provide effective guidance in research program development. The ``plan 
of action for the National Climate Service'' (p. 29 of the bill) should 
be on a similar schedule. Instead of developing a new strategic plan at 
this time, the CCSP should concentrate on completing the existing SAPs 
and initiating technical planning for scenarios and other elements for 
the next national assessment.
    III.2. S. 2307 should mandate further improvements in the reporting 
of uncertainty of products of the research program and climate service. 
A key requirement of all activities supported under S. 2307 should be a 
commitment to characterize and communicate uncertainty so that 
decisionmakers understand the level of confidence and explanations for 
why a particular piece is uncertain. Improving communication about 
uncertainty and its implications for decisionmaking will require close 
interaction between producers and users of the information developed. 
While the Climate Change Science Program has endeavored to improve its 
approach to uncertainty, further attention is required (see SAP 5.2, 
``Best practice approaches for characterizing, communicating, and 
incorporating scientific uncertainty in decisionmaking,'' http://
www.climatescience.gov/Library/sap/sap5-2/default.php).
    III.3. A ``User Council'' should be created to provide input on 
research needs and to create opportunities for improving interactions 
between researchers and users. A ``user council'' or similar body 
should be created and empowered to provide input on directions as well 
as to provide funding for user-oriented programs and products. The 
Council needs to involve users at the local, state, and regional 
levels, drawing on representatives from the private sector, non-
governmental organizations, and government entities. Mission-oriented 
Federal agencies (e.g., USDA, DOI, etc.) should also participate in the 
user council. In general, the program should improve the delineation of 
roles between agencies that are predominantly research oriented (e.g., 
NSF, NASA, DOE, parts of NOAA) and those that are mission oriented and 
thus key user stakeholders.
    III.4 An important gap not filled by S. 2307 is to provide funding 
for researchers at universities, think tanks, and laboratories to 
participate in future assessments and decision support activities. In 
the past, many scientists and other experts have volunteered their time 
for these assessments. But as the need for both international and 
national decision support increases, failure to provide such dedicated 
assessment resources will have a negative impact on the quality of 
research and decision support. There is only so much assessment 
researchers can be expected to do in their free time. Providing 
assessment funding will enable researchers to engage graduate students 
and additional technical experts under their supervision. This could 
also contribute to training the next generation of researchers who are 
able to participate in decision support activities.
    III.5. The existing Act should be amended to explicitly call for 
development and funding for an overall communications and public 
education strategy for the program. Without an explicit mandate for 
such activities, it is almost impossible to obtain approval for 
communications and education activities in the President's budget. And 
without support for communications and education activities, the 
efficiency of transmitting climate change information to potential 
users throughout the Nation will be seriously diminished. Section 204 
of the 1990 established the Global Change Research Information Office. 
This bill should seek to strengthen this function through a review of 
communication needs and provision of mandated funding.
    III.6. Abrupt climate change should be considered within the Global 
Change Research Program, not in a separate program under NOAA. Section 
501 of Title V calls for establishment of a research program on abrupt 
climate change with the Office of Oceanic and Atmospheric Research of 
NOAA. This research is closely related to other research topics in the 
broad area of climate variability and change and should be integrated 
into the overall global change research effort.
IV. Conclusion
    In conclusion, Mr. Chairman and Members of the Committee, I would 
like to again thank you for the opportunity to testify before you today 
on this important issue, and to commend you on your leadership in 
introducing and entertaining views on S. 2307. WWF stands ready to work 
with you and your staff on advancing this essential legislation in the 
coming weeks and months, and working with you on the vital efforts 
needed to address climate change in the years ahead.

    Senator Kerry. Well, we appreciate all of you testifying, 
and you've had some important contributions to this question of 
science, of the assessments and coming from different places, 
which is important in that regard.
    Just a few questions then I want to turn to my colleagues, 
and then maybe I'll ask a few more at the back end.
    But, do all of you support the notion that we ought to be 
able to get this report done, and we ought to be aiming to get 
a national assessment done within a 4-year period. Is there 
something, I mean, wrong in that? There's sort of been these 
assertions, ``Well, it's long, it's big, it's complicated,'' 
you mentioned at the opening, I think, Dr. Boesch, that the 
IPCC does this and, you know, it's big global effort, et 
cetera. So, I just want to have everybody on record--should 
this be done in 4 years, and can it be done in 4 years? It's 
important to have it in every 4 years, yes or no?
    Doctor?
    Dr. Boesch. Yes, yes, Senator, given the speed at which 
we're developing knowledge, and we're seeing consequences 
already, that's a required time stamp.
    Senator Kerry. Dr. Davis?
    Dr. Davis. I believe so, yes sir. I think that's an 
important time period to keep.
    Senator Kerry. Dr. Carter?
    Dr. Carter. Yes, I think it's critically important, for 
lots of reasons.
    Senator Kerry. And doable.
    Dr. Carter. It's doable, yes. It's work, but it's doable.
    Senator Kerry. Dr. Christy?
    Dr. Christy. Well, science just doesn't quite work like 
that. I was on the Climate Change Science Program the first 
panel, and I would say there's quite a bit of stuff in there 
that's already out of date, because of that. So, in that sense, 
you would want to have almost a webpage update, because science 
changes so fast like this. Kind of official updates----
    Senator Kerry. In other words, 4 years is not unreasonable, 
and we ought to be staying at that rate or faster?
    Dr. Christy. It moves fast.
    Senator Kerry. Dr. Moss?
    Dr. Moss. I believe science evolves very quickly, and what 
we're getting here is a 4-year snapshot to apply that new 
information to new concerns and questions as they come up. So, 
yes.
    Senator Kerry. Let me start with you and go back the other 
way on this issue of the budget. Is the budget adequate, and if 
not, by what degree do you believe--what would be adequate in 
your judgment as to what we ought to be doing as an increase in 
the science effort nationally?
    Dr. Moss. It's all, all kind of back-of-the-envelope 
calculations, but I think to include all of the provisions that 
you've included in the draft legislation, I think you'd need at 
least a doubling.
    Senator Kerry. Dr. Christy?
    Dr. Christy. I'm not familiar with the bill, but I do agree 
with what Richard said about, those of us who are working 
stiffs who participate in the program, and have no funding, or 
a way to cover our time--I like that part of it.
    Senator Kerry. Dr. Carter?
    Dr. Carter. I really can't speak to the budget, Senator.
    Dr. Frumhoff. I think it's critical that the budget both 
support the research and the dissemination and outreach and 
engagement of stakeholders. I can't speak to whether it's 
sufficient, as it's currently written, but the budget 
implications for outreach are not insignificant, and should be 
given significant attention.
    Dr. Davis. I'd be happy to go back to the Coastal States 
and get some comments on the budget, in terms of the priorities 
we've recently identified.
    Senator Kerry. That would be helpful. I think, we would 
appreciate that input from the States.
    [The information previously referred to follows:]

                   Response from Dr. Braxton C. Davis
    We appreciate the opportunity to offer testimony on the importance 
of climate change research to state and local resource managers, and 
strongly support the climate change research and monitoring activities 
through the Global Change Research Act. During the hearing, Senator 
Kerry asked each panelist if the overall budget authorized in the bill 
was ``adequate, and if not, by what degree do you believe--what would 
be adequate in your judgment as to what we ought to be doing as an 
increase in the science effort nationally?''
    Based on continued discussions of the bill with state-level 
resource managers and delegates to the Coastal States Organization, we 
would like to re-emphasize the importance of research concerning the 
unique and significant impacts of climate change in coastal areas of 
the United States, where communities and natural resource-based 
economies are especially vulnerable to accelerated sea level rise and 
lake level changes, shoreline erosion, increased storm frequency or 
intensity, changes in rainfall, and related flooding. Other impacts may 
include changes in chemical and physical characteristics of marine 
systems, saltwater intrusion into groundwater aquifers and coastal 
rivers, increased harmful algal blooms, spread of invasive species, 
habitat loss (wetlands and coral reefs), species migrations, and 
changes in population dynamics among marine and coastal species.
    State and local managers have immediate research and information 
needs in order to respond to these threats through adaptation planning 
and implementation. However, research conducted at the Federal level 
often cannot be applied at the scale of state and local decisionmaking 
and planning. To meet these state and local needs, we respectfully ask 
that S. 2307 incorporate two key elements in relation to the general 
budget:

        1. Federal research grants authorized under the bill should 
        include a requirement for engaging state and local resource 
        managers in the planning phases of proposed research, through 
        project completion, to ensure that the findings are relevant at 
        the appropriate spatial scales for decisionmaking and planning, 
        and take advantage of (and avoid duplication of) state and 
        local research and data collection efforts already underway.

        2. Under the newly authorized NOAA National Climate Service, we 
        request an authorization for research grants to states, 
        territories, and commonwealths in the amount of $10,000,000 
        each year to support partnership proposals from NOAA-supported 
        state coastal programs (Coastal Zone Management programs, Sea 
        Grants, and National Estuarine Research Reserves), in 
        coordination with Federal agencies involved in climate change 
        research under the GCRP, to carry out state and local-scale 
        research and data collection efforts in the following areas:

                a. data collection and research related to sea level 
                rise (or lake level changes) and related inundation, 
                erosion, flooding, and storm impacts;

                b. habitat loss, including effects on tidal wetlands;

                c. invasive species introductions, species and 
                ecosystem migration;

                d. saltwater intrusion and changes in estuarine 
                conditions; and

                e. other coast-specific climate change impacts.

    Thank you again for the opportunity to help inform the Committee on 
the importance of climate change research to state and local resource 
managers.

    Dr. Boesch. Given the requirements to deal with the 
deficiencies that we're looking at in terms of the observing 
systems, the satellites, in particular, given the need to 
bolster the regional scale research and assessments, I would 
think that Dr. Moss's experience with the evolution of the 
program, I would trust his judgment, and that should be, sort 
of, a goal that we're headed toward, very quickly.
    Senator Kerry. Well, let me just say to all of you that 
from my perspective, and I think Senator Stevens, and I know 
Senator Snowe would share this--I think, in fact, I'm confident 
Senator Stevens would--I mean, the decisions we've been trying 
to make about fisheries over the last 25 years have been 
lacking in science. And, if you look at all of these other 
decisions we're trying to make, it's critical to have as much 
of, and the best science possible to determine cause and 
effect, connect the dots, and have the best picture possible.
    And, we're so far--just stunningly far from doing that. I 
mean, in terms of lakes, rivers, streams, monitoring, regular 
monitoring, knowing, tracking, it's shocking to me, frankly, 
how blind we are flying with respect to some of this. So, I 
think it's one of the most critical areas of our research 
augmentation we ought to be doing, and ought to be more urgent. 
Senator Stevens?
    I'm going to come back afterwards.
    Senator Stevens. I do appreciate all of your testimony.
    As I mentioned at the beginning, we are spending more, or 
have spent more than any nation on earth. If we are to increase 
the budget, what do you want to cut out? We are spending that 
money already, it has not gotten you the answers. Do you want 
more money? I say to you, no one else in the world is spending 
the kind of money we are spending now. What portion of the 
science base we are supporting now would you not support in 
order to go into this?
    Senator Kerry. Well, why don't you describe what you need 
to do, why you need more money, what's the money going to do?
    Senator Stevens. Yes.
    Dr. Moss. Well, I think it's already been pointed out that 
there are serious gaps and problems in observing systems, I 
think those are going to be expensive to fix, but they have to 
be fixed, because as Dr. Christy pointed out, once we lose the 
continuous record, that's gone forever. We may be able to come 
back with a new satellite or something, but it's not going to 
be that continuous record, which from a climate perspective is 
extremely important.
    Senator Stevens. I agree, absolutely, with what Dr. Christy 
said. I also agree we need something like a red team, we need 
someone to assess what is going on now, that is not giving us 
the information we need. Why should we continue to spend money 
on that, and then add what you want now, to the budget that is 
already greater than any nation on earth?
    Dr. Moss. I would respectfully disagree that the program is 
not giving us information we need now, I think it is giving us 
a lot of information. I think if you look, for example, at 
climate modeling, there are certainly still deficiencies, but 
we've made tremendous progress, and I credit the Bush 
Administration for a lot of that, because when they came into 
office in 2001, there were still problems with the modeling 
system, and they've devoted the resources to help fix that. So, 
I think there are improvements underway.
    I think it's, we've also heard from the National Academy of 
Sciences that there is a need to improve the regional research, 
and the kinds of work that's done to help bring the 
implications of climate change to people who are living in the 
regions, and trying to live and work there, and make decisions.
    Senator Stevens. I agree with your assessment about trying 
to assist to correct the models we have had in the past, but I 
go back further than that. It was 30 years ago we started the 
International Arctic Research Commission. We have had people 
out getting, collecting data every year for 40 years. They have 
come to some conclusions, and they have published those 
conclusions. They are internationally-known climatologists from 
3 different countries and our scientific community completely 
ignores them.
    I do not understand why. I do not understand why the 
scientific community in this country has ignored the advice of 
the climatologists who have dedicated their lives, and a lot of 
Federal money, a lot of Japanese money, and a lot of Canadian 
money to their studies.
    As Dr. Christy points out, yes, there is a lot less ice up 
our way right now, but there is a tremendous increase in ice in 
Antarctica. No one, at all, has addressed that, in all of the 
things I have heard from our scientific community.
    I know it is going to cause problems for us in the future 
if that ice does not come back. The prediction of the 
climatologists is, it will come back. There are other reasons 
for the ice disappearing right now, particularly the 
oscillations of the Pacific and the Atlantic, and the warm 
water that was dumped into the Arctic Ocean for 5 years in a 
row.
    Under those circumstances, every one of you has said give 
us more money. I was Chairman of the Committee that gave you 
more money, for 8 years. Now, the answer is, just give us more 
money, for more science. I have really got to tell you, I think 
the scientific community has to tell us, what have we been 
doing now that is wrong, and stop doing it, and find out what 
we should do right and assist in using the money we have 
available to pursue that new course?
    Dr. Moss. Well, again, I would just have to disagree, I 
don't think we've been wasting money at all, I think we've made 
tremendous progress, and I think you yourself, among others, 
have pointed out how complex the climate system is. There are 
different scales of natural variability that are underway, 
we've identified a number of these oscillations, El Nino, a 
Pacific decadal oscillation, a North Atlantic oscillation that 
operates on even longer time scales, perhaps as yet others, 
undiscovered, these are all important.
    We also see the fact that humans are really intervening 
very sharply in the climate system, that's going to have an 
effect on these natural cycles, these things occur in different 
periods, in different phases, we don't always know how they add 
up. So, you have to look at this from a long-term perspective. 
We can't solve this problem in 8 years.
    Furthermore, I think it also points to the importance of 
these periodic assessment reports, including the one that we 
have not yet started, under this Administration to look at the 
consequences of climate change, because as Dr. Christy and all 
of us will point out--science moves quickly, you have to look 
at what's available in 2004, and 2008, and 2012--there will be 
better information each one of those years, that information 
needs to be assessed and then applied to decisionmaking.
    Senator Stevens. Along with these, I have to tell you, we 
had a typhoon off of Rangle Island, which is the tip of Russia, 
across the Bering Straits from us. The ravages of that typhoon 
hit at least 19 villages along our coast, and put 9 into direct 
danger, right now, they are still in danger.
    We have, so far, received a total of $10 million to help 
those people out there, and in each instance, there had to be 
an environmental impact statement made before they did anything 
to help those villages.
    When Katrina came along, I helped get Katrina about $140 
billion. There were no environmental impact statements 
required. The area that has suffered the worst, I think, in the 
world, has been Alaska Arctic from this global warming. Yet, we 
want more study of what might happen in the future, and right 
now, we cannot deal with the present. Because we are not doing 
anything to help them.
    I am going up again to hold meetings next Monday on the 
erosion problems that occurred 3 and 4 years ago. Now, I think 
we ought to find out a little bit better about why the amount 
of money we have put up in the past has not given us the 
information we need right now to predict the future.
    Thank you very much, Mr. Chairman.
    Senator Kerry. Thank you, Senator Stevens.
    One thing I might just comment, Senator Stevens, and I 
think you're aware of this, that a lot of the science starts 
down a certain road and people lay out certain projects and 
certain, you know, protocols, pedagogies for the approach to 
something, but then the budgets get cut. And the fact is, we've 
gone down----
    Senator Stevens. Eight years we've increased it, and they 
are operating on levels of----
    Senator Kerry. Yes, but the overall climate budget, the 
overall climate budget in 2004, fiscal year, was $2 billion.
    Senator Stevens. That is up from about $200 million under 
President Clinton.
    Senator Kerry. It's gone down now.
    Senator Stevens. President Clinton had about $200 million.
    Senator Kerry. I'm not getting into where we were with 
President Clinton----
    Senator Stevens. I raised it up there to about $200 
million.
    Senator Kerry. My argument is not relative to where we were 
with President Clinton, it's relative to where we have been 
ourselves, and where we ought to be today.
    Senator Stevens. The money is there to do what they want to 
do, if it had been used right.
    Senator Kerry. Well, I can't--I know that across the board, 
the reductions are having an impact, and we're losing 
satellites, and losing measurements. But we can take that up at 
another time.
    Senator Snowe?
    Senator Snowe. Thank you, Mr. Chairman.
    I want to thank all of you for your outstanding testimony.
    Dr. Moss, you made a number of recommendations, and I 
appreciate that, to our legislation. One of which was to 
strengthen scientific integrity, because there is a tension 
that exists between the programmatic authority and scientific 
research and those engaged in it, as we have seen in the past.
    What would you recommend? One of the ideas you suggested is 
examining the potential role of various agencies, such as the 
Office of Science and Technology which is where we place this 
program, or OMB. Could you elaborate on your thoughts on that?
    Senator Kerry. And before you do, if I could just comment, 
because I have to, I unfortunately have to be somewhere in a 
moment. Senator Snowe can close this out.
    I just wanted to thank you, personally, all of you for 
coming. We'll leave the record open for 2 weeks, in case 
colleagues have questions and we want to submit further 
questions in writing.
    Senator Snowe, thank you.
    Senator Snowe. Thank you.
    Dr. Moss. Thank you, I'd also just like to suggest that 
there's a budget chart which could be read into the record from 
the U.S. Global Change Research Program, and Climate Change 
Science Program Office that actually describes the decline in 
funding since 2004, basically, going down from about a high of 
$2 billion at that point, now to just about $1.5 billion. So, I 
think that does substantiate that there's not been a kind of 
steady increase in the funding, and that's probably an 
important thing to put into the record.
    [The information previously referred to follows:]
Budget of the U.S. Climate Change Science Program/Global Change 
        Research Program Fiscal Years 1989-2008, by agency, Constant 
        2005 Dollars
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    USDA: U.S. Department of Agriculture. DOC/NOAA: Department of 
Commerce/National Oceanic and Atmospheric Administration. DOE: 
Department of Energy. DOT: Department of Transportation. USAID: U.S. 
Agency for International Development. EPA: Environmental Protection 
Agency. HHS: Department of Health and Human Services. DOI/USGS: 
Department of Interior/U.S. Geological Surevey. NASA; National 
Aeronautics and Space Administration. NSF: National Science Foundation. 
SI: Smithsonian Institution.

    Dr. Moss. My thoughts, Senator Snowe, on the organization 
of the program is that right now, the Program Office--while not 
formalized the way you suggest, and I think that is an 
important change--does report basically in through the Office 
of Science and Technology Policy and the Office of Management 
and Budget, and we can still see the continuing concerns, both 
about program performance, and about the independence of the 
science that's done.
    So, I think--my own thought was that we might ask something 
like the National Academy of Public Administration to work with 
the National Research Council to examine a variety of models 
that are out there, including the possibility of an independent 
Commission, which would clearly take out of this operation of 
the program, the potential for political influence, or at least 
would establish some kind of a watchdog function to make sure 
that it doesn't happen.
    Because, I think it really hurts the science, each time one 
of these things gets out. Even though it's--you know, the 
testimony we just heard about being redacted--unfortunately 
what it does is it, it calls into the question in the minds of 
the public anything that the science program then produces. 
``Ah ha, is that something else that's been messed with and 
changed as a result of political influence?''
    So, it seems to me, if we're making such an investment in 
this area we really owe it to the taxpayers to try to protect 
it, and ensure that what the science says, in fact, is what 
comes out.
    Senator Snowe. It is an interesting suggestion, one we will 
certainly talk to Chairman Kerry about. It is certainly well-
worth pursuing.
    Anybody else here care to comment on that? Agree, disagree? 
You all agree?
    Dr. Frumhoff. Senator Snowe, I strongly agree that we need 
to look hard at appropriate mechanisms to ensure the integrity 
of the science as effectively represented through this work, 
and I'm not sure the bill quite gets us there yet.
    Senator Snowe. OK. That is something we really should look 
at in that respect, before we pass this legislation.
    You also mentioned the creation, I think others suggested, 
as well, of a high-level, independent, non-partisan oversight 
mechanism. How would you expect that to work?
    Dr. Moss. Well, again, I'm not an expert on the idea of 
these Commissions, but it would be something where you would 
have longer membership, perhaps, equally appointed by both 
parties, in some way, that would ensure that there is a review 
function, and that there was an escape mechanism, really, or a 
safety valve, if you will, for scientists and reports to be 
vetted, make sure that there's a public review process and that 
the comments are taken care of, that there isn't this kind of, 
sort of black box editing at the last stage, which has really 
been a problem.
    Senator Snowe. Yes, Dr. Frumhoff?
    Dr. Frumhoff. Senator, I might add, I think it's important 
to think through, what are the elements of the program the 
Commission might provide oversight on. One certainly is the 
quality of the science, and the effectiveness of the 
communication of that science.
    Another--given the goals of the National Climate Service, 
as designed in this bill to engage with local stakeholders, 
provide this information in a way that is directly useful to 
decisionmakers at multiple levels.
    If the Commission--as one option--includes such 
stakeholders, representatives, in its body in addition to 
scientists, it could also, I think, appropriately review 
whether that information is being constructed in a way that's 
useful, and whether the information is actually being helpful 
to choices about adaptation, and mitigation. That is, is the 
overall intent of the bill to provide information that 
decisionmakers can actually, then, work with and adapt to 
change coastal planning or responses to extreme heat or other 
kinds of choices that we face in a changing climate, how well 
is that information being incorporated in other opportunities 
for improvement?
    And so, I think that element of the process could also be 
subject to a kind of oversight.
    Senator Snowe. Yes, Dr. Boesch?
    Dr. Boesch. Let me add to that, you know, right now I think 
we've been concerned about views about whether climate change, 
human-induced climate change is real or not, and the debate 
that way. I think as the scientific consensus has grown, and 
the public understanding and consensus has grown, in the 
future, I think these--the independence of the oversight is not 
going to be so much about whether climate change is happening 
or real, but about the various alternatives we have to deal 
with it, and the battle of interests among the economic 
interests in dealing with those alternatives.
    So, in either case, even if we resolve the grand debate 
about human-induced climate change, we're still going to have 
some very contentious issues to deal with, as we both 
determine, as we look at our mitigation options, as well as the 
appropriate adaptation strategies.
    So, in the future, I think regardless, we need some sort of 
independence in the process, some oversight.
    Senator Snowe. No, that is very helpful.
    Dr. Boesch, you talked about how states are going their own 
way, and that is true. Demonstrating the leadership, and really 
grappling with these challenges, because I see it daily, and 
they pursue effective leadership.
    Do you think our bill strikes the right balance in this 
regard in certainly assisting the states and local governments, 
and making the decisions and providing them with the important 
research and scientific information upon which to base these 
decisions and strategies, or mitigating future impact?
    Dr. Boesch. I would certainly like to look at it more 
carefully, but it certainly has--articulates that goal. Maybe 
we could offer some suggestions about how to put some practical 
implementation----
    Senator Snowe. Right.
    Dr. Boesch.--elements in it that would make it that much 
more effective.
    But I can't emphasize more, and I just made a very brief 
point, I think my other, my colleagues here raised this as 
well. If you have a--if you view a climate service, for 
example, that's going to be the Federal entity that's going to 
do everything in all of these regions, it's going to fail, 
because there's so much knowledge, there's much responsibility 
within the regions, it has to be a partnership that engages the 
states, engages the other local governments, engages the 
universities, the experts there, in a way that can bring this 
new need and expansion of climate information and projections, 
to some practical use and purpose.
    Senator Snowe. It cannot be from the top-down, you're 
right. We're going to have to do something to spur the 
involvement at the local level, and regional level, as well. 
Absolutely, because of the knowledge that has been amassed.
    Dr. Carter, you referred to balancing, creating a scale 
between acknowledging there are certain regional problems, and 
balancing the research to address the regionalism. Do you think 
we strike the right balance, or do we need to do more in that 
regard? Some regions may have one problem, others have another, 
so you have to adapt accordingly.
    Dr. Carter. That's right. And some of the research, then, 
would be applicable everywhere, but I think as I mentioned in 
here, there were really regional and locally specific factors 
that need to be taken into account. And, I can't agree more 
with Don and the others, with Dr. Boesch and the others, we 
need a formal mechanisms.
    What happened with the U.S. National Assessment was, we 
have people involved all around the country. But then once the 
assessment was finished, they were finished. And what was--we 
had mobilized people in, all over, and we had people working on 
the issue and thinking about the issue and how do we connect, 
and who else around this area has this knowledge, and you know, 
who should we be talking to and, you know, those kinds of 
things, and we've lost all of that.
    So, we need to really think about, how do we create a 
formal mechanism that doesn't go away, but that can be, you 
know, can stay longer than any Administration, or than any, you 
know, particular focus, but to keep people engaged, that's 
really crucial, I think.
    Senator Snowe. That is a very critical point, to provide 
the continuity.
    Dr. Carter. Absolutely.
    Senator Snowe. We'll examine our bill from that standpoint.
    Dr. Carter. And when people participate, they really feel 
much more ownership in what's going on.
    Senator Snowe. Absolutely.
    Dr. Carter. They're much more willing to implement what 
they have talked about, and what they have had input into and 
think about ways in which they can help the situation, much 
more than if it just is handed to them from someone else, it 
didn't--it doesn't work very well.
    I mean, I joked about the fact that there were 20 regions, 
and even working with just the directors was kind of like 
herding cats, because everyone had their own issue, but they 
all had a focus. That was to make it work. And that's, you 
know, that changes things.
    Senator Snowe. Absolutely. Actually, the local, state, and 
regions have developed the laboratories and they become a real 
source of information, rather than having it come from the top 
down.
    Dr. Carter. Well, they know what they need to know.
    Senator Snowe. Absolutely, that is what I'm saying, they 
are living it.
    Dr. Carter. They're living it every day. And we actually 
found that changed the research, some of the regions, once the 
stakeholders got involved. They actually changed the focus of 
the research, because they knew what really was happening in 
that area.
    Senator Snowe. We have to bring everybody to the table and 
keep them there, on an ongoing basis there.
    Dr. Carter. Keep them there, that's right.
    Senator Snowe. Yes.
    Dr. Boesch, did you have any more?
    Dr. Boesch. Yes, I have one point that's sort of a take-off 
on that, but it goes back to a point--I'm sorry Senator Stevens 
isn't here to discuss or to bring this point to his attention, 
Dr. Christy mentioned, for example, in the 2000 U.S. National 
Assessment, that for Alabama there were two models that we 
use--one predicted a jungle and the other, a savannah. So, you 
know, how do we trust the models?
    Well, the real embarrassment, actually, of the National 
Assessment in 2000 is that both of those models were from other 
countries. One was from Canada and one was from the United 
Kingdom, and part of the delay in completion of the National 
Assessment was the anxiety that we didn't have ready a 
national, U.S.-based modeling capacity of that generation of 
models, to do the assessment.
    Now, things have changed dramatically in this regard, we 
have now scores of models, actually, internationally, the IPCC 
has looked at, you know, scores of these things, and the 
Northeast Climate Impacts Assessment looked at multiple models 
in which they judge their performance over the past. You know, 
and pursuant to Senator Stevens concern about, ``Well, there's 
this change that's going on, and our impact didn't make much 
effect of it,'' these models were--the performance of these 
models was judged on their ability to predict, and going 
backward, the 20th century observations, in the Northeast, in 
this case.
    So, we now have the capacity of looking at using these 
models to actually judge their performance on regional scales. 
There's more work to be done in downscaling the models, to give 
you more regional texture, but we have much more capacity to do 
this than we did in the year 2000, for sure. And it's because 
of the investments in the climate science program.
    Senator Snowe. That is right.
    Yes, Dr. Carter?
    Dr. Carter. Yes, there's one other point about that, and 
that is local and regional decisionmakers know--they make long-
term plans, and they know that anything in the future is 
uncertain.
    But, if we can give them--even with the models--some range 
of uncertainty that's most likely, it really is helpful to 
people. They, you know, we never would recommend, ``Take this 
model, and on this day it's going to be this temperature in 
this place,'' that's not it. It's helping people to understand 
uncertainty and educate people on how to use this information 
and to look to the future with this range of information, it's 
kind of like planning for your retirement. You know, you kind 
of have some ideas of what it's going to be like, but if this 
parameter changes, well then that's going to be different. 
People can understand that, we just have to, you know, give it 
to them in a way that's useful.
    Senator Snowe. That is very helpful, and it does illustrate 
the point about how critical the funding is. I mean, to suggest 
we did not even have a model, in 2000. To think how far we have 
come.
    And even since the original program was established back in 
1990, 17 years later, it really is hard to conceive, of all of 
the technological advancements that have occurred during that 
period of time, and that is why this program obviously needs to 
be seriously updated, in all respects, to tailor it to the 
moment, and to the future. The unpredictability and the 
uncertainty of the future, knowing all of this change.
    Dr. Moss, you mentioned the abrupt climate change program, 
and we have it in our legislation within NOAA, and you think it 
should stay within the Climate Change Science Program?
    Dr. Moss. I just feel that it's important to keep these 
issues addressed in an integrated way, and there will always be 
new ones that come up, we can't keep spawning yet another new 
research program. I think the abrupt climate change issue 
should be highlighted, as something for which there's a real 
interest and need for extra support.
    I think ocean acidification which came up in Senator 
Nelson's comment, I think is also going to be extremely, and 
again, I think should be an integrated part of the overall 
global change program.
    Senator Snowe. I just do not want it to get lost in the 
process. I am a big advocate of abrupt climate change program 
and research. I really think it is critical. Given the fact it 
really is hard to anticipate and predict when it happens.
    In any event, we will look at that and examine your 
recommendation in that regard.
    Dr. Moss. But, I agree completely about the importance of 
the issue----
    Senator Snowe. OK.
    Dr. Moss.--I think you're exactly----
    Senator Snowe. You do not think it will get lost by keeping 
it in that program?
    Dr. Moss. Well, I think that there are ways of making sure 
that it doesn't.
    Senator Snowe. OK.
    Dr. Moss. But still, you wouldn't want to necessarily have 
a separate function for governing that program, because there's 
so much of what you would need to do to study abrupt climate 
change, that you need to study other components of climate 
change, that you wouldn't--it would be inefficient, in a way, 
to separate them out, and probably scientifically detrimental.
    Senator Snowe. Dr. Davis, one last question here on coastal 
zone management, because I was previously Chair of the 
Subcommittee that oversaw coastal zone management, and you made 
some recommendations in this regard for adaptation strategies, 
what would you recommend that we consider?
    Dr. Davis. Well, currently the Coastal Zone Management Act 
does authorize the coastal states that are participating to 
develop plans to respond to sea level rise and related impacts. 
But we would look for a voluntary partnership, to expand the 
authorities for climate change adaptation plans for the coastal 
zone, under coastal programs. Potentially through a new 
section, but that's something that CSO would like to work with 
you on, in the future.
    Senator Snowe. Oh, to create a separate section?
    Dr. Davis. Potentially.
    Senator Snowe. OK.
    Dr. Davis. But certainly, a lot of us are at the beginning 
phases of this, and we would like to develop in partnership 
with our local communities adaptation plans specific to coastal 
impacts.
    Senator Snowe. OK, we will follow up with you on that 
question, because it is important. Hopefully, we can get this 
reauthorized, it has been some time, and a long-standing 
struggle, not unique to this institution, on this and every 
other issue.
    In any event, hopefully we can do that. Is it also an 
important suggestion and I'd like to follow up with you on that 
as well.
    I thank all of you. I think it has been very useful and 
helpful and informative. I am going to really explore some of 
these issues you have raised today with respect to our 
legislation, because it is essential to get it done. This is 
going to help to expedite the process, we hope, and not get 
bogged down anywhere along the way.
    I thank all of you, for your very critical testimony and 
for your leadership in this global challenge that we face, 
thank you.
    Dr. Davis. Thank you, Senator.
    Senator Snowe. This hearing is adjourned.
    [Whereupon, at 12:58 p.m., the hearing was adjourned.]
                            A P P E N D I X

                        Summary for Policymakers
A Report of Working Group I of the Intergovernmental Panel on Climate 
        Change
    Drafting Authors: Richard B. Alley, Terje Berntsen, Nathaniel L. 
Bindoff, Zhenlin Chen, Amnat Chidthaisong, Pierre Friedlingstein, 
Jonathan M. Gregory, Gabriele C. Hegerl, Martin Heimann, Bruce 
Hewitson, Brian J. Hoskins, Fortunat Joos, Jean Jouzel, Vladimir 
Kattsov, Ulrike Lohmann, Martin Manning, Taroh Matsuno, Mario Molina, 
Neville Nicholls, Jonathan Overpeck, Dahe Qin, Graciela Raga, 
Venkatachalam Ramaswamy, Jiawen Ren, Matilde Rusticucci, Susan Solomon, 
Richard Somerville, Thomas F. Stocker, Peter A. Stott, Ronald J. 
Stouffer, Penny Whetton, Richard A. Wood, David Wratt.
    Draft Contributing Authors: J. Arblaster, G. Brasseur, J.H. 
Christensen, K.L. Denman, D.W. Fahey, P. Forster, E. Jansen, P.D. 
Jones, R. Knutti, H. Le Treut, P. Lemke, G. Meehl, P. Mote, D.A. 
Randall, D.A. Stone, K.E. Trenberth, J. Willebrand, F. Zwiers
    This Summary for Policymakers should be cited as: IPCC, 2007: 
Summary for Policymakers. In: Climate Change 2007: The Physical Science 
Basis. Contribution of Working Group I to the Fourth Assessment Report 
of the Intergovernmental Panel on Climate Change [Solomon, S., D. Qin, 
M. Manning, Z. Chen, M. Marquis, K.B. Averyt, M.Tignor and H.L. Miller 
(eds.)]. Cambridge University Press, Cambridge, United Kingdom and New 
York, NY, USA.
Introduction
    The Working Group I contribution to the IPCC Fourth Assessment 
Report describes progress in understanding of the human and natural 
drivers of climate change,\1\ observed climate change, climate 
processes and attribution, and estimates of projected future climate 
change. It builds upon past IPCC assessments and incorporates new 
findings from the past 6 years of research. Scientific progress since 
the Third Assessment Report (TAR) is based upon large amounts of new 
and more comprehensive data, more sophisticated analyses of data, 
improvements in understanding of processes and their simulation in 
models and more extensive exploration of uncertainty ranges.
---------------------------------------------------------------------------
    \1\ Climate change in IPCC usage refers to any change in climate 
over time, whether due to natural variability or as a result of human 
activity. This usage differs from that in the United Nations Framework 
Convention on Climate Change, where climate change refers to a change 
of climate that is attributed directly or indirectly to human activity 
that alters the composition of the global atmosphere and that is in 
addition to natural climate variability observed over comparable time 
periods.
---------------------------------------------------------------------------
    The basis for substantive paragraphs in this Summary for 
Policymakers can be found in the chapter sections specified in curly 
brackets.
Human and Natural Drivers of Climate Change
    Changes in the atmospheric abundance of greenhouse gases and 
aerosols, in solar radiation and in land surface properties alter the 
energy balance of the climate system. These changes are expressed in 
terms of radiative forcing,\2\ which is used to compare how a range of 
human and natural factors drive warming or cooling influences on global 
climate. Since the TAR, new observations and related modelling of 
greenhouse gases, solar activity, land surface properties and some 
aspects of aerosols have led to improvements in the quantitative 
estimates of radiative forcing.
---------------------------------------------------------------------------
    \2\ Radiative forcing is a measure of the influence that a factor 
has in altering the balance of incoming and outgoing energy in the 
Earth-atmosphere system and is an index of the importance of the factor 
as a potential climate change mechanism. Positive forcing tends to warm 
the surface while negative forcing tends to cool it. In this report, 
radiative forcing values are for 2005 relative to pre-industrial 
conditions defined at 1,750 and are expressed in watts per square metre 
(W m<SUP>-2</SUP>). See Glossary and Section 2.2 for further details.
---------------------------------------------------------------------------
    Global atmospheric concentrations of carbon dioxide, methane and 
nitrous oxide have increased markedly as a result of human activities 
since 1,750 and now far exceed pre-industrial values determined from 
ice cores spanning many thousands of years (see Figure SPM.1). The 
global increases in carbon dioxide concentration are due primarily to 
fossil fuel use and land use change, while those of methane and nitrous 
oxide are primarily due to agriculture. (2.3, 6.4, 7.3)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure SPM.1. Atmospheric concentrations of carbon dioxide, methane 
and nitrous oxide over the last 10,000 years (large panels) and since 
1750 (inset panels). Measurements are shown from ice cores (symbols 
with different colours for different studies) and atmospheric samples 
(red lines). The corresponding radiative forcings are shown on the 
right hand axes of the large panels. (Figure 6.4)

  <bullet> Carbon dioxide is the most important anthropogenic 
        greenhouse gas (see Figure SPM.2). The global atmospheric 
        concentration of carbon dioxide has increased from a pre-
        industrial value of about 280 ppm to 379 ppm \3\ in 2005. The 
        atmospheric concentration of carbon dioxide in 2005 exceeds by 
        far the natural range over the last 650,000 years (180 to 300 
        ppm) as determined from ice cores. The annual carbon dioxide 
        concentration growth rate was larger during the last 10 years 
        (1995-2005 average: 1.9 ppm per year), than it has been since 
        the beginning of continuous direct atmospheric measurements 
        (1960-2005 average: 1.4 ppm per year) although there is year-
        to-year variability in growth rates. (2.3, 7.3)
---------------------------------------------------------------------------
    \3\ ppm (parts per million) or ppb (parts per billion, 1 billion = 
1,000 million) is the ratio of the number of greenhouse gas molecules 
to the total number of molecules of dry air. For example, 300 ppm means 
300 molecules of a greenhouse gas per million molecules of dry air.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure SPM.2. Global average radiative forcing (RF) estimates and 
ranges in 2005 for anthropogenic carbon dioxide (CO<INF>2</INF>), 
methane (CH<INF>4</INF>), nitrous oxide (N<INF>2</INF>O) and other 
important agents and mechanisms, together with the typical geographical 
extent (spatial scale) of the forcing and the assessed level of 
scientific understanding (LOSU). The net anthropogenic radiative 
forcing and its range are also shown. These require summing asymmetric 
uncertainty estimates from the component terms, and cannot be obtained 
by simple addition. Additional forcing factors not included here are 
considered to have a very low LOSU. Volcanic aerosols contribute an 
additional natural forcing but are not included in this figure due to 
their episodic nature. The range for linear contrails does not include 
---------------------------------------------------------------------------
other possible effects of aviation on cloudiness. (2.9, Figure 2.20)

  <bullet> The primary source of the increased atmospheric 
        concentration of carbon dioxide since the pre-industrial period 
        results from fossil fuel use, with land-use change providing 
        another significant but smaller contribution. Annual fossil 
        carbon dioxide emissions \4\ increased from an average of 6.4 
        [6.0 to 6.8] \5\ GtC (23.5 [22.0 to 25.0] GtCO<INF>2</INF>) per 
        year in the 1990s to 7.2 [6.9 to 7.5] GtC (26.4 [25.3 to 27.5] 
        GtCO<INF>2</INF>) per year in 2000-2005 (2004 and 2005 data are 
        interim estimates). Carbon dioxide emissions associated with 
        land-use change are estimated to be 1.6 [0.5 to 2.7] GtC (5.9 
        [1.8 to 9.9] GtCO<INF>2</INF>) per year over the 1990s, 
        although these estimates have a large uncertainty. (7.3)
---------------------------------------------------------------------------
    \4\ Fossil carbon dioxide emissions include those from the 
production, distribution and consumption of fossil fuels and as a by-
product from cement production. An emission of 1 GtC corresponds to 
3.67 GtCO<INF>2</INF>.
    \5\ In general, uncertainty ranges for results given in this 
Summary for Policymakers are 90 percent uncertainty intervals unless 
stated otherwise, that is, there is an estimated 5 percent likelihood 
that the value could be above the range given in square brackets and 5 
percent likelihood that the value could be below that range. Best 
estimates are given where available. Assessed uncertainty intervals are 
not always symmetric about the corresponding best estimate. Note that a 
number of uncertainty ranges in the Working Group I TAR corresponded to 
2 standard deviations (95 percent), often using expert judgment.

  <bullet> The global atmospheric concentration of methane has 
        increased from a pre-industrial value of about 715 ppb to 1,732 
        ppb in the early 1990s, and was 1,774 ppb in 2005. The 
        atmospheric concentration of methane in 2005 exceeds by far the 
        natural range of the last 650,000 years (320 to 790 ppb) as 
        determined from ice cores. Growth rates have declined since the 
        early 1990s, consistent with total emissions (sum of 
        anthropogenic and natural sources) being nearly constant during 
        this period. It is very likely \6\ that the observed increase 
        in methane concentration is due to anthropogenic activities, 
        predominantly agriculture and fossil fuel use, but relative 
        contributions from different source types are not well 
        determined. (2.3, 7.4)
---------------------------------------------------------------------------
    \6\ In this Summary for Policymakers, the following terms have been 
used to indicate the assessed likelihood, using expert judgment, of an 
outcome or a result: Virtually certain > 99% probability of occurrence, 
Extremely likely > 95%, Very likely > 90%, Likely > 66%, More likely 
than not > 50%, Unlikely < 33%, Very unlikely < 10%, Extremely unlikely 
< 5% (see Box TS.1 for more details).

  <bullet> The global atmospheric nitrous oxide concentration increased 
        from a pre-industrial value of about 270 ppb to 319 ppb in 
        2005. The growth rate has been approximately constant since 
        1980. More than a third of all nitrous oxide emissions are 
        anthropogenic and are primarily due to agriculture. (2.3, 7.4)
    The understanding of anthropogenic warming and cooling influences 
on climate has improved since the TAR, leading to very high confidence 
\7\ that the global average net effect of human activities since 1750 
has been one of warming, with a radiative forcing of +1.6 [+0.6 to 
+2.4] W m<SUP>-2</SUP> (see Figure SPM.2). (2.3., 6.5, 2.9)
---------------------------------------------------------------------------
    \7\ In this Summary for Policymakers the following levels of 
confidence have been used to express expert judgments on the 
correctness of the underlying science: very high confidence represents 
at least a 9 out of 10 chance of being correct; high confidence 
represents about an 8 out of 10 chance of being correct (see Box TS.1).

  <bullet> The combined radiative forcing due to increases in carbon 
        dioxide, methane, and nitrous oxide is +2.30 [+2.07 to +2.53] W 
        m<SUP>-2</SUP>, and its rate of increase during the industrial 
        era is very likely to have been unprecedented in more than 
        10,000 years (see Figures SPM.1 and SPM.2). The carbon dioxide 
        radiative forcing increased by 20 percent from 1995 to 2005, 
        the largest change for any decade in at least the last 200 
---------------------------------------------------------------------------
        years. (2.3, 6.4)

  <bullet> Anthropogenic contributions to aerosols (primarily sulphate, 
        organic carbon, black carbon, nitrate and dust) together 
        produce a cooling effect, with a total direct radiative forcing 
        of -0.5 [-0.9 to -0.1] W m<SUP>-2</SUP> and an indirect cloud 
        albedo forcing of -0.7 [-1.8 to -0.3] W m<SUP>-2</SUP>. These 
        forcings are now better understood than at the time of the TAR 
        due to improved in situ, satellite and ground-based 
        measurements and more comprehensive modelling, but remain the 
        dominant uncertainty in radiative forcing. Aerosols also 
        influence cloud lifetime and precipitation. (2.4, 2.9, 7.5)

  <bullet> Significant anthropogenic contributions to radiative forcing 
        come from several other sources. Tropospheric ozone changes due 
        to emissions of ozone-forming chemicals (nitrogen oxides, 
        carbon monoxide, and hydrocarbons) contribute +0.35 [+0.25 to 
        +0.65] W m<SUP>-2</SUP>. The direct radiative forcing due to 
        changes in halocarbons \8\ is +0.34 [+0.31 to +0.37] W 
        m<SUP>-2</SUP>. Changes in surface albedo, due to land cover 
        changes and deposition of black carbon aerosols on snow, exert 
        respective forcings of -0.2 [-0.4 to 0.0] and +0.1 [0.0 to 
        +0.2] W m<SUP>-2</SUP>. Additional terms smaller than 
        <plus-minus>0.1 W m<SUP>-2</SUP> are shown in Figure SPM.2. 
        (2.3, 2.5, 7.2)
---------------------------------------------------------------------------
    \8\ Halocarbon radiative forcing has been recently assessed in 
detail in IPCC's Special Report on Safeguarding the Ozone Layer and the 
Global Climate System (2005).

  <bullet> Changes in solar irradiance since 1750 are estimated to 
        cause a radiative forcing of +0.12 [+0.06 to +0.30] W 
        m<SUP>-2</SUP>, which is less than half the estimate given in 
        the TAR. (2.7)
Direct Observations of Recent Climate Change
    Since the TAR, progress in understanding how climate is changing in 
space and in time has been gained through improvements and extensions 
of numerous datasets and data analyses, broader geographical coverage, 
better understanding of uncertainties, and a wider variety of 
measurements. Increasingly comprehensive observations are available for 
glaciers and snow cover since the 1960s, and for sea level and ice 
sheets since about the past decade. However, data coverage remains 
limited in some regions.
    Warming of the climate system is unequivocal, as is now evident 
from observations of increases in global average air and ocean 
temperatures, widespread melting of snow and ice, and rising global 
average sea level (see Figure SPM.3). (3.2, 4.2, 5.5)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure SPM.3. Observed changes in (a) global average surface 
temperature, (b) global average sea level from tide gauge (blue) and 
satellite (red) data and (c) Northern Hemisphere snow cover for March-
April. All changes are relative to corresponding averages for the 
period 1961-1990. Smoothed curves represent decadal average values 
while circles show yearly values. The shaded areas are the uncertainty 
intervals estimated from a comprehensive analysis of known 
uncertainties (a and b) and from the time series (c). (FAQ 3.1, Figure 
1, Figure 4.2, Figure 5.13)

  <bullet> Eleven of the last twelve years (1995-2006) rank among the 
        12 warmest years in the instrumental record of global surface 
        temperature \9\ (since 1850). The updated 100-year linear trend 
        (1906 to 2005) of 0.74 +C [0.56 +C to 0.92 +C] is therefore 
        larger than the corresponding trend for 1901 to 2000 given in 
        the TAR of 0.6 +C [0.4 +C to 0.8 +C]. The linear warming trend 
        over the last 50 years (0.13 +C [0.10 +C to 0.16 +C] per 
        decade) is nearly twice that for the last 100 years. The total 
        temperature increase from 1850-1899 to 2001-2005 is 0.76 +C 
        [0.57 +C to 0.95 +C]. Urban heat island effects are real but 
        local, and have a negligible influence (less than 0.006 +C per 
        decade over land and zero over the oceans) on these values. 
        (3.2)
---------------------------------------------------------------------------
    \9\ The average of near-surface air temperature over land and sea 
surface temperature.

  <bullet> New analyses of balloon-borne and satellite measurements of 
        lower- and mid-tropospheric temperature show warming rates that 
        are similar to those of the surface temperature record and are 
        consistent within their respective uncertainties, largely 
---------------------------------------------------------------------------
        reconciling a discrepancy noted in the TAR. (3.2, 3.4)

  <bullet> The average atmospheric water vapour content has increased 
        since at least the 1980s over land and ocean as well as in the 
        upper troposphere. The increase is broadly consistent with the 
        extra water vapour that warmer air can hold. (3.4)

  <bullet> Observations since 1961 show that the average temperature of 
        the global ocean has increased to depths of at least 3,000 m 
        and that the ocean has been absorbing more than 80 percent of 
        the heat added to the climate system. Such warming causes 
        seawater to expand, contributing to sea level rise (see Table 
        SPM.1). (5.2, 5.5)

  <bullet> Mountain glaciers and snow cover have declined on average in 
        both hemispheres. Widespread decreases in glaciers and ice caps 
        have contributed to sea level rise (ice caps do not include 
        contributions from the Greenland and Antarctic Ice Sheets). 
        (See Table SPM.1.) (4.6, 4.7, 4.8, 5.5)

  <bullet> New data since the TAR now show that losses from the ice 
        sheets of Greenland and Antarctica have very likely contributed 
        to sea level rise over 1993 to 2003 (see Table SPM.1). Flow 
        speed has increased for some Greenland and Antarctic outlet 
        glaciers, which drain ice from the interior of the ice sheets. 
        The corresponding increased ice sheet mass loss has often 
        followed thinning, reduction or loss of ice shelves or loss of 
        floating glacier tongues. Such dynamical ice loss is sufficient 
        to explain most of the Antarctic net mass loss and 
        approximately half of the Greenland net mass loss. The 
        remainder of the ice loss from Greenland has occurred because 
        losses due to melting have exceeded accumulation due to 
        snowfall. (4.6, 4.8, 5.5)

  <bullet> Global average sea level rose at an average rate of 1.8 [1.3 
        to 2.3] mm per year over 1961 to 2003. The rate was faster over 
        1993 to 2003: about 3.1 [2.4 to 3.8] mm per year. Whether the 
        faster rate for 1993 to 2003 reflects decadal variability or an 
        increase in the longer-term trend is unclear. There is high 
        confidence that the rate of observed sea level rise increased 
        from the 19th to the 20th century. The total 20th-century rise 
        is estimated to be 0.17 [0.12 to 0.22] m. (5.5)

  <bullet> For 1993 to 2003, the sum of the climate contributions is 
        consistent within uncertainties with the total sea level rise 
        that is directly observed (see Table SPM.1). These estimates 
        are based on improved satellite and in situ data now available. 
        For the period 1961 to 2003, the sum of climate contributions 
        is estimated to be smaller than the observed sea level rise. 
        The TAR reported a similar discrepancy for 1910 to 1990. (5.5)

    At continental, regional and ocean basin scales, numerous long-term 
changes in climate have been observed. These include changes in Arctic 
temperatures and ice, widespread changes in precipitation amounts, 
ocean salinity, wind patterns and aspects of extreme weather including 
droughts, heavy precipitation, heat waves and the intensity of tropical 
cyclones.\10\ (3.2, 3.3, 3.4, 3.5, 3.6, 5.2)
---------------------------------------------------------------------------
    \10\ Tropical cyclones include hurricanes and typhoons.
---------------------------------------------------------------------------
  <bullet> Average Arctic temperatures increased at almost twice the 
        global average rate in the past 100 years. Arctic temperatures 
        have high decadal variability, and a warm period was also 
        observed from 1925 to 1945. (3.2)

  <bullet> Satellite data since 1978 show that annual average Arctic 
        sea ice extent has shrunk by 2.7 [2.1 to 3.3] percent per 
        decade, with larger decreases in summer of 7.4 [5.0 to 9.8] 
        percent per decade. These values are consistent with those 
        reported in the TAR. (4.4)

  <bullet> Temperatures at the top of the permafrost layer have 
        generally increased since the 1980s in the Arctic (by up to 3 
        +C). The maximum area covered by seasonally frozen ground has 
        decreased by about 7 percent in the Northern Hemisphere since 
        1900, with a decrease in spring of up to 15 percent. (4.7)

  <bullet> Long-term trends from 1900 to 2005 have been observed in 
        precipitation amount over many large regions.\11\ Significantly 
        increased precipitation has been observed in eastern parts of 
        North and South America, northern Europe and northern and 
        central Asia. Drying has been observed in the Sahel, the 
        Mediterranean, southern Africa and parts of southern Asia. 
        Precipitation is highly variable spatially and temporally, and 
        data are limited in some regions. Long-term trends have not 
        been observed for the other large regions assessed.\11\ (3.3, 
        3.9)
---------------------------------------------------------------------------
    \11\ The assessed regions are those considered in the regional 
projections chapter of the TAR and in Chapter 11 of this report.

  <bullet> Changes in precipitation and evaporation over the oceans are 
        suggested by freshening of mid- and high-latitude waters 
        together with increased salinity in low-latitude waters. (5.2)

       Table SPM.1.--Observed Rate of Sea Level Rise and Estimated
         Contributions from Different Sources. (5.5, Table 5.3)
------------------------------------------------------------------------
                                   Rate of Sea Level Rise (mm per year)
    Source of Sea Level Rise     ---------------------------------------
                                       1961-2003           1993-2003
------------------------------------------------------------------------
Thermal expansion                 0.42 <plus-minus>    1.6 <plus-minus>
                                               0.12                 0.5
Glaciers and ice caps             0.50 <plus-minus>   0.77 <plus-minus>
                                               0.18                0.22
Greenland Ice Sheet               0.05 <plus-minus>   0.21 <plus-minus>
                                               0.12                0.07
Antarctic Ice Sheet               0.14 <plus-minus>   0.21 <plus-minus>
                                               0.41                0.35
Sum of individual climate          1.1 <plus-minus>    2.8 <plus-minus>
 contributions to sea level rise                0.5                 0.7
Observed total sea level rise      1.8 <plus-minus>    3.1 <plus-minus>
                                              0.5 a               0.7 a
  Difference (Observed minus sum   0.7 <plus-minus>    0.3 <plus-minus>
   of estimated climate                         0.7                 1.0
   contributions)
------------------------------------------------------------------------
Table note:
a Data prior to 1993 are from tide gauges and after 1993 are from
  satellite altimetry.


  <bullet> Mid-latitude westerly winds have strengthened in both 
        hemispheres since the 1960s. (3.5)

  <bullet> More intense and longer droughts have been observed over 
        wider areas since the 1970s, particularly in the tropics and 
        subtropics. Increased drying linked with higher temperatures 
        and decreased precipitation has contributed to changes in 
        drought. Changes in sea surface temperatures, wind patterns and 
        decreased snowpack and snow cover have also been linked to 
        droughts. (3.3)

  <bullet> The frequency of heavy precipitation events has increased 
        over most land areas, consistent with warming and observed 
        increases of atmospheric water vapour. (3.8, 3.9)

  <bullet> Widespread changes in extreme temperatures have been 
        observed over the last 50 years. Cold days, cold nights and 
        frost have become less frequent, while hot days, hot nights and 
        heat waves have become more frequent (see Table SPM.2). (3.8)

   Table SPM.2. Recent Trends, Assessment of Human Influence on the Trend and Projections for Extreme Weather
  Events for Which There Is an Observed Late-20th Century Trend. (Tables 3.7, 3.8, 9.4; Sections 3.8, 5.5, 9.7,
                                                   11.2-11.9)
----------------------------------------------------------------------------------------------------------------
                                             Likelihood that trend                          Likelihood of future
                                                occurred in late       Likelihood of a        trends  based on
    Phenomenon a and  direction of trend         20th  century        human contribution   projections for  21st
                                                (typically  post     to observed trend b    century using  SRES
                                                     1960)                                       scenarios
----------------------------------------------------------------------------------------------------------------
Warmer and fewer cold days and nights over          Very likely c               Likely d    Virtually certain d
 most land areas
----------------------------------------------------------------------------------------------------------------
Warmer and more frequent hot days and               Very likely e      Likely (nights) d    Virtually certain d
 nights over most land areas
----------------------------------------------------------------------------------------------------------------
Warm spells/heat waves. Frequency increases                Likely   More likely than not            Very likely
 over most land areas                                                                  f
----------------------------------------------------------------------------------------------------------------
Heavy precipitation events. Frequency (or                  Likely   More likely than not            Very likely
 proportion of total rainfall from heavy                                               f
 falls) increases over most areas
----------------------------------------------------------------------------------------------------------------
Area affected by droughts increases                Likely in many    regions since 1970s   More likely than not
                                                                                                         Likely
----------------------------------------------------------------------------------------------------------------
Intense tropical cyclone activity increases        Likely in some   More likely than not                 Likely
                                               regions since 1970                      f
----------------------------------------------------------------------------------------------------------------
Increased incidence of extreme high sea                    Likely   More likely than not               Likely i
 level (excludes tsunamis) g                                                        f, h
----------------------------------------------------------------------------------------------------------------
Table notes:
a See Table 3.7 for further details regarding definitions.
b See Table TS.4, Box TS.5 and Table 9.4.
c Decreased frequency of cold days and nights (coldest 10 percent).
d Warming of the most extreme days and nights each year.
e Increased frequency of hot days and nights (hottest 10 percent).
f Magnitude of anthropogenic contributions not assessed. Attribution for these phenomena based on expert
  judgment rather than formal attribution studies.
g Extreme high sea level depends on average sea level and on regional weather systems. It is defined here as the
  highest 1 percent of hourly values of observed sea level at a station for a given reference period.
h Changes in observed extreme high sea level closely follow the changes in average sea level. (5.5) It is very
  likely that anthropogenic activity contributed to a rise in average sea level. (9.5)
i In all scenarios, the projected global average sea level at 2100 is higher than in the reference period.
  (10.6) The effect of changes in regional weather systems on sea level extremes has not been assessed.


  <bullet> There is observational evidence for an increase in intense 
        tropical cyclone activity in the North Atlantic since about 
        1970, correlated with increases of tropical sea surface 
        temperatures. There are also suggestions of increased intense 
        tropical cyclone activity in some other regions where concerns 
        over data quality are greater. Multi-decadal variability and 
        the quality of the tropical cyclone records prior to routine 
        satellite observations in about 1970 complicate the detection 
        of long-term trends in tropical cyclone activity. There is no 
        clear trend in the annual numbers of tropical cyclones. (3.8)
    Some aspects of climate have not been observed to change. (3.2, 
3.8, 4.4, 5.3)

  <bullet> A decrease in diurnal temperature range (DTR) was reported 
        in the TAR, but the data available then extended only from 1950 
        to 1993. Updated observations reveal that DTR has not changed 
        from 1979 to 2004 as both day- and night-time temperature have 
        risen at about the same rate. The trends are highly variable 
        from one region to another. (3.2)

  <bullet> Antarctic sea ice extent continues to show interannual 
        variability and localised changes but no statistically 
        significant average trends, consistent with the lack of warming 
        reflected in atmospheric temperatures averaged across the 
        region. (3.2, 4.4)

  <bullet> There is insufficient evidence to determine whether trends 
        exist in the meridional overturning circulation (MOC) of the 
        global ocean or in small-scale phenomena such as tornadoes, 
        hail, lightning and dust-storms. (3.8, 5.3)
A Palaeoclimatic Perspective
    Palaeoclimatic studies use changes in climatically sensitive 
indicators to infer past changes in global climate on time scales 
ranging from decades to millions of years. Such proxy data (e.g., tree 
ring width) may be influenced by both local temperature and other 
factors such as precipitation, and are often representative of 
particular seasons rather than full years. Studies since the TAR draw 
increased confidence from additional data showing coherent behaviour 
across multiple indicators in different parts of the world. However, 
uncertainties generally increase with time into the past due to 
increasingly limited spatial coverage.
    Palaeoclimatic information supports the interpretation that the 
warmth of the last half century is unusual in at least the previous 
1,300 years. The last time the polar regions were significantly warmer 
than present for an extended period (about 125,000 years ago), 
reductions in polar ice volume led to 4 to 6 m of sea level rise. (6.4, 
6.6)

  <bullet> Average Northern Hemisphere temperatures during the second 
        half of the 20th century were very likely higher than during 
        any other 50-year period in the last 500 years and likely the 
        highest in at least the past 1,300 years. Some recent studies 
        indicate greater variability in Northern Hemisphere 
        temperatures than suggested in the TAR, particularly finding 
        that cooler periods existed in the 12th to 14th, 17th and 19th 
        centuries. Warmer periods prior to the 20th century are within 
        the uncertainty range given in the TAR. (6.6)

  <bullet> Global average sea level in the last interglacial period 
        (about 125,000 years ago) was likely 4 to 6 m higher than 
        during the 20th century, mainly due to the retreat of polar 
        ice. Ice core data indicate that average polar temperatures at 
        that time were 3 +C to 5 +C higher than present, because of 
        differences in the Earth's orbit. The Greenland Ice Sheet and 
        other arctic ice fields likely contributed no more than 4 m of 
        the observed sea level rise. There may also have been a 
        contribution from Antarctica. (6.4)
Understanding and Attributing Climate Change
    This assessment considers longer and improved records, an expanded 
range of observations and improvements in the simulation of many 
aspects of climate and its variability based on studies since the TAR. 
It also considers the results of new attribution studies that have 
evaluated whether observed changes are quantitatively consistent with 
the expected response to external forcings and inconsistent with 
alternative physically plausible explanations.
    Most of the observed increase in global average temperatures since 
the mid-20th century is very likely due to the observed increase in 
anthropogenic greenhouse gas concentrations.\12\ This is an advance 
since the TAR's conclusion that ``most of the observed warming over the 
last 50 years is likely to have been due to the increase in greenhouse 
gas concentrations''. Discernible human influences now extend to other 
aspects of climate, including ocean warming, continental-average 
temperatures, temperature extremes and wind patterns (see Figure SPM.4 
and Table SPM.2). (9.4, 9.5)
---------------------------------------------------------------------------
    \12\ Consideration of remaining uncertainty is based on current 
methodologies.

  <bullet> It is likely that increases in greenhouse gas concentrations 
        alone would have caused more warming than observed because 
        volcanic and anthropogenic aerosols have offset some warming 
---------------------------------------------------------------------------
        that would otherwise have taken place. (2.9, 7.5, 9.4)

  <bullet> The observed widespread warming of the atmosphere and ocean, 
        together with ice mass loss, support the conclusion that it is 
        extremely unlikely that global climate change of the past 50 
        years can be explained without external forcing, and very 
        likely that it is not due to known natural causes alone. (4.8, 
        5.2, 9.4, 9.5, 9.7)

  <bullet> Warming of the climate system has been detected in changes 
        of surface and atmospheric temperatures in the upper several 
        hundred metres of the ocean, and in contributions to sea level 
        rise. Attribution studies have established anthropogenic 
        contributions to all of these changes. The observed pattern of 
        tropospheric warming and stratospheric cooling is very likely 
        due to the combined influences of greenhouse gas increases and 
        stratospheric ozone depletion. (3.2, 3.4, 9.4, 9.5)

  <bullet> It is likely that there has been significant anthropogenic 
        warming over the past 50 years averaged over each continent 
        except Antarctica (see Figure SPM.4). The observed patterns of 
        warming, including greater warming over land than over the 
        ocean, and their changes over time, are only simulated by 
        models that include anthropogenic forcing. The ability of 
        coupled climate models to simulate the observed temperature 
        evolution on each of six continents provides stronger evidence 
        of human influence on climate than was available in the TAR. 
        (3.2, 9.4)

  <bullet> Difficulties remain in reliably simulating and attributing 
        observed temperature changes at smaller scales. On these 
        scales, natural climate variability is relatively larger, 
        making it harder to distinguish changes expected due to 
        external forcings. Uncertainties in local forcings and 
        feedbacks also make it difficult to estimate the contribution 
        of greenhouse gas increases to observed small-scale temperature 
        changes. (8.3, 9.4)

  <bullet> Anthropogenic forcing is likely to have contributed to 
        changes in wind patterns,\13\ affecting extra-tropical storm 
        tracks and temperature patterns in both hemispheres. However, 
        the observed changes in the Northern Hemisphere circulation are 
        larger than simulated in response to 20th-century forcing 
        change. (3.5, 3.6, 9.5, 10.3)
---------------------------------------------------------------------------
    \13\ In particular, the Southern and Northern Annular Modes and 
related changes in the North Atlantic Oscillation. (3.6, 9.5, Box TS.2)

  <bullet> Temperatures of the most extreme hot nights, cold nights and 
        cold days are likely to have increased due to anthropogenic 
        forcing. It is more likely than not that anthropogenic forcing 
        has increased the risk of heat waves (see Table SPM.2). (9.4)
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Figure SPM.4. Comparison of observed continental- and global-scale 
changes in surface temperature with results simulated by climate models 
using natural and anthropogenic forcings. Decadal averages of 
observations are shown for the period 1906 to 2005 (black line) plotted 
against the centre of the decade and relative to the corresponding 
average for 1901-1950. Lines are dashed where spatial coverage is less 
than 50 percent. Blue shaded bands show the 5-95 percent range for 19 
simulations from five climate models using only the natural forcings 
due to solar activity and volcanoes. Red shaded bands show the 5-95 
percent range for 58 simulations from 14 climate models using both 
natural and anthropogenic forcings. (FAQ 9.2, Figure 1)
    Analysis of climate models together with constraints from 
observations enables an assessed likely range to be given for climate 
sensitivity for the first time and provides increased confidence in the 
understanding of the climate system response to radiative forcing. 
(6.6, 8.6, 9.6, Box 10.2)

  <bullet> The equilibrium climate sensitivity is a measure of the 
        climate system response to sustained radiative forcing. It is 
        not a projection but is defined as the global average surface 
        warming following a doubling of carbon dioxide concentrations. 
        It is likely to be in the range 2 +C to 4.5 +C with a best 
        estimate of about 3 +C, and is very unlikely to be less than 
        1.5 +C. Values substantially higher than 4.5 +C cannot be 
        excluded, but agreement of models with observations is not as 
        good for those values. Water vapour changes represent the 
        largest feedback affecting climate sensitivity and are now 
        better understood than in the TAR. Cloud feedbacks remain the 
        largest source of uncertainty. (8.6, 9.6, Box 10.2)

  <bullet> It is very unlikely that climate changes of at least the 
        seven centuries prior to 1950 were due to variability generated 
        within the climate system alone. A significant fraction of the 
        reconstructed Northern Hemisphere inter-decadal temperature 
        variability over those centuries is very likely attributable to 
        volcanic eruptions and changes in solar irradiance, and it is 
        likely that anthropogenic forcing contributed to the early 
        20th-century warming evident in these records. (2.7, 2.8, 6.6, 
        9.3)
Projections of Future Changes in Climate
    A major advance of this assessment of climate change projections 
compared with the TAR is the large number of simulations available from 
a broader range of models. Taken together with additional information 
from observations, these provide a quantitative basis for estimating 
likelihoods for many aspects of future climate change. Model 
simulations cover a range of possible futures including idealised 
emission or concentration assumptions. These include SRES \14\ 
illustrative marker scenarios for the 2000 to 2100 period and model 
experiments with greenhouse gases and aerosol concentrations held 
constant after year 2000 or 2100.
---------------------------------------------------------------------------
    \14\ SRES refers to the IPCC Special Report on Emission Scenarios 
(2000). The SRES scenario families and illustrative cases, which did 
not include additional climate initiatives, are summarised in a box at 
the end of this Summary for Policymakers. Approximate carbon dioxide 
equivalent concentrations corresponding to the computed radiative 
forcing due to anthropogenic greenhouse gases and aerosols in 2100 (see 
p. 823 of the TAR) for the SRES B1, A1T, B2, A1B, A2 and A1FI 
illustrative marker scenarios are about 600, 700, 800, 850, 1,250 and 
1,550 ppm respectively. Scenarios B1, A1B and A2 have been the focus of 
model intercomparison studies and many of those results are assessed in 
this report.
---------------------------------------------------------------------------
    For the next two decades, a warming of about 0.2 +C per decade is 
projected for a range of SRES emission scenarios. Even if the 
concentrations of all greenhouse gases and aerosols had been kept 
constant at year 2000 levels, a further warming of about 0.1 +C per 
decade would be expected. (10.3, 10.7)

  <bullet> Since IPCC's first report in 1990, assessed projections have 
        suggested global average temperature increases between about 
        0.15 +C and 0.3 +C per decade for 1990 to 2005. This can now be 
        compared with observed values of about 0.2 +C per decade, 
        strengthening confidence in near-term projections. (1.2, 3.2)

  <bullet> Model experiments show that even if all radiative forcing 
        agents were held constant at year 2000 levels, a further 
        warming trend would occur in the next two decades at a rate of 
        about 0.1 +C per decade, due mainly to the slow response of the 
        oceans. About twice as much warming (0.2 +C per decade) would 
        be expected if emissions are within the range of the SRES 
        scenarios. Best-estimate projections from models indicate that 
        decadal average warming over each inhabited continent by 2030 
        is insensitive to the choice among SRES scenarios and is very 
        likely to be at least twice as large as the corresponding 
        model-estimated natural variability during the 20th century. 
        (9.4, 10.3, 10.5, 11.2-11.7, Figure TS-29)

    Continued greenhouse gas emissions at or above current rates would 
cause further warming and induce many changes in the global climate 
system during the 21st century that would very likely be larger than 
those observed during the 20th century. (10.3)

  <bullet> Advances in climate change modelling now enable best 
        estimates and likely assessed uncertainty ranges to be given 
        for projected warming for different emission scenarios. Results 
        for different emission scenarios are provided explicitly in 
        this report to avoid loss of this policy-relevant information. 
        Projected global average surface warmings for the end of the 
        21st century (2090-2099) relative to 1980-1999 are shown in 
        Table SPM.3. These illustrate the differences between lower and 
        higher SRES emission scenarios, and the projected warming 
        uncertainty associated with these scenarios. (10.5)

  <bullet> Best estimates and likely ranges for global average surface 
        air warming for six SRES emissions marker scenarios are given 
        in this assessment and are shown in Table SPM.3. For example, 
        the best estimate for the low scenario (B1) is 1.8 +C (likely 
        range is 1.1 +C to 2.9 +C), and the best estimate for the high 
        scenario (A1FI) is 4.0 +C (likely range is 2.4 +C to 6.4 +C). 
        Although these projections are broadly consistent with the span 
        quoted in the TAR (1.4 +C to 5.8 +C), they are not directly 
        comparable (see Figure SPM.5). The Fourth Assessment Report is 
        more advanced as it provides best estimates and an assessed 
        likelihood range for each of the marker scenarios. The new 
        assessment of the likely ranges now relies on a larger number 
        of climate models of increasing complexity and realism, as well 
        as new information regarding the nature of feedbacks from the 
        carbon cycle and constraints on climate response from 
        observations. (10.5)

  <bullet> Warming tends to reduce land and ocean uptake of atmospheric 
        carbon dioxide, increasing the fraction of anthropogenic 
        emissions that remains in the atmosphere. For the A2 scenario, 
        for example, the climate-carbon cycle feedback increases the 
        corresponding global average warming at 2,100 by more than 1 
        +C. Assessed upper ranges for temperature projections are 
        larger than in the TAR (see Table SPM.3) mainly because the 
        broader range of models now available suggests stronger 
        climate-carbon cycle feedbacks. (7.3, 10.5)

  <bullet> Model-based projections of global average sea level rise at 
        the end of the 21st century (2090-2099) are shown in Table 
        SPM.3. For each scenario, the midpoint of the range in Table 
        SPM.3 is within 10 percent of the TAR model average for 2090-
        2099. The ranges are narrower than in the TAR mainly because of 
        improved information about some uncertainties in the projected 
        contributions.\15\ (10.6)
---------------------------------------------------------------------------
    \15\ TAR projections were made for 2100, whereas projections in 
this report are for 2090-2099. The TAR would have had similar ranges to 
those in Table SPM.3 if it had treated the uncertainties in the same 
way.

 Table SPM.3. Projected Global Average Surface Warming and Sea Level Rise at the End of the 21st Century. (10.5,
                                                10.6, Table 10.7)
----------------------------------------------------------------------------------------------------------------
                                       Temperature Change  (C at 2090-2099     Sea Level Rise  (m at 2090-2099
                                            relative to 1980-1999) a                relative to 1980-1999)
                Case                ----------------------------------------------------------------------------
                                                                              Model-based range excluding future
                                       Best  estimate       Likely  range    rapid dynamical changes in ice flow
----------------------------------------------------------------------------------------------------------------
Constant Year 2000 concentrations b                0.6             0.3-0.9                                   NA
B1 scenario                                        1.8             1.1-2.9                            0.18-0.38
A1T scenario                                       2.4             1.4-3.8                            0.20-0.45
B2 scenario                                        2.4             1.4-3.8                            0.20-0.43
A1B scenario                                       2.8             1.7-4.4                            0.21-0.48
A2 scenario                                        3.4             2.0-5.4                            0.23-0.51
A1FI scenario                                      4.0             2.4-6.4                            0.26-0.59
----------------------------------------------------------------------------------------------------------------
Table notes:
a These estimates are assessed from a hierarchy of models that encompass a simple climate model, several Earth
  System Models of Intermediate Complexity and a large number of Atmosphere-Ocean General Circulation Models
  (AOGCMs).
b Year 2000 constant composition is derived from AOGCMs only.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure SPM.5. Solid lines are multi-model global averages of 
surface warming (relative to 1980-1999) for the scenarios A2, A1B and 
B1, shown as continuations of the 20th century simulations. Shading 
denotes the <plus-minus>1 standard deviation range of individual model 
annual averages. The orange line is for the experiment where 
concentrations were held constant at year 2000 values. The grey bars at 
right indicate the best estimate (solid line within each bar) and the 
likely range assessed for the six SRES marker scenarios. The assessment 
of the best estimate and likely ranges in the grey bars includes the 
AOGCMs in the left part of the figure, as well as results from a 
hierarchy of independent models and observational constraints. (Figures 
10.4 and 10.29)

  <bullet> Models used to date do not include uncertainties in climate-
        carbon cycle feedback nor do they include the full effects of 
        changes in ice sheet flow, because a basis in published 
        literature is lacking. The projections include a contribution 
        due to increased ice flow from Greenland and Antarctica at the 
        rates observed for 1993 to 2003, but these flow rates could 
        increase or decrease in the future. For example, if this 
        contribution were to grow linearly with global average 
        temperature change, the upper ranges of sea level rise for SRES 
        scenarios shown in Table SPM.3 would increase by 0.1 to 0.2 m. 
        Larger values cannot be excluded, but understanding of these 
        effects is too limited to assess their likelihood or provide a 
        best estimate or an upper bound for sea level rise. (10.6)

  <bullet> Increasing atmospheric carbon dioxide concentrations lead to 
        increasing acidification of the ocean. Projections based on 
        SRES scenarios give reductions in average global surface ocean 
        pH \16\ of between 0.14 and 0.35 units over the 21st century, 
        adding to the present decrease of 0.1 units since pre-
        industrial times. (5.4, Box 7.3, 10.4)
---------------------------------------------------------------------------
    \16\ Decreases in pH correspond to increases in acidity of a 
solution. See Glossary for further details.

    There is now higher confidence in projected patterns of warming and 
other regional-scale features, including changes in wind patterns, 
precipitation and some aspects of extremes and of ice. (8.2, 8.3, 8.4, 
---------------------------------------------------------------------------
8.5, 9.4, 9.5, 10.3, 11.1)

  <bullet> Projected warming in the 21st century shows scenario-
        independent geographical patterns similar to those observed 
        over the past several decades. Warming is expected to be 
        greatest over land and at most high northern latitudes, and 
        least over the Southern Ocean and parts of the North Atlantic 
        Ocean (see Figure SPM.6). (10.3)

  <bullet> Snow cover is projected to contract. Widespread increases in 
        thaw depth are projected over most permafrost regions. (10.3, 
        10.6)

  <bullet> Sea ice is projected to shrink in both the Arctic and 
        Antarctic under all SRES scenarios. In some projections, Arctic 
        late-summer sea ice disappears almost entirely by the latter 
        part of the 21st century. (10.3)

  <bullet> It is very likely that hot extremes, heat waves and heavy 
        precipitation events will continue to become more frequent. 
        (10.3)

  <bullet> Based on a range of models, it is likely that future 
        tropical cyclones (typhoons and hurricanes) will become more 
        intense, with larger peak wind speeds and more heavy 
        precipitation associated with ongoing increases of tropical sea 
        surface temperatures. There is less confidence in projections 
        of a global decrease in numbers of tropical cyclones. The 
        apparent increase in the proportion of very intense storms 
        since 1970 in some regions is much larger than simulated by 
        current models for that period. (9.5, 10.3, 3.8)
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Figure SPM.6. Projected surface temperature changes for the early 
and late 21st century relative to the period 1980-1999. The central and 
right panels show the AOGCM multi-model average projections for the B1 
(top), A1 B (middle) and A2 (bottom) SRES scenarios averaged over the 
decades 2020-2029 (centre) and 2090-2099 (right). The left panels show 
corresponding uncertainties as the relative probabilities of estimated 
global average warming from several different AOGCM and Earth System 
Model of Intermediate Complexity studies for the same periods. Some 
studies present results only for a subset of the SRES scenarios, or for 
various model versions. Therefore the difference in the number of 
curves shown in the left-hand panels is due only to differences in the 
availability of results. (Figures 10.8 and 10.28)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure SPM.7. Relative changes in precipitation (in percent) for 
the period 2090-2099, relative to 1980-1999. Values are multi-model 
averages based on the SRES A1B scenario for December to February (left) 
and June to August (right). White areas are where less than 66 percent 
of the models agree in the sign of the change and stippled areas are 
where more than 90 percent of the models agree in the sign of the 
change. (Figure 10.9)

  <bullet> Extratropical storm tracks are projected to move poleward, 
        with consequent changes in wind, precipitation and temperature 
        patterns, continuing the broad pattern of observed trends over 
        the last half-century. (3.6, 10.3)

  <bullet> Since the TAR, there is an improving understanding of 
        projected patterns of precipitation. Increases in the amount of 
        precipitation are very likely in high latitudes, while 
        decreases are likely in most subtropical land regions (by as 
        much as about 20 percent in the A1B scenario in 2100, see 
        Figure SPM.7), continuing observed patterns in recent trends. 
        (3.3, 8.3, 9.5, 10.3, 11.2 to 11.9)

  <bullet> Based on current model simulations, it is very likely that 
        the meridional overturning circulation (MOC) of the Atlantic 
        Ocean will slow down during the 21st century. The multi-model 
        average reduction by 2,100 is 25 percent (range from zero to 
        about 50 percent) for SRES emission scenario A1B. Temperatures 
        in the Atlantic region are projected to increase despite such 
        changes due to the much larger warming associated with 
        projected increases in greenhouse gases. It is very unlikely 
        that the MOC will undergo a large abrupt transition during the 
        21st century. Longer-term changes in the MOC cannot be assessed 
        with confidence. (10.3, 10.7)

    Anthropogenic warming and sea level rise would continue for 
centuries due to the time scales associated with climate processes and 
feedbacks, even if greenhouse gas concentrations were to be stabilised. 
(10.4, 10.5, 10.7)

  <bullet> Climate-carbon cycle coupling is expected to add carbon 
        dioxide to the atmosphere as the climate system warms, but the 
        magnitude of this feedback is uncertain. This increases the 
        uncertainty in the trajectory of carbon dioxide emissions 
        required to achieve a particular stabilisation level of 
        atmospheric carbon dioxide concentration. Based on current 
        understanding of climate-carbon cycle feedback, model studies 
        suggest that to stabilise at 450 ppm carbon dioxide could 
        require that cumulative emissions over the 21st century be 
        reduced from an average of approximately 670 [630 to 710] GtC 
        (2460 [2310 to 2600] GtCO<INF>2</INF>) to approximately 490 
        [375 to 600] GtC (1800 [1370 to 2200] GtCO<INF>2</INF>). 
        Similarly, to stabilise at 1,000 ppm, this feedback could 
        require that cumulative emissions be reduced from a model 
        average of approximately 1415 [1340 to 1490] GtC (5190 [4910 to 
        5460] GtCO<INF>2</INF>) to approximately 1100 [980 to 1250] GtC 
        (4030 [3590 to 4580] GtCO<INF>2</INF>). (7.3, 10.4)

  <bullet> If radiative forcing were to be stabilised in 2100 at B1 or 
        A1B levels \14\ a further increase in global average 
        temperature of about 0.5 +C would still be expected, mostly by 
        2200. (10.7)

  <bullet> If radiative forcing were to be stabilised in 2100 at A1B 
        levels \14\, thermal expansion alone would lead to 0.3 to 0.8 m 
        of sea level rise by 2300 (relative to 1980-1999). Thermal 
        expansion would continue for many centuries, due to the time 
        required to transport heat into the deep ocean. (10.7)

  <bullet> Contraction of the Greenland Ice Sheet is projected to 
        continue to contribute to sea level rise after 2100. Current 
        models suggest that ice mass losses increase with temperature 
        more rapidly than gains due to precipitation and that the 
        surface mass balance becomes negative at a global average 
        warming (relative to pre-industrial values) in excess of 1.9 +C 
        to 4.6 +C. If a negative surface mass balance were sustained 
        for millennia, that would lead to virtually complete 
        elimination of the Greenland Ice Sheet and a resulting 
        contribution to sea level rise of about 7 m. The corresponding 
        future temperatures in Greenland are comparable to those 
        inferred for the last interglacial period 125,000 years ago, 
        when palaeoclimatic information suggests reductions of polar 
        land ice extent and 4 to 6 m of sea level rise. (6.4, 10.7)

  <bullet> Dynamical processes related to ice flow not included in 
        current models but suggested by recent observations could 
        increase the vulnerability of the ice sheets to warming, 
        increasing future sea level rise. Understanding of these 
        processes is limited and there is no consensus on their 
        magnitude. (4.6, 10.7)

  <bullet> Current global model studies project that the Antarctic Ice 
        Sheet will remain too cold for widespread surface melting and 
        is expected to gain in mass due to increased snowfall. However, 
        net loss of ice mass could occur if dynamical ice discharge 
        dominates the ice sheet mass balance. (10.7)

  <bullet> Both past and future anthropogenic carbon dioxide emissions 
        will continue to contribute to warming and sea level rise for 
        more than a millennium, due to the time scales required for 
        removal of this gas from the atmosphere. (7.3, 10.3)
The Emission Scenarios of the IPCC Special Report on Emission Scenarios 
                              (SRES) \17\
---------------------------------------------------------------------------
    \17\ Emission scenarios are not assessed in this Working Group I 
Report of the IPCC. This box summarising the SRES scenarios is taken 
from the TAR and has been subject to prior line-by-line approval by the 
Panel.
---------------------------------------------------------------------------
    A1. The A1 storyline and scenario family describes a future world 
of very rapid economic growth, global population that peaks in mid-
century and declines thereafter, and the rapid introduction of new and 
more efficient technologies. Major underlying themes are convergence 
among regions, capacity building and increased cultural and social 
interactions, with a substantial reduction in regional differences in 
per capita income. The A1 scenario family develops into three groups 
that describe alternative directions of technological change in the 
energy system. The three A1 groups are distinguished by their 
technological emphasis: fossil-intensive (A1FI), non-fossil energy 
sources (A1T) or a balance across all sources (A1B) (where balanced is 
defined as not relying too heavily on one particular energy source, on 
the assumption that similar improvement rates apply to all energy 
supply and end-use technologies).
    A2. The A2 storyline and scenario family describes a very 
heterogeneous world. The underlying theme is self-reliance and 
preservation of local identities. Fertility patterns across regions 
converge very slowly, which results in continuously increasing 
population. Economic development is primarily regionally oriented and 
per capita economic growth and technological change more fragmented and 
slower than other storylines.
    B1. The B1 storyline and scenario family describes a convergent 
world with the same global population, that peaks in mid-century and 
declines thereafter, as in the A1-storyline, but with rapid change in 
economic structures toward a service and information economy, with 
reductions in material intensity and the introduction of clean and 
resource-efficient technologies. The emphasis is on global solutions to 
economic, social and environmental sustainability, including improved 
equity, but without additional climate initiatives.
    B2. The B2 storyline and scenario family describes a world in which 
the emphasis is on local solutions to economic, social and 
environmental sustainability. It is a world with continuously 
increasing global population, at a rate lower than A2, intermediate 
levels of economic development, and less rapid and more diverse 
technological change than in the B1 and A1 storylines. While the 
scenario is also oriented toward environmental protection and social 
equity, it focuses on local and regional levels.
    An illustrative scenario was chosen for each of the six scenario 
groups A1B, A1FI, A1T, A2, B1 and B2. All should be considered equally 
sound.
    The SRES scenarios do not include additional climate initiatives, 
which means that no scenarios are included that explicitly assume 
implementation of the United Nations Framework Convention on Climate 
Change or the emissions targets of the Kyoto Protocol.

                                  <all>

</pre></body></html>
